<html>
<title> - REBUILDING INFRASTRUCTURE IN AMERICA: INVESTING IN NEXT GENERATION BROADBAND</title>
<body><pre>[Senate Hearing 115-764]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-764

  REBUILDING INFRASTRUCTURE IN AMERICA: INVESTING IN NEXT GENERATION 
                               BROADBAND

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, INNOVATION, AND THE 
                                INTERNET

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                Available online: http://www.govinfo.gov 
                
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-879 PDF                 WASHINGTON : 2020 
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

    SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, INNOVATION, AND THE 
                                INTERNET

ROGER F. WICKER, Mississippi,        BRIAN SCHATZ, Hawaii, Ranking
    Chairman                         MARIA CANTWELL, Washington
ROY BLUNT, Missouri                  AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                EDWARD MARKEY, Massachusetts
JERRY MORAN, Kansas                  TOM UDALL, New Mexico
DAN SULLIVAN, Alaska                 GARY PETERS, Michigan
DEAN HELLER, Nevada                  TAMMY BALDWIN, Wisconsin
JAMES INHOFE, Oklahoma               TAMMY DUCKWORTH, Illinois
MIKE LEE, Utah                       MAGGIE HASSAN, New Hampshire
RON JOHNSON, Wisconsin               CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  JON TESTER, Montana
CORY GARDNER, Colorado
TODD YOUNG, Indiana 



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 13, 2018...................................     1
Statement of Senator Wicker......................................     1
Statement of Senator Nelson......................................     3
Statement of Senator Schatz......................................    42
Statement of Senator Blunt.......................................    44
Statement of Senator Udall.......................................    46
    Prepared statement of Godfrey Enjady, General Manager, 
      Mescalero Apache Telecommunications, Inc...................    46
Statement of Senator Fischer.....................................    49
Statement of Senator Hassan......................................    51
Statement of Senator Moran.......................................    53
Statement of Senator Tester......................................    56
Statement of Senator Klobuchar...................................    58
Statement of Senator Capito......................................    60
Statement of Senator Peters......................................    62
Statement of Senator Blumenthal..................................    65
Statement of Senator Sullivan....................................    66
Statement of Senator Gardner.....................................    68
Statement of Senator Baldwin.....................................    70

                               Witnesses

Hon. Gary Resnick, Mayor, City of Wilton Manors, Florida.........     4
    Prepared statement...........................................     5
Steven K. Berry, President and Chief Executive Officer, 
  Competitive Carriers Association...............................    11
    Prepared statement...........................................    12
Robert DeBroux, Director, Federal Affairs and Public Policy, TDS 
  Telecommunications, LLC........................................    22
    Prepared statement...........................................    23
Brad Gillen, Executive Vice President, CTIA......................    26
    Prepared statement...........................................    27
Michael Romano, Senior Vice President, Industry Affairs and 
  Business Development, NTCA--The Rural Broadband Association....    30
    Prepared statement...........................................    32

                                Appendix

Utilities Technology Council, prepared statement.................    73
Response to written questions submitted by Hon. Gary Peters to:
    Hon. Gary Resnick............................................    74
Response to written questions submitted to Steven K. Berry by:
    Hon. Gary Peters.............................................    75
    Hon. Catherine Cortez Masto..................................    76
Response to written questions submitted to Robert DeBroux by:
    Hon. Gary Peters.............................................    77
    Hon. Catherine Cortez Masto..................................    78
Response to written questions submitted to Brad Gillen by:
    Hon. Jerry Moran.............................................    79
    Hon. Gary Peters.............................................    81
    Hon. Catherine Cortez Masto..................................    82
Response to written questions submitted to Michael Romano by:
    Hon. Gary Peters.............................................    84
    Hon. Catherine Cortez Masto..................................    85

 
                 REBUILDING INFRASTRUCTURE IN AMERICA: 
                 INVESTING IN NEXT GENERATION BROADBAND

                              ----------                              


                        TUESDAY, MARCH 13, 2018

                               U.S. Senate,
       Subcommittee on Communications, Technology, 
                      Innovation, and the Internet,
       Committee on Commerce, Science, and Transportation ,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Roger Wicker, 
Chairman of the Subcommittee, presiding.
    Present: Senators Wicker [presiding], Nelson, Schatz, 
Blunt, Udall, Fischer, Hassan, Moran, Tester, Klobuchar, 
Capito, Peters, Blumenthal, Sullivan, Gardner, and Baldwin.

          OPENING STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI.

    Senator Wicker. Good morning. This hearing of Subcommittee 
will come to order.
    Today the Subcommittee will kick off a series of hearings 
in the Commerce Committee on Rebuilding America's 
Infrastructure. We start here in the communications 
subcommittee with a focus on how to advance broadband 
deployment in infrastructure legislation this Congress. I'm 
glad to convene this hearing with my colleague, Ranking Member 
Schatz.
    Broadband connectivity is the digital engine driving 
investment, innovation and productivity in virtually every 
economic sector in the United States. Over the past decade 
there have been unprecedented advancements in healthcare, 
agriculture, transportation and many other industries because 
of increasingly ubiquitous broadband connections. These 
connections are helping industries reduce cost, increase 
efficiencies and rapidly identify and act on opportunities for 
growth.
    Continuing the success of these developments and 
maintaining the Nation's global leadership in technological 
innovation are goals that depend on widespread access to a 
reliable high speed broadband connection. Although we have made 
significant progress on wireline, wireless and satellite 
broadband deployments, more needs to be done. There is still a 
disparity in broadband deployment across the country, 
particularly in rural America.
    In its 2018 broadband deployment report the FCC concluded 
that ``far too many Americans remain unable to access high 
speed broadband Internet access and we have much work to do.'' 
A direct quote from the Federal Communications Commission.
    To that end, I'm greatly encouraged by the President's 
support for programs directed toward increasing broadband 
infrastructure deployment in rural areas. Today I hope to 
discuss with our witnesses how Congress can most effectively 
and efficiently deploy broadband infrastructure to unserved 
communities. Using lessons learned earlier from broadband 
projects, President Trump's infrastructure proposal is an 
opportunity to get broadband to communities that truly need it.
    This process should start with collecting standardized and 
accurate data about where the reliable fixed and mobile 
broadband already exists and where it does not, both in 
Mississippi and around the country. This is critical to 
delivering broadband to rural communities that lack service, 
whether that be through infrastructure legislation or existing 
Federal programs like Phase II of the mobility fund.
    Inaccurate information of where broadband exists would only 
exacerbate the digital divide and leave millions of rural 
Americans further behind. We don't have accurate data yet, and 
I hope we can discuss that today in the hearing. As we seek to 
close the broadband gap in rural America, we should also plan 
for the next generation of broadband such as 5G.
    The availability of 5G communication networks promises to 
transform the way we experience the Internet because of the 
projected capacity speed and reliability to make next 
generation broadband a reality and position the United States 
so it can win the global race to 5G. We should modernize 
outdated rules that delay and add unnecessary cost to broadband 
infrastructure deployment.
    A bipartisan piece of legislation that I introduced called 
the Streamlining Permitting to Enable Efficient Deployment of 
Broadband Infrastructure or SPEED Act does just that. Inaction 
on our part would take the next generation of jobs, innovation 
and investment out of the United States and put us at an 
economic disadvantage with respect to our global competitors.
    Clearly as the FCC concluded in its report that I have just 
quoted, there is much work to be done. We are almost one-fifth 
of the way through the 21st century. We ought to be able to 
accelerate the deployment of next generation broadband, get all 
Americans connected now and close the digital divide once and 
for all.
    I'm told that Senator Schatz has no opening statement, and 
I think that's because he has concluded that I so completely 
covered the subject in my opening statement. So we will get 
right to our witnesses, and they include the Honorable Gary 
Resnick, Mayor of the City of Wilton Manors, Florida.
    Oh, I see, so the other part of that statement was that 
Senator Nelson wishes to make an opening statement. After I 
introduce our panel, we will certainly allow that. Although I'm 
crushed now that the conclusion wasn't that I had said all that 
could possibly be said.
    Mayor Resnick will be joined by Mr. Steve Berry, Chief 
Executive Officer, Competitive Carriers Association; Mr. Robert 
DeBroux, Director of Federal Affairs and Public Policy, TDS 
Telecom; Mr. Brad Gillen, Executive Vice President, CTIA, the 
Wireless Association; and, Mr. Mike Romano, Senior Vice 
President for Policy, NTCA, the Rural Broadband Association.
    The Chair now recognizes Senator Nelson, the Ranking Member 
of the Full Committee.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I do appreciate it. As you 
know, Florida has many rural areas where we desperately need 
advanced broadband networks. We do have advanced networks in 
our state, but in rural areas such as Gilchrist, Dixie, Levy, 
and even some cities where citizens have little to no access to 
quality and affordable Internet service and in those areas 
students often lack the ability to complete their homework, 
small businesses cannot compete and social and political 
engagement is hampered.
    We have to close this digital divide and leave no area of 
this country behind. That's why we have wanted to include 
significant direct investments in broadband deployment in any 
Federal infrastructure legislation.
    Because the administration's proposal is simply inadequate 
on broadband expansion, it is incumbent on this Committee to 
work together in a bipartisan way to provide these critical 
investments. Everyone, from those of us in the Senate, to our 
mayors, local officials, we want Americans to benefit from the 
availability of robust broadband.
    Building these networks has always raised a number of very 
sensitive issues from historic preservation and environmental 
concerns to state and local land use policies to tribal 
sovereignty and national security. And the highly anticipated 
5G wireless technology brings with it networks that will 
require installation of much denser wireless infrastructure 
made up of many more small cell facilities. So we ought to have 
reasoned discussion about these regulatory issues.
    That reasoned discussion cannot begin and end with a wiping 
away of key laws and regulations meant to protect our fellow 
citizens and important Federal, state, local and tribal 
interests. Steps that the FCC seems keen to take. And that 
discussion must include fair and fulsome input from all 
affected parties, including states and localities. And that's 
why I'm pleased that Mayor Resnick is here. He is here for a 
repeat performance. And he's going to provide the Committee 
with the important local government perspective.
    And I hope that all stakeholders, including those 
represented before us today, can work together to help find 
ways to effectively balance these competing concerns about 
siting, construction of broadband facilities and consumers' 
increasing demand for fast and reliable broadband services.
    Mr. Chairman, I thank you.
    Senator Wicker. And thank you, Senator Nelson.
    Mayor Resnick, we will begin with you. I understand you 
represent a City of about 11,000 just off I-95; is that 
correct?
    Mr. Resnick. That is correct. We are Broward County, 
Florida; east Broward County.
    Senator Nelson. Mr. Chairman, they are not far from the 
very, very terrible, tragic shooting in Parkland.
    Mr. Resnick. That is correct, Senator. Thank you. Two of my 
colleagues that I work very closely with have children that 
attend that school. And fortunately they were fine, but they 
will probably be dealing with the trauma for the rest of their 
lives. So we do appreciate your sentiments with respect to 
that.
    Senator Wicker. Well, and please do express our concern and 
good wishes to all of the people who were involved.
    Mr. Resnick. Thank you.
    Senator Wicker. And to the citizens of your city.
    Mr. Resnick. Thank you.
    Senator Wicker. So proceed with your testimony. Thank you 
for coming.

            STATEMENT OF HON. GARY RESNICK, MAYOR, 
                 CITY OF WILTON MANORS, FLORIDA

    Mr. Resnick. Good morning. Thank you so much, Chairman. 
First Chairman Wicker, Ranking Member Schatz, Senator Nelson, 
thank you so much for your service for Floridians. We really do 
appreciate your wonderful service for our country.
    I am Gary Resnick, Mayor of the great City of Wilton 
Manors, Florida. I have the honor of serving on the Board of 
the National League of Cities and chairing its Information, 
Technology and Communications Committee.
    I want to thank you for the opportunity to share some 
perspective from city leaders across the country and for 
calling attention to the importance of broadband infrastructure 
deployment. I would also like to recognize my fellow city 
officials who are here today. In fact, many of my friends from 
Florida traveled here for NLC's Congressional Cities Conference 
to emphasize the pressing need for infrastructure investment.
    I can assure that you no one cares more about competitive 
broadband access than local governments. We recognize that 
everyone needs affordable, fast internet. Cities, however, are 
not the reason that millions of Americans lack the necessary 
infrastructure in their communities.
    Today I would like to outline the challenges cities face in 
ensuring that all Americans have access to affordable 
broadband.
    I would also like to offer policy solutions to tackle these 
challenges. First, cities continue to face preemption by states 
and the Federal Government. Many states do not allow cities to 
build municipal networks or even to negotiate directly with 
broadband providers to ensure that all neighborhoods are 
served. Congress must preserve local authority and allows us to 
do what we do best, solve problems for our residents.
    Second, too many neighborhoods, particularly less dense and 
lower income areas, have a lack of fiber investment and rural 
communities are being left totally behind by new leaps in 
technology. It is simply not sufficiently profitable for 
private broadband providers to build in many cities and towns 
leaving residents with inadequate options or none at all.
    For too many households, a broadband subscription is simply 
not affordable. The public libraries in my city are packed 
after school with children looking for a place to get online to 
do their homework. To address these gaps, Congress should 
strengthen existing programs to expand broadband access and to 
tackle Federal barriers to infrastructure deployment.
    I would like to thank this committee for its work on the 
MOBILE NOW Act and the Dig Once legislation which eliminates 
some Federal barriers to deployment.
    Finally, preemption of local authority over small cell 
deployment is bad public policy. Our residents and businesses 
are being asked to subsidize the private sector's deployment of 
small cell infrastructure, supposedly for 5G. This technology 
does not even exist. More importantly, it will not solve our 
problems of rural access and digital inclusiveness.
    Small cell technology is called small, not because it is 
physically small, but because the signal covers a small area. 
This makes small cells a good technology for improving signal 
in profitable downtown areas, but terrible for covering 
communities with few potential customers.
    The Federal Government should work with both local 
governments and the industry. An example that does not work is 
the FCC's Broadband Deployment Advisory Committee. It continues 
to be structurally dominated by industry. The BDAC recently 
completed a draft model State code that lacked input from a 
single local official.
    Finally, the Federal Government must require responsible 
industry practices. In the recent hurricane season experienced 
by my community, and hundreds of others around the country, we 
lost power and communications because so many of our utilities 
are installed above ground. Restoring communications was a 
challenge as cable, phone and wireless providers were slow to 
assist with recovery efforts.
    Companies enjoying access to the incredible valuable public 
rights-of-way should be good citizens, particularly in times of 
emergency.
    On behalf of the City of Wilton Manors and National League 
of Cities, I want to thank the Committee for inviting me to 
participate in this hearing and cities are committed to 
ensuring that Americans benefit from advances in next 
generation broadband.
    Thank you and I look forward to your questions.
    [The prepared statement of Mr. Resnick follows:]

 Prepared Statement of Hon. Gary Resnick, Mayor, Wilton Manors, Florida
    Good morning, Chairman Wicker, Ranking Member Schatz, and members 
of the Subcommittee. I am Gary Resnick, Mayor of Wilton Manors, 
Florida. I'm here to speak on behalf of the National League of Cities, 
the Nation's oldest and largest organization representing local elected 
officials in America's cities and towns of all sizes in your states and 
across the country.
    I currently serve as Chair of NLC's Information Technology and 
Communications Committee and a member of NLC's Board of Directors. In 
addition, I served on the Federal Communications Commission's (FCC) 
Intergovernmental Advisory Committee for eight years, including as 
Chair from 2014 through 2016. More locally, I have served on the Board 
of Directors of the Florida League of Cities for 15 years and have 
chaired various committees for the Florida League addressing 
communications policies. My background as an attorney with the Florida 
firm of GrayRobinson, representing businesses and local governments for 
over 20 years in connection with communication issues, and my role as 
Mayor, has afforded me a unique opportunity to work effectively with 
public and private entities, and local citizens, focused on improving 
communications services.
    I want to thank Senators Thune and Nelson for inviting me here to 
share some perspective from city leaders across the country. I'd also 
like to thank the Subcommittee for calling attention to the importance 
of broadband deployment. I particularly want to thank the members of 
this subcommittee for their work to advance the dig once language 
currently included in the FCC reauthorization bill. Common-sense 
bipartisan policies like dig once will help us move toward responsible 
broadband infrastructure deployment.
    I also want to recognize my fellow local elected officials here 
today. We are in Washington for NLC's Congressional City Conference, 
and no doubt you will be hearing from my colleagues in the coming days 
about how sorely broadband and other infrastructure investment is 
needed in our communities. Affordable broadband for all Americans is 
vital for 21st century education, health care, economy, recreation, and 
public safety.
Cities Want and Need Broadband, But Obstacles Remain
    City officials continue to work with our private, state, and 
Federal partners to close the digital divide and provide the remaining 
disconnected 10 percent of Americans, including 39 percent of Americans 
living in rural areas, with access to the FCC's current benchmarked 25 
Mbps/3 Mbps service, and more robust service, at affordable rates, that 
will be demanded by our younger generation.
    Cities, perhaps more than any other level of government, understand 
the absolute necessity of reliable, affordable broadband for our 
residents and businesses. Local officials are keenly aware of the 
broadband gaps in their communities, driven by a lack of infrastructure 
investment by the private sector and broadband options that are far too 
costly for many residents and businesses. We are also aware of the 
public need for broadband, as human resources, utilities, city clerks, 
parks and recreation, and as we just saw only twenty miles from Wilton 
Manors in Parkland, Florida, police and EMS first responders absolutely 
need technology to do their jobs.
    Despite the diligent efforts by communities across the country, 
these gaps in service persist and are increasing. If our goal is to 
ensure that all Americans have access to reliable, affordable broadband 
services, states and the Federal Government are not adopting 
appropriate actions consistent with that policy. I appreciate the 
opportunity to share with you reasons why most Americans do not have 
appropriate access to affordable broadband, from our local government 
vantage point, and offer some solutions.

  <bullet> Preemption of Local Investment--In many states and in many 
        FCC orders, local governments are preempted from negotiating 
        with broadband providers or regulating broadband service. In 
        Florida, for example, my City is prohibited from entering into 
        an agreement with a broadband provider for use of our rights-
        of-way. Cities and counties in Florida also have no authority 
        to regulate broadband service. The same holds true for state 
        agencies, including the Florida Public Service Commission, and 
        even the FCC. Without the ability to enter agreements or to 
        regulate broadband providers, the only reason for a broadband 
        provider to provide service is profit. Not all potential 
        consumers are going to provide sufficient incentive for private 
        investment in broadband infrastructure. It is up to government 
        to address this gap where the market fails.

        Many local governments have heard their residents' complaints 
        and attempt to address the lack of affordable, reliable 
        broadband either on their own with public municipal broadband 
        networks, or by pursuing public-private partnerships. Mayors 
        are good at getting things done. However, once again, we are 
        preempted by industry-backed state laws that not only prohibit 
        local governments from offering broadband, but some that 
        require local governments that have already built taxpayer-
        funded networks to shut them down. NLC's Center for City 
        Solutions and Applied Research found that in 2016, nearly half 
        of states preempted cities from creating--or even exploring--
        municipal broadband networks.\1\ Yet, as we have seen with the 
        large number of successful ballot initiatives in cities in 
        Colorado, the demand remains enormous, and needs continue to go 
        unmet by the private sector. In Fort Collins, Colorado, the 
        city's residents recently passed a referendum granting the city 
        permission to build a municipal fiber network, despite industry 
        spending nearly a million dollars campaigning against it.\2\ 
        Imagine how many broadband customers could have been served by 
        those dollars, if they had not been spent fighting a local 
        government attempt to fill a void where there was not even a 
        private competitor.
---------------------------------------------------------------------------
    \1\ National League of Cities. ``City Rights in an Era of 
Preemption,'' February 22, 2017. Online at http://www.nlc.org/
preemption.
    \2\ Nick Coltrain. ``$900K spent on failed fight against Fort 
Collins broadband,'' December 8, 2017, The Coloradoan. Online at 
https://www.coloradoan.com/story/news/2017/12/08/fort-collins-
broadband-vote-spending/934967001/.

  <bullet> Lack of Fiber Investment--Even in urban and suburban areas, 
        like my City, neighborhoods lack the necessary infrastructure 
        for true in-home or business broadband. As leaps in technology 
        move wealthy, highly profitable neighborhoods ahead, many areas 
        are being left further and further behind. Despite offering 
        fairly high density in eastern Broward County, Florida, and 
        having two of the largest wireline broadband providers 
        competing home by home, my City does not enjoy fiber to the 
        home, except in a few private developments that are served by 
        smaller, nimbler providers who negotiated contracts that they 
        feel can provide appropriate compensation for their investment. 
        If smaller companies can manage this, why not the large 
        incumbents? This is the same across Florida and the Nation. 
        When some potential competitors announce they will construct 
        fiber, we see the incumbents hold press conferences to announce 
        increased investment in fiber, but this is extremely rare, 
        particularly as competitors pause fiber builds and cities face 
        court challenges to prevent or delay access to utility poles. 
        As we recently saw in the legal challenge to the City of 
        Louisville's One Touch Make Ready ordinance, incumbents are 
        willing to invest significant resources to maintain barriers to 
        competition that could increase consumer choice.\3\
---------------------------------------------------------------------------
    \3\ ``Judge throws out AT&T suit against city's `Google Fiber' 
proposal.'' Louisville Courier-Journal, August 16, 2017. Available 
https://www.courier-journal.com/story/news/politics/metro-government/
2017/08/16/judge-throws-out-at-t-suit-against-citys-google-fiber-
proposal/57386
3001/.

  <bullet> Our Forsaken Rural Communities--While residents and 
        businesses in more populated areas can generally obtain 
        broadband service, though often at a high price, our Nation's 
        policies and actions on broadband have not closed the digital 
        divide in rural areas. Small and rural communities are often 
        the last to receive improved technology, because of the high 
        cost of construction and relatively low return on investment. 
        There is no incentive or regulatory mandate for a private 
        company to build broadband to serve customers in areas that 
        will not generate sufficient profits. In some communities, it 
        may never be profitable for a private company to offer 
        broadband. That does not mean that we are absolved of our 
        responsibility to ensure that those residents have access to a 
---------------------------------------------------------------------------
        vital modern utility.

        While my home in Wilton Manors is in a relatively urban area, I 
        also have experience with trying to obtain reliable broadband 
        in rural Georgia for a family home. There is one landline 
        communications provider serving the area, and it does not offer 
        broadband. The maximum data service is 5 mbps download for 
        about $60 per month. Many residents in the area rely solely on 
        wireless data. For vacationers, this may be fine. However, for 
        families with children or people running businesses, the lack 
        of broadband hurts educational and economic opportunities and 
        harms economic development in these areas.

  <bullet> Financial Issues--Even in neighborhoods with broadband 
        infrastructure, high rates can keep families from getting and 
        maintaining a subscription. Increased housing, medical, and 
        educational costs make it difficult for many households to 
        budget for broadband, despite its importance. The public 
        libraries in my area are packed after school with children 
        looking for a place to do their homework, since they do not 
        have broadband access at home. While teenagers live on their 
        smart phones, despite what the FCC may think, there are limits 
        to what you can do on such devices and wireless broadband is 
        similarly not affordable for many families.

        While we are on the subject of money, the wireless broadband 
        industry has been successful in getting taxpayers to subsidize 
        the industry's access to public assets and rights-of-way. For 
        example, in Florida, cities and counties cannot charge service 
        providers for use of public rights-of-way. Taxpayers pay 100 
        percent of our costs to maintain the public rights-of-way. 
        Also, we cannot charge permit fees to process applications to 
        construct infrastructure in our rights-of-way. Taxpayers foot 
        the bill for our staff time to review these applications. This 
        is particularly a problem for smaller cities that do not have 
        in-house staff and pay out of pocket for outside contractors to 
        review permits. While Florida established a communications 
        services tax for communications providers using public rights-
        of-way, a portion of which is distributed to cities and 
        counties, the providers do not pay that. Rather, the tax is 
        paid entirely by their subscribers as line items on bills. 
        Ironically, there is no tax on Internet service or prepaid 
        wireless service, so the fastest growing and most profitable 
        services that benefit the most from use of public rights-of-way 
        contribute nothing for rights-of-way maintenance.

        Also, around the country, the industry has lobbied for State 
        legislation--and is pushing soon to be released FCC 
        regulations--giving them access to publicly owned light and 
        traffic poles at virtually no cost. In Florida and many other 
        states, the maximum rate Verizon or AT&T pays is $150/year/
        pole. The typical cost to our taxpayers to purchase and to 
        install a new light pole is $15,000. The industry pays roughly 
        1 percent of the cost and once again, taxpayers subsidize this 
        industry's use of public resources. Market rates for access to 
        poles where local governments are not preempted from charging 
        market rates are closer to $2,000/pole/year. Given the 
        tremendous expenses cities and counties around the U.S. are 
        incurring, with aging infrastructure, soaring health care costs 
        for employees and first responders, and costly improvements for 
        public safety, this is not the time to be asking local 
        governments' residents to subsidize a for-profit communications 
        industry that is hardly in need of a handout.

  <bullet> Preemption of Local Authority Over Small Cells Is Not a 
        Silver Bullet--While wireless providers have touted the 
        potential of 5G, it is important to keep in mind the realities 
        of prospective 5G networks, and the limitations of the 
        technology. 5G deployment will not be a panacea for digital 
        inequity in the United States, particularly in rural areas. 5G, 
        which is still being standardized, necessitates the buildout of 
        hundreds of thousands of small cell sites because the portion 
        of the spectrum it uses cannot travel very far. Small cell 
        technology is called small not because it is physically small, 
        but because the signal covers a small area. This makes them 
        great tools for densifying downtown networks and event venues, 
        but terrible tools for covering sparsely populated, far-flung 
        communities. At a conference last week, the big 4 wireless 
        carriers announced their 5G market plans. No location in 
        Florida, Mississippi, or South Dakota is on anyone's plans for 
        2018 or 2019. They are looking at the most profitable markets, 
        like Dallas, Atlanta, Chicago and a few others. They will not 
        extend 5G to rural areas, nor to areas where there will not be 
        many customers because of the high rates. Even if we eliminate 
        all local permitting processes, and every environmental and 
        historic review, we cannot streamline our way out of the cost 
        to deploy broadband in rural areas.
Policy Recommendations for the Subcommittee
    As the Subcommittee works to promote the advancement of next-
generation technology, I hope that you will also maintain focus on a 
core goal of ensuring that all Americans have reliable access to 
affordable, truly high-speed broadband. To further that goal, NLC has 
proposed a number of actions the Federal Government can take to 
increase broadband availability, affordability, and adoption.

  <bullet> Work in Partnership with Local Governments--Congress and the 
        FCC should more actively engage local governments in Federal 
        decision-making processes. Since I last testified, the FCC's 
        Broadband Deployment Advisory Committee (BDAC) has continued 
        its work to create policy recommendations on broadband 
        deployment without a sufficient balance of public and private 
        interests. Local government representatives are outnumbered on 
        that committee by industry by a ratio of ten to one, and the 
        BDAC's work on a model state code was completed behind closed 
        doors without input from a single local government committee 
        member.

        One local official, Mayor Sam Liccardo of the City of San Jose, 
        was driven to resign from the committee by its overwhelmingly 
        biased process and predetermined outcomes.\4\ As Mayor Liccardo 
        had noted in the few public meetings of the BDAC, the 
        committee's recommendations have done nothing to address the 
        challenges of broadband access and affordability in low-income 
        and rural communities, despite the Commission's stated goal of 
        closing the digital divide. When the Mayor of America's 5th 
        largest city is not being allowed to provide meaningful input 
        on important national policy that will affect his and all 
        communities in the country, something is wrong with this 
        process. We do not believe the BDAC represents a good-faith 
        effort by the FCC to engage in meaningful dialog or create 
        consensus around the best ways to expand broadband access. If 
        state, tribal, and local officials are willing to volunteer 
        their time and travel to these meetings at the expense of their 
        communities, the FCC must take advantage of their 
        contributions.
---------------------------------------------------------------------------
    \4\ Mayor Sam Liccardo, Letter to Ajit Pai, January 25, 2018, 
Available online at http://www.sanjoseca.gov/DocumentCenter/View/74464.

  <bullet> Preserve Local Authority--I urge this Committee to avoid 
        further preemption in legislation focused on broadband. While I 
        understand the drive to deploy 5G infrastructure efficiently 
        and cost-effectively, we must not subsidize one sector of the 
        broadband industry at taxpayers' expense. Imposing new 
        restrictions on cities such as unreasonable shot clocks, 
        restrictions on rent for public property to ``actual and direct 
        costs,'' and deemed granted remedies will only ultimately harm 
        cities' ability to manage responsibly the public rights-of-way 
        for all users. Cities continue to face mounting pressure to 
        provide an increasing number of critical services, yet states--
        and now federal--governments are restricting our ability to 
---------------------------------------------------------------------------
        raise additional revenue to carry out necessary activities.

        The Federal Government should understand that even if it adopts 
        the industry's recommendations and preempts local governments 
        further, cities and counties will not sacrifice residents' and 
        businesses' health, safety and welfare by allowing 
        infrastructure where it does not belong. Years of litigation is 
        certainly not a good broadband policy. We best understand our 
        communities' needs and concerns. It is foolish to try to 
        develop national regulations for deploying broadband 
        infrastructure without local governments having a seat at the 
        table.

  <bullet> Strengthen Existing Federal Programs to Expand Broadband 
        Access--As this Committee and others work to invest in 
        broadband infrastructure, I encourage you to focus your efforts 
        on strengthening existing Federal programs that work. Programs 
        should be improved and updated, rather than eliminated or 
        replaced with new systems. Every Federal grant or loan comes 
        with a certain amount of application and compliance work for 
        eligible cities, and leveraging existing programs streamlines 
        the process by allowing communities to use the programs they 
        already know how to manage. For example, the Community 
        Development Block Grant and Choice Neighborhood Grant programs 
        are extremely flexible tools for communities that can be used 
        for broadband planning and deployment alongside affordable 
        housing and neighborhood improvement projects. These programs 
        should be protected and fully funded.

        Congress should also support existing broadband grant and loan 
        programs that directly distribute Federal dollars to local 
        governments and community institutions that work on broadband 
        planning and deployment. The now-concluded Broadband Technology 
        Opportunities Program, the U.S. Department of Agriculture's 
        Rural Utilities Service, and the various components of the 
        Universal Service Fund programs are important tools for closing 
        the digital divide in unserved and underserved communities. 
        Congress should work to ensure that these programs are 
        sustainably funded and have the flexibility to reach as many 
        people as possible, while also ensuring that money is spent 
        responsibly and where it is most needed.

  <bullet> Tackle Federal Barriers to Infrastructure Deployment--I 
        thank the Subcommittee members for their efforts in directly 
        addressing Federal barriers to broadband infrastructure 
        deployment. In particular, passage of the bipartisan MOBILE NOW 
        Act and the dig once provision within the recently-passed FCC 
        reauthorization legislation will support deployment of 
        broadband infrastructure. By freeing up Federal spectrum, 
        streamlining access to Federal lands, building a database of 
        available infrastructure, and implementing common-sense dig 
        once policies for Federal construction, the Committee is 
        helping to eliminate obvious barriers to deployment in Federal 
        systems.

        NLC also encourages Congress to strengthen the Federal 
        Government's role in data gathering and management to ensure 
        that private and public investments are made where they are 
        most needed. Congress must not only call for an update to the 
        National Broadband Map, but ensure that agencies are adequately 
        resourced to gather that data and that the data provided to the 
        public is accurate. Congress should also encourage the FCC to 
        take action on our 2016 recommendation from the 
        Intergovernmental Advisory Committee to create and maintain a 
        comprehensive database of facilities available for wireless 
        infrastructure collocation, particularly macro cell towers. 
        Collocation reduces the costs and physical imposition of 
        wireless infrastructure in our communities, and should be 
        encouraged as we deploy many more small cell structures. The 
        IAC recommended that it would be a good practice for local 
        governments and the FCC to maintain such information to 
        collocate wireless communications facilities more easily.

  <bullet> Allow Local Governments to Use Every Tool in the Toolbox--We 
        need every tool in the toolbox to ensure our residents can have 
        access to affordable, modern broadband and do not wind up 
        subsidizing the provider and infrastructure industries without 
        obtaining significant benefits in return. That means allowing 
        local governments to implement innovative policies like touch-
        once, which minimizes the time and disruption necessary to add 
        new broadband providers to existing utility poles.

        Cities also need the freedom to develop municipal broadband 
        networks, if appropriate, without outright or effective 
        preemption that limits competition. Smaller and rural 
        communities that have successfully developed partially or 
        wholly publicly owned networks have found this option to be a 
        critical lifeline in a market where private providers cannot 
        realize a high return on investment. As broadband has become a 
        necessary component for cities to retain talent and attract 
        business, denying them this option ensures that they will 
        continue to experience ``brain drain'' and fewer economic 
        opportunities. Furthermore, if the Administration and Congress 
        wish to encourage local investment in infrastructure, removing 
        state barriers to direct local investment in that 
        infrastructure is an important first step.

  <bullet> Require Responsible Industry Practices

        Utility Responsibilities
        Utilities such as electric and gas do not enjoy the kinds of 
        taxpayer subsidies demanded by the wireless industry. While 
        electric utilities enjoy access to public rights-of-way, that 
        access comes with costs and obligations. These include 
        permitting fees, payment for access to public property, and 
        obligations to provide certain levels of service to everyone--
        even in unprofitable neighborhoods. Those utilities are also 
        obligated to partner closely with local governments during 
        emergencies, and to repair any damage in a timely fashion.

        The City of Lincoln and other Nebraska local governments 
        supported reducing the city's fee per pole from its present 
        market rate fee of around $2,000 per pole per year to $95, if 
        wireless providers would agree to build out the State with 5G 
        infrastructure starting in rural areas. According to cities in 
        Nebraska, the industry refused, preferring to pay higher pole 
        access rates than providing service in areas that were not 
        profitable. The same response was received in Leon County, 
        Florida, where Tallahassee is located. When asked at a public 
        hearing if the industry would bring 5G to inner city areas 
        where families lack reliable broadband access, the industry, in 
        a surprisingly candid moment, said no, and the County 
        Commission was advised that Florida law preempted the County 
        from requiring such buildout.

        Emergency Preparation and Recovery
        We also learned a lot this year from the horrible storms that 
        struck Texas, Florida, Puerto Rico and the Virgin Islands. 
        Regulated electric utilities worked with local governments to 
        better prepare for and to recover from the disasters. In 
        Florida, after Irma, we had daily contact with electric utility 
        representatives who were embedded in our emergency operations 
        centers. When cities were working to remove downed trees and 
        debris to re-install utility poles and lines, we worked 24/7 
        with electric utility contractors. However, since there are no 
        regulations, we did not hear from cable and phone companies, 
        and getting them to move their lines in streets or to restore 
        services in some communities was a challenge. Congress should 
        analyze what occurred in Houston and consider whether 
        undergrounding utilities should be a national priority. It 
        appeared that utilities and communications functioned in 
        Houston despite the tremendous flooding because they are 
        underground. In Florida, most communities have aerial 
        utilities, and lost power and communications during Hurricane 
        Irma.

        Also, unlike electric utilities, such companies continue to 
        charge when they do not deliver service after a hurricane 
        unless the customer requests a credit, which residents found 
        absolutely appalling. Wireless providers were nowhere to be 
        found. With no power for towers, many communities reached out 
        for Cells on Wheels powered by generators, but the industry was 
        absent from recovery efforts. Perhaps FEMA should mandate such 
        items for recovery efforts.

        Rights-of-way Repair
        Virtually all local governments have also had their rights-of-
        way and other utilities within the rights-of-way damaged by the 
        communications industry, from the smallest cable installers to 
        the largest incumbent providers. This is just the side effect 
        of performing construction in the rights-of-way. However, 
        without the proper authority to require repair and restoration, 
        our communities suffer from unchecked water, sewer and gas 
        leaks, and interference with access to transportation and 
        businesses. Local governments throughout the country require 
        security funds, insurance, and bonds to ensure that rights-of-
        way and utilities are properly repaired after damage. 
        Nonetheless, it is difficult to get these companies to do the 
        right thing. When a contractor for Crown Castle, working on a 
        Saturday without a permit, damaged newly installed brick pavers 
        on Miracle Mile in Coral Gables, the city had to sue and refuse 
        to issue new permits to get the company to pay for repairs.
Conclusion
    On behalf of NLC and the City of Wilton Manors, I want to thank the 
Committee for inviting me to participate in this hearing today. I offer 
the ongoing assistance of local governments as you examine ways to 
increase broadband deployment responsibly across our Nation. I urge you 
to view local governments as strong partners in ensuring that broadband 
services are available to all Americans.
    Thank you, and I look forward to any questions you might have.

    Senator Wicker. Thank you, Mr. Mayor.
    Mr. Berry.

  STATEMENT OF STEVEN K. BERRY, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, COMPETITIVE CARRIERS ASSOCIATION

    Mr. Berry. Chairman Wicker, Ranking Member Schatz and 
members of the Subcommittee, thank you for inviting me to 
testify on ways to preserve and expand mobile broadband in 
rural America. I'm here on behalf of CCA representing nearly a 
hundred wireless carriers, as well as the companies that make 
up the wireless ecosystem to say thank you, thank you to you 
and your colleagues for making broadband services in rural 
America a priority.
    Like this Committee, every CCA member has an interest in 
closing the digital divide for their communities, families and 
businesses. On this day 34 years ago the very first handheld 
cell phone was sold for just under $4,000. Yes, wireless has 
come a long way since the brick, and we depend on mobile 
broadband coverage for every aspect of life, from jobs to 
public health and safety.
    Tech companies recently announced plans to deploy 4G mobile 
broadband on the Moon. Yet, too many in rural America are 
unserved or underserved.
    In 2016 Americans consumed 1.8 billion gigabytes of data 
per month using wireless connections. This is more than 7,000 
times the total of all information stored in the Library of 
Congress each month.
    Wireless usage will grow another fivefold over the next 5 
years. To keep up with this demand and ensure that rural areas 
are not left behind, Congress should act on three key issues. 
One, provide sufficient and predictable funding for high cost 
areas. Two, base decisions on reliable data. And, three, 
streamline policies to site equipment and access new spectrum.
    Rural America must have mobile broadband as a centerpiece. 
The 2009 stimulus package failed to fund mobility. We must 
include specific funding to support, preserve and expand 
deployment where private capital alone is not enough to make 
the business case for broadband service.
    As Congress appropriates funds for infrastructure, 
significant amounts should be made available for mobile 
broadband deployment. Funding sources for broadband should 
ensure this committee, with its vast experience, maintains 
jurisdiction and oversight over how the funding will be 
efficiently and effectively spent. Additional broadband funding 
is a must, but it does not replace the long-term need for 
ongoing universal service funds.
    The FCC's implementation of the USF must meet Congressional 
mandates for reasonably comparable services in urban and rural 
areas and provide sufficient and predictable support. I thank 
Senators Hassan and Capito for addressing this issue in their 
legislation. The FCC should define what is reasonably 
comparable service and design USF, as Wayne Gretzky once said, 
to skate where the puck is going, not where the puck has been.
    Second, we cannot afford to distribute funding based on a 
ready, fire, aim approach. You cannot manage what you cannot 
measure. Current data on mobile broadband coverage does not 
reflect the reality on the ground. You, as you travel your 
states, you know the job is not done.
    I agree with concerns raised by members of this Committee 
last week that a recent FCC eligibility map misrepresents the 
existence of wireless service. It is so flawed that a challenge 
process may not be sufficient to correct it. In this regard I 
thank the Senate for passing the Rural Wireless Access Act, 
acknowledging the critical need for accurate, reliable data. 
Whether appropriated resources or ongoing support for the 
Mobility Fund II, funding distributions must be made on 
informed decisions.
    Third, deployment and spectrum. Today's carriers face a 
maze of regulatory red tape to build and upgrade both towers 
and smaller cells with fees and delays at each step, and I 
thank the Committee for its steadfast focus and strongly 
support legislation introduced to streamline the siting process 
including the Mobile Now, the SPEED Act, Dig Once and the Rural 
Deployment Act. We also encourage the FCC to act swiftly to 
vote to update procedures for modern deployments. Remember, 
small cells are not just for big cities.
    Just last week I was with FCC Commissioner Carr in the 
Shenandoah Valley examining how smaller cells and deployments 
are actually bringing new, latest services to rural America.
    All carriers need access to high-, mid-, and low-band 
spectrum, the invisible infrastructure, if you will. The FCC 
should move quickly to auction spectrum currently available for 
mobile services, including high band spectrum. For low band 
access we must repack the 600 megahertz spectrum within the 
approved 39 month timeline, and if additional funds are needed, 
then they should be made available immediately.
    And, finally, access to broadband is the opportunity 
equalizer in the modern mobile economy. Policies established by 
Congress and implemented by the FCC will determine whether 
rural Americans are part of the new economy or will they be 
left behind in the pursuant of a 5G IoT world.
    Thank you and I welcome your questions.
    [The prepared statement of Mr. Berry follows:]

 Prepared Statement of Steven K. Berry, President and Chief Executive 
               Officer, Competitive Carriers Association
    Chairman Wicker, Ranking Member Schatz, and members of the 
Subcommittee, thank you for the opportunity to testify about closing 
the digital divide and the policies necessary to provide ubiquitous 
mobile broadband throughout the United States.
    I am testifying on behalf of Competitive Carriers Association 
(``CCA''), the Nation's leading association of competitive wireless 
providers. CCA is made up of nearly 100 carrier members ranging from 
small, rural providers serving fewer than 5,000 customers to regional 
and national providers serving millions of customers, as well as 
vendors and suppliers that provide products and services throughout the 
mobile communications ecosystem.
    I commend the Subcommittee for its continued focus on closing the 
digital divide. Building infrastructure for the next generation of 
services and technologies includes preserving, upgrading, and expanding 
existing mobile broadband services. CCA is pleased that mobile 
broadband deployment in rural America is a top priority for Congress, 
the Federal Communications Commission (``FCC''), and the 
Administration.
    Consumer demand for mobile broadband services is undeniable. In 
2016, American consumers used 1.8 exabytes of data on their 
smartphones, tablets, and other devices connected to wireless networks 
each month. That amounts to 1.8 billion gigabytes, or by way of 
comparison, more than 7,000 times the total of all information stored 
in the Library of Congress. This insatiable use demand for data will 
grow exponentially, with projections of another five times growth over 
the next five years.
    Ever-growing mobile data use reflects the limitless potential for 
innovations touching every industry and aspect of life in today's 
mobile economy. For example, mobile networks and next generation 
services are transforming healthcare through remote monitoring and new 
health treatments, including in rural areas where patients must 
otherwise drive hundreds of miles to receive care. Precision 
agriculture technologies allow farmers to become agricultural 
engineers, reducing economic resources and increasing productivity on 
our Nation's farmlands and ranchlands. Mobile broadband supports 
distance learning and creates educational opportunities for students 
unimaginable only a few years ago. All of these applications are 
powered by mobile broadband today. As we move towards 5G technologies, 
applications once considered science fiction will become reality, with 
networks supporting drones, autonomous vehicles, and artificial 
intelligence continuing to change our lives.
    However, reliance on mobile broadband networks only magnifies the 
problems associated with being on the wrong side of the digital divide. 
Indeed, the President's Interagency Task Force on Agriculture and Rural 
Prosperity recently presented a report focused on e-connectivity for 
rural America, finding that access to broadband ``is not simply an 
amenity--it has become essential.'' The Administration has already 
taken steps to support expanding broadband, including the Presidential 
Executive Order on Streamlining and Expediting Requests to Locate 
Broadband Facilities in Rural America, finding that ``Americans need 
access to reliable, affordable broadband Internet service to succeed in 
today's information-driven, global economy.'' But more needs to be 
done.
    CCA is proud of our members' work to provide mobile broadband 
services in rural and remote areas. While they have invested millions 
of dollars into their communities, Congress, the Administration, and 
the FCC must work together to enact policies that connect the 
unconnected. Technology companies recently announced plans to deploy 4G 
LTE mobile broadband service on the moon--Americans living in rural 
America deserve no less. To close the digital divide and advance 
deployment in unserved and underserved communities, competitive 
carriers need sufficient and predictable sources of funding, 
streamlined deployment processes, and access to spectrum and equipment.
Legislative Proposals to Rebuild America's Infrastructure Must Include 
        Funding for Mobile Broadband
    Bipartisan infrastructure discussions from the campaign trail 
through the recent Administration proposal to Congress focus on the 
need for broadband deployment in rural America. As proposals move from 
ideas to concrete legislative language, it's clear broadband is the 
centerpiece driving economic growth and jobs in rural America. CCA 
agrees with this Committee and many other members of Congress that any 
infrastructure package should include dedicated funding for rural 
broadband.
    The Bipartisan Budget Act, enacted last month, included $20 billion 
over the next two fiscal years for rural infrastructure. As Congress 
determines how to appropriate these funds, it should dedicate resources 
specifically for mobile broadband deployment. The Administration also 
has proposed allocating an additional $50 billion for rural 
infrastructure in its recent proposal. While the proposal provides 
funds as block grants to governors and even permits 100 percent of 
funding to be used for broadband projects--it does not require that any 
funds exclusively support broadband deployment. The goal of building 
infrastructure for the next generation cannot be met without 
specifically building broadband infrastructure.
    Funding also should be available on a technologically-neutral 
basis. The American Recovery and Reinvestment Act of 2009 (``ARRA'') 
included a scoring metric for certain applications for support through 
the Rural Utilities Service's (``RUS'') Broadband Opportunities Program 
that placed the heavy thumb of the government on the scale to 
disadvantage wireless carriers. CCA encourages use of grants instead of 
loans due to the costly, unnecessary bureaucratic red tape that 
accompanies current RUS loans; however, if loans are provided, they 
should not be comingled with Universal Service Fund (``USF'') 
resources.
    Further, to ensure that funding is well spent, it is important that 
this Committee maintain jurisdiction over broadband funding programs. 
With oversight by this Committee, Congress should make support 
available through the Department of Commerce National 
Telecommunications and Information Administration (``NTIA'') or through 
the FCC. If funding does flow through the FCC, any one-time investments 
should not jeopardize the critical and ongoing role of USF or place USF 
under the appropriations process. Commerce Committee oversight of rural 
broadband support is extremely important, leveraging Commerce Committee 
expertise and providing a safeguard against waste.
All Programs to Disburse Funding for Broadband in High Cost Areas Must 
        Be Based on Reliable Data
    You cannot manage what you cannot measure. Moving forward, it is 
critical to accurately measure the extent of unserved and underserved 
areas across the United States to implement practical, useful solutions 
to expand mobile broadband service to all consumers. As an example, the 
National Broadband Map was funded through ARRA. While important and 
well-intentioned, NTIA delivered the map after decisions for deployment 
funding awards had been made. We cannot afford to distribute funds in 
the future on a ready, fire, aim basis. Accurate data is an absolute 
for precisely targeting funds for future broadband buildout.
    As another example, the FCC recently released mobile broadband data 
depicting areas initially deemed eligible for the Mobility Fund Phase 
II (``MF II'') mechanism of the USF High Cost Fund. While we understand 
that the map released does not determine final eligible areas, the 
technological parameters selected by the FCC were not sufficient to 
produce a map that would reflect the experience you have as you travel 
throughout your states. CCA has long supported an efficient challenge 
process that is robust and targeted without overly burdening small 
providers. Unfortunately, the initial map released by the FCC falls 
short. CCA cautions against using this data as the basis for MF II or 
any other funding program, including forthcoming support for broadband 
infrastructure. We share concerns raised by Senators Wicker, Hassan, 
Moran, King, Gardner, Klobuchar, Roberts, Blunt, Peters, and Tillis 
last week that the map ``misrepresents the existence of 4G LTE service 
in many areas'' and accordingly a challenge process may not be robust 
enough to correct it.
    At the same time, CCA appreciates actions by the FCC and other 
Federal agencies to correct the digital divide. In testimony last week, 
NTIA Administrator Redl noted the need to improve broadband mapping 
data, including that data must be more accurate, granular, and 
verified. The President's budget request included $50 million to update 
the National Broadband Map, and as Administrator Redl highlighted the 
NTIA can also leverage relationships with state and local governments 
to ensure accuracy. If other agencies lack the resources to establish 
parameters for data collection to accurately reflect your constituents' 
experience, NTIA should revisit the issue prior final to funding 
decisions.
    CCA likewise commends the Senate for unanimously passing S. 1621, 
the Rural Wireless Access Act, and thanks Senators Wicker and Manchin 
for steadfastly championing this issue. We urge the House of 
Representatives to swiftly act to send this important legislation to 
the President for enactment so that the information used as a basis for 
USF decisions, or decisions for other similar programs including new 
infrastructure funding, are grounded in standardized, reliable data 
that reflects constituents' expectations.
The Universal Service Fund Must Meet Congress's Mandate
    Regardless of any new support for mobile broadband through 
infrastructure efforts, ongoing support through USF remains critical. 
Congress created the USF high-cost program to provide Americans in 
rural areas with a ``reasonably comparable'' service as those in urban 
areas through support that is sufficient and predictable. In 
implementing this mandate, however, the FCC does not currently define 
``reasonably comparable'' service. CCA supports S. 2418, the Rural 
Reasonable and Comparable Wireless Access Act of 2018 to establish this 
standard, and thanks Senators Hassan and Capito for introducing this 
important bill. If enacted, the FCC must promulgate regulations to 
establish this standard, which provides an important step to clarify 
what services must be available to rural Americans.
    Without a set standard, it is not clear that resources allocated by 
the FCC are sufficient. It is widely understood that the $4.53 billion 
budgeted for MF II will not ubiquitously expand mobile broadband 
networks. Reasonable and comparable standards can inform what 
parameters should be set for future data collections to revisit the 
goal of reliable mapping data.
    With the focus on securing immediate funds for broadband 
infrastructure through appropriated resources, Congress also should 
consider directing the FCC to maintain current USF support for mobile 
broadband services and conduct the MF II auction after new 
infrastructure funds are disbursed. This practical action would allow 
the FCC to more accurately assess the ongoing needs to preserve and 
expand service after one-time infusions of support, and direct limited 
resources to areas in need.
Streamlined Infrastructure Siting Policies Increase Certainty and 
        Reduce Costs to Deploy Mobile Broadband
    While consumers have come to rely on wireless connectivity, the 
network itself depends on physical infrastructure, including towers, 
small cells, wires, and fiber, to connect. Competitive carriers must 
timely and efficiently deploy this infrastructure. Currently, however, 
providers must navigate a regulatory maze to gain approval to serve 
their communities, facing significant application review delays and 
burdensome, unforeseen fees while working through the federal, state, 
and local siting processes. To visualize the multitude of regulatory 
steps it takes to site mobile wireless infrastructure at the local, 
state, and Federal levels, with potential costs and delays at each 
step, please see the chart attached to this testimony.
    Adding another barrier to infrastructure deployment, fees and 
administrative burdens attached to historic and environmental review 
processes have escalated sharply in recent years, and these costs and 
permitting delays will continue to rise as CCA members deploy to meet 
consumers' increasing data demands. Without Congressional and FCC 
intervention, deployment fees will become an increasingly exorbitant 
cost barrier to ubiquitous broadband deployment. For example, one CCA 
member operating in portions of Kansas, Colorado, and Nebraska paid 
over $107,000 to 36 Tribes for the deployment of just seven towers, in 
a seven-month period. This is an average of over $15,000 per tower, 
solely for Tribal review fees. One CCA associate member was assessed 
nearly $3 million in Tribal fees to deploy just under 3,000 nodes 
across the United States in a one-year period, from 2017-2018. It is 
not sustainable for carriers to continue expending these enormous 
funds, especially considering future networks will require denser 
deployment scenarios.
    Fortunately, help is on the horizon. CCA applauds Congress's focus 
on the issue, and recent steps taken by the Administration and FCC to 
reduce regulatory burdens, increase certainty, and eliminate needless 
costs. The bipartisan legislation stemming from this Subcommittee alone 
demonstrates your commitment to closing the digital divide and 
connecting all Americans. S. 19, The Making Opportunities for Broadband 
Investment and Limiting Excessive and Needless Obstacles to Wireless 
Act or MOBILE NOW, led by Committee Chairman Thune and Ranking Member 
Nelson, makes common-sense reforms to Federal Government siting 
process, while freeing up valuable spectrum resources for commercial 
mobile use. S. 1988, the Streamlining Permitting to Enable Efficient 
Deployment of Broadband Infrastructure Act of 2017 or SPEED Act, 
spearheaded by Subcommittee Chairman Wicker and Senator Cortez Masto 
will make it easier to deploy small cells by exempting them from 
repetitive installation reviews. S. 2381, the Streamlining and 
Investing in Broadband Infrastructure Act introduced by Senators 
Klobuchar, Daines, Gardner, and Gillibrand would ensure broadband 
conduits be included in highway projects, a critical step in the rural 
buildout process. And S. 1363, The Rural Broadband Deployment 
Streamlining Act offered by Senators Heller and Manchin would establish 
best practices at the Department of Interior and Forestry Service by 
enforcing accountability in the broadband application process with 
uniform applications, streamlined processes, direct points of contact 
with the agencies, and a deemed granted provision.
    Further, later this month the FCC plans to vote on a Second Report 
and Order (``Order'') that will streamline infrastructure siting 
policies for mobile broadband. As proposed, this Order will exclude 
small wireless facilities from the environmental and historic review 
procedures that were designed for large macrocell deployments, update 
the Section 106 Tribal consultation process, and adopt a shot clock for 
the FCC's own processing of Environmental Assessments. Under current 
siting policies, the same regulations apply to tall towers and macro 
deployments as to small cells and distributed antenna systems. Building 
the networks of the future cannot be completed with yesterday's rules 
and regulations. Updating these policies for small wireless facilities 
meets a key proposal from the Administration's ``Legislative Outline 
for Rebuilding Infrastructure in America,'' which finds that small 
cells are materially different than their predecessors, regarding both 
size, and visual or actual impact on historic or environmental 
property. CCA urges Congress to support these efforts and stands ready 
to help ensure these policies are enacted.
    To be clear, small cells are not only deployed in urban areas. In 
recent conversations with CCA members serving the most rural portions 
of our country, CCA has heard stories of using small cells to enhance 
coverage in county seats, schools and meeting centers, and even a 
popular boat ramp in a recreation area. Last week, I joined CCA member 
Shentel and FCC Commissioner Brendan Carr in rural Shenandoah Valley, 
Virginia, to discuss the importance of small cell deployment to 
Shentel's network and to the communities it serves. Shentel's customers 
use an average of 10 gigabytes of data per month and in some cases, 
wireless devices are their only connection to broadband. Shentel plans 
to build out 20 small cells on their network this year in an effort to 
meet growing consumer data demands. Eliminating costly Federal reviews 
could provide Shentel enough savings to deploy an additional 13 sites, 
strengthening and expanding their network service area.
    Shentel is not alone. Just two weeks ago, twenty-three other CEOs 
and senior executives from non-nationwide CCA member companies joined 
together to urge the FCC to streamline infrastructure policies by 
providing regulatory certainty around siting processes, timelines, and 
fees to deploy and upgrade mobile broadband services. These companies 
serve rural populations represented by this Committee: from the upper 
Midwest, across Appalachia, throughout the Gulf Coast, over the Great 
Plains, into the desert Southwest and up to Alaska--each committed to 
bridging the digital divide in their communities. A copy of that letter 
is attached.
    It is important to underscore that infrastructure reform need not 
pit wireless carriers against the municipalities and states they serve. 
Instead, streamlined processes will save resources for both carriers 
and government agencies by eliminating redundant and unnecessary 
reviews and spurring investment in local communities. Enhancing access 
to rights-of-way, reducing and eliminating fees, and streamlining 
siting processes will allow rural communities to connect exciting and 
innovative new technologies, including precision agriculture, 
telehealth, and the Internet of Things. Your constituents deserve 
nothing less, and CCA commends this Committee's unwavering leadership 
to address these issues.
Next Generation Services Depend on Increased Access to Spectrum
    Beyond funding and streamlined deployment policies, the next 
generation of mobile broadband services depends on a myriad of spectrum 
resources. Spectrum is the invisible infrastructure connecting users to 
towers and base stations. It also is a finite resource, and only 
available for use through a license or lease by the FCC. As demand for 
mobile service explodes, all carriers must have access to low-, mid-, 
and high-band spectrum to deploy next-generation mobile broadband and, 
eventually, 5G networks. Competitive carriers, in particular, must 
deploy spectrum that is interoperable within bands to support an 
equipment ecosystem driven by the scaled economies of the largest 
carriers. It is equally important that spectrum is auctioned in 
sufficiently small geographic license sizes that balance local access 
to spectrum and the laws of physics with regard to power levels and 
interference. CCA urges Congress to consider the following policies to 
ensure that taxpayer-owned spectrum is properly managed.
    Auction Deposits. Absent Congressional action to allow depositing 
auction upfront payments in the U.S. Treasury, FCC Chairman Pai has 
indicated that the FCC will be hamstrung from auctioning spectrum in 
the near-term. Auctions are particularly important for competitive 
carriers that may not have the size, resources, or access to purchase 
spectrum licenses on the secondary market. While other nations are 
moving forward with spectrum auctions, particularly to support 5G 
services, it is critical that the United States does not fall behind. 
Congress must authorize this change in the auction process and 
encourage the FCC to auction all bands suitable for mobile broadband 
use as soon as possible, and the FCC should move forward with a 
proceeding to begin the auction process.
    600 MHz. The first-of-its-kind 600 MHz spectrum auction closed on 
March 30, 2017, with total bids nearing $20 billion and most of the 
winning bids coming from CCA members. CCA commends this Committee for 
the leadership in authorizing the auction and establishing a new model 
for spectrum reallocation now proven in the market. Now that the 
auction has closed, both the wireless and broadcast industries are in 
the midst of a Congressionally-based 39-month ``repack'' process to 
clear broadcasters out of the 600 MHz band as safely and efficiently as 
possible to allow winning bidders to put this spectrum to use to serve 
consumers and monetize their investment. The propagation 
characteristics of the 600 MHz band make this spectrum particularly 
important for serving rural America. For this reason, completing the 
transition within the timeline or sooner is critical for economic 
stimulation and job opportunities across rural areas, as well as 
setting important precedent for future auctions. Any delay would be 
detrimental to competition, the public interest, and the economy. CCA 
commends recent action by the House of Representatives, which passed 
legislation creating a reserve fund to keep the process on time in the 
event the allocated resources to repack broadcasters proves inadequate, 
and encourages the Senate to swiftly consider similar legislation. It 
is important for Congress to make funds readily available to ensure 
that delays do not prevent winning bidders from putting this spectrum 
into operation as quickly as possible.
    mmW. As carriers seek to densify their networks, and as standards 
are developed for tomorrow's 5G technologies, unique spectrum bands 
that are newly allocated for mobile broadband use are in high demand. 
To ensure that competitive carriers are not left behind, policymakers 
must rapidly auction several high frequency millimeter-wave (``mmW'') 
bands, including the 24 GHz, 28 GHz, 37 GHz, 39 GHz, and 47 GHz bands. 
CCA commends Senators Gardner and Hassan for introducing S. 1682, the 
Advancing Innovation and Reinvigorating Widespread Access to Viable 
Electromagnetic Spectrum Act or the AIRWAVES Act. This bipartisan 
legislation sets a timeline for future auctions to keep the FCC focused 
and provide certainty to carriers with regard to when spectrum will 
come up for auction. We support this legislation and urge inclusion of 
all bands ready for mobile broadband use to ensure sufficient spectrum 
is available for all carriers to have a meaningful opportunity to bid 
and win licenses. The nation's two largest carriers have a foothold in 
several of these bands through secondary market transactions, 
necessitating an auction as soon as practicable.
    Demand for mobile broadband shows no signs of slowing down. 
Policymakers must remain focused on promoting the efficient use of 
spectrum and reallocating frequencies to ensure this finite resource is 
available for carriers of all sizes to access for mobile broadband use.
All Carriers Require Access to Equipment
    Finally, carriers cannot provide next generation mobile broadband 
service without access to next generation equipment and devices. Even 
as iconic devices may seem ubiquitous, many smaller carriers serving 
rural America continue to struggle to get access to the latest devices 
and are often 12 to 24 months delayed as compared to the largest 
providers. This harms competition, and results in technology denial for 
certain rural Americans. As the industry shifts to next generation 
technologies and 5G, competitive carriers need access to equipment that 
is available, affordable, and secure.
    As equally frustrating for consumers as it is for competitive 
carriers, lack of access to devices and other equipment also can make 
it harder or nearly impossible to comply with regulatory mandates that 
are premised on the latest technology, including Next Generation 9-1-1 
services and Wireless Emergency Alerts, two priorities for this 
Committee. Even where rural and regional carriers have access to 
devices or network equipment, they may face increased costs based on 
reduced economies and purchase order size. While competitive carriers 
have taken steps to help themselves through business relationships, 
including CCA's Device Hub, policymakers should ensure that rural areas 
are not left behind in the mobile world because of inaccessible 
equipment.
                                 ______
                                 
    Today's hearing on investing in next generation broadband provides 
a timely examination of important issues as Congress considers next 
steps for infrastructure policies and the FCC seeks to solve the 
persistent digital divide. CCA looks forward to continued collaboration 
with Congress, the Administration, and the FCC to ensure that rural 
America is not left behind without the critical mobile broadband 
networks of today and the eventual tectonic shift to 5G services in the 
future.
    Thank you for your attention to these issues and for holding this 
important hearing. I welcome any questions you may have.
                               Attachment

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

cc (via email): Rachael Bender
Jay Schwarz
Claude Aiken
Louis Peraertz
Erin McGrath
Amy Bender
Will Adams
Travis Litman
Umair Javed

    Senator Wicker. Thank you very much, Mr. Berry.
    Mr. DeBroux, have I pronounced your name correctly?
    Mr. DeBroux. Yes, that is correct. Thank you.
    Senator Wicker. Well, thank you for joining us and you are 
recognized.

             STATEMENT OF ROBERT DeBROUX, DIRECTOR,

               FEDERAL AFFAIRS AND PUBLIC POLICY,

                  TDS TELECOMMUNICATIONS, LLC

    Mr. DeBroux. Thank you.
    Chairman Wicker, Ranking Member Schatz, and members of the 
Senate Committee on Commerce, Science, and Transportation 
Subcommittee. I am Robert DeBroux, Director of Federal Affairs 
and Public Policy for TDS Telecom.
    Thank you for the opportunity to share with you some 
insights into how Congress can help close the digital divide in 
rural America. I am not only testifying today on behalf of TDS, 
but also as a member of ITTA, a Washington, D.C. industry 
association that includes TDS as a member.
    TDS owns 108 separate telephone companies that provide 
broadband, voice and video services. We serve a mix of rural 
and urban areas, such as the bottom of the Grand Canyon and 
islands off the coast of Maine and Michigan, as well as the 
suburbs of larger cities such as Madison, Wisconsin and 
Nashville, Tennessee. We also serve communities such as Big 
Creek, Calhoun City and Sandhill in Mississippi.
    TDS has a long history of building and maintaining robust 
voice and data networks in its service areas. Recently, the 
administration released the framework for its infrastructure 
initiative, which includes a broadband component. 
Unfortunately, the framework does not include dedicated funding 
for broadband projects in unserved and underserved parts of the 
country.
    The administration's infrastructure plan appears to set 
forth a process whereby rural broadband projects will compete 
against other infrastructure projects, for example, roads, 
sewers and airports, for 40 billion dollars in state-
administered block grants. TDS and ITTA do not think that this 
will be the most efficient and effective way to provide the 
dollars needed to close the digital divide and move the Nation 
closer to rural and urban comparability.
    Therefore, Congress should specifically designate funds for 
broadband deployment and ensure the money it designates follows 
the course that other successful programs to date have 
followed. Those programs, which include, most importantly, the 
FCC-administered Universal Service Fund High-Cost program, have 
a proven track record of success in turning funds earmarked for 
broadband into broadband networks.
    The FCC through the USF can maximize the impact of any 
infrastructure funding while minimizing waste. The FCC has 
programs in place that make sure that there are specific 
tangible obligations associated with funding and that funding 
goes to the appropriate areas. For example, areas that are not 
already served by another broadband provider. One such program 
created by the FCC in December 2016 is the Alternative Connect 
America Cost Model program. This program allows rate of return 
carriers the option to receive USF support to serve high cost 
rural areas based on a forward-looking cost model in return for 
their agreement to deploy and maintain broadband to a specified 
number of households with service standards as defined and 
enforced by the FCC.
    TDS, along with 206 other rural rate of return carriers in 
43 states opted into the 10 years ACAM program. In this program 
TDS will receive over 75 million dollars annually to provide 
broadband to a 160,000 households in 25 states.
    TDS has already begun the process of deploying fiber deep 
into its network with this money thus improving consumer 
broadband in various locations including, for example, in 
Wisconsin and southeast Mississippi. Other ITTA members, 
including Ritter Communications based in rural Arkansas, have 
also been able to use ACAM funding to deploy fiber closer to 
customers. In Nebraska, Great Plains Communications has used 
ACAM dollars to increase the broadband capacity to schools and 
libraries in Ponca, Nebraska.
    There are hundreds of additional examples of ACAM funding 
being used to bring broadband to consumers living in rural 
America. Congress can leverage the ACAM program, as well as the 
legacy funding mechanisms in the High-Cost program, to increase 
broadband deployment to rural America by instructing the FCC to 
increase the High-Cost Fund budget and providing the funding 
necessary for that increase.
    Thank you for the opportunity to testify today and I look 
toward to answering any questions you may have.
    [The prepared statement of Robert DeBroux follows:]

  Prepared Statement of Robert DeBroux, Director, Federal Affairs and 
               Public Policy, TDS Telecommunications, LLC
    Chairman Wicker, Ranking Member Schatz, and Members of the Senate 
Committee on Commerce, Science, and Transportation's Subcommittee, I am 
Robert DeBroux, Director of Federal Affairs and Public Policy for TDS 
Telecom (``TDS''). Thank you for the opportunity to share with you some 
insights into how Congress can help close the digital divide in rural 
America. I am not only testifying today on behalf of TDS but also as a 
member of ITTA, a Washington, D.C. industry association that includes 
TDS as a member. I recently also have had the pleasure of serving on 
the Federal Communication Commission's (``FCC's'') Broadband Deployment 
Advisory Committee (``BDAC'') as the chair of its ``Removing State and 
Local Regulatory Barriers'' work group. This workgroup was tasked with 
identifying barriers to broadband deployment at the state and local 
level and providing policy recommendations to help eliminate those 
barriers. Its report, as voted on and approved by the BDAC, is 
available on the FCC's website.\1\ While I am not here today to speak 
on behalf of the BDAC, you may find the report useful. Serving on the 
BDAC provided me with valuable insight into the challenges and barriers 
of providing broadband in many localities across the country.
---------------------------------------------------------------------------
    \1\ https://www.fcc.gov/sites/default/files/bdac-
regulatorybarriers-report-012018.pdf
---------------------------------------------------------------------------
    TDS owns 108 separate telephone companies that provide broadband, 
voice, and video services. We serve a mix of rural and urban areas such 
as the bottom of the Grand Canyon and islands off the coast of Maine 
and Michigan, as well the suburbs of larger cities such as Madison, 
Wisconsin and Nashville, Tennessee. TDS has a long history of building 
and maintaining robust voice and data networks in its service areas.
    Closing the digital divide has widespread bipartisan support in 
Washington. Gone are the days of the ``urban vs. rural'' debate in 
telecommunications policy. Today, we can all agree consumers living in 
rural America deserve exactly the same digital opportunities as those 
citizens living in urban areas. How we close the digital divide and 
what steps Congress can take in the short and long-term deserve 
policymakers' full attention and commitment.
Infrastructure Proposal
    Recently, the Administration released the framework for its 
infrastructure initiative, which includes a broadband component. 
Unfortunately, the framework does not include dedicated funding for 
broadband projects in unserved and underserved parts of our country. 
TDS and ITTA have been clear that if the Administration wants to make 
closing the digital divide a top priority, dedicated funding for 
broadband projects must be a key component of the overall plan.
    The Administration's infrastructure plan appears to set forth a 
process whereby rural broadband projects will compete against other 
infrastructure projects (e.g., roads, sewers, airports) for $40 billion 
in state-administered ``block grants.'' TDS and ITTA do not think that 
this will be the most efficient and effective way to provide the 
dollars needed to close the digital divide and move the Nation closer 
to rural and urban comparability.
    Therefore, Congress should specifically designate funds for 
broadband deployment and ensure the money it designates follows the 
course that other successful programs to date have followed. Those 
programs, which include, most importantly, the FCC-administered 
Universal Service Fund High-Cost program, have a proven track record of 
success in turning funds earmarked for broadband into broadband 
networks.
Ensuring the Correct Federal Agency is Tasked with Administering a 
        Broadband Infrastructure Program
    TDS, along with our national association ITTA, supports directing 
any funding for broadband infrastructure deployment to the FCC to be 
administered through its Universal Service Fund (``USF''). As noted by 
FCC Chairman Pai in March 2017,\2\ the FCC, through the USF, can 
maximize the impact of any infrastructure funding while minimizing 
waste. The FCC has programs in place that make sure that there are 
specific, tangible obligations associated with funding and that funding 
goes to the appropriate areas, for example, areas that are not already 
served by another broadband provider.
---------------------------------------------------------------------------
    \2\ https://apps.fcc.gov/edocs_public/attachmatch/DOC-343903A1.pdf
---------------------------------------------------------------------------
Leveraging Existing Programs--FCC High Cost Program
    One such program, created by the FCC in December 2016, is the 
Alternative Connect America Cost Model (``A-CAM'') program.\3\ This 
program allowed rate-of-return carriers the option to receive USF 
support to serve high-cost rural areas based on a forward-looking cost 
model in return for their agreement to deploy and maintain broadband to 
a specified number of locations with service standards as defined and 
enforced by the FCC. TDS, along with 206 other rural rate-of-return 
carriers in 43 states, opted into the ten-year A-CAM program.
---------------------------------------------------------------------------
    \3\ See Connect America Fund, Report and Order and Further Notice 
of Proposed Rulemaking, 31 FCC Rcd 13775 (2016) (Order and/or FNPRM).
---------------------------------------------------------------------------
    In this program, TDS will receive over $75M annually to provide 
broadband to 160,000 households in 25 states. TDS has already begun the 
process of deploying fiber deeper into its network with this money, 
thus improving consumer broadband speeds in various locations, 
including, for example, in Wisconsin and SE Mississippi. This work is 
expected to stabilize the existing broadband delivery platform even in 
times of peak demand. Other ITTA members, including Ritter 
Communications based in rural Arkansas, have also already been able to 
use A-CAM funds to deploy fiber closer to customers.\4\ In Nebraska, 
Great Plains Communications has used A-CAM dollars to increase the 
broadband capacity to schools and libraries in Ponca, Nebraska. There 
are hundreds of additional examples of A-CAM funding being used to 
bring broadband to consumers living in rural America.
---------------------------------------------------------------------------
    \4\ In the first year of the A-CAM program Ritter has deployed 
fiber in the economically challenged Mississippi Delta.
---------------------------------------------------------------------------
    Congress can leverage the A-CAM program as well as the legacy 
funding mechanisms in the High-Cost program to increase broadband 
deployment to rural America by instructing the FCC to increase the 
High-Cost Fund budget and by providing the funding necessary for that 
increase.
RUS
    To be sure, TDS and many other rural broadband providers have 
enjoyed a good working relationship with RUS.\5\ While our preference 
is that any broadband infrastructure money be directed to the FCC for 
distribution through the existing USF High-Cost program, we recognize 
that the RUS has the expertise and experience to be able to distribute 
funds wisely. If Congress decides that RUS should play a role in 
distributing infrastructure funding, Congress should instruct that 
entities applying for funding meet the eligibility requirements and 
service standards applicable to the FCC's USF Program.
---------------------------------------------------------------------------
    \5\ Under the RUS Broadband Initiative Program (``BIP''), TDS was 
awarded 44 grants totaling over $105M with specific buildout 
obligations. TDS exceeded those obligations, ultimately deploying 
broadband to 27,125 unserved households in 20 states at a cost of 
almost $136M.
---------------------------------------------------------------------------
State Grant Programs
    The FCC's USF programs are successful because they are well defined 
in terms of the dollars to be spent, the obligations which are required 
to be met with those dollars, and the consequences for not meeting 
those obligations. TDS and ITTA are skeptical of programs that simply 
send money to the states and then rely exclusively on the states to 
determine how the money should be spent. While many states may be 
committed to improving their broadband networks, there are many 
competing interests for dollars that arrive in a state without 
specifics as to where the dollars must be spent. If such a grant 
program is ultimately used for distributing infrastructure funding, 
Congress should set forth specific parameters to ensure that the funds 
go to areas that are most in need.
    TDS has participated in 5 such state grant programs and has been 
awarded over $28M to provide advanced broadband services to over 18,000 
households. Based on its experience, TDS believes that Congress should, 
in addition to specifically earmarking dollars for broadband 
deployment, set parameters for such programs that include: (1) defining 
unserved and underserved areas; (2) setting criteria for selecting 
projects that include cost per location to deploy, economic impact, 
matching funds, and network scalability; (3) awarding projects that are 
technology neutral and not duplicative; and (4) setting the technical, 
managerial and financial capabilities that private and public entities 
must possess in order to be eligible to receive funding.
NTIA BTOP Program
    Under the 2009 American Recovery and Reinvestment Act (``ARRA''), 
carriers could apply for grants through the National Telecommunications 
and Information Administration (``NTIA'') to support broadband 
deployment in unserved rural areas. As well documented through numerous 
Department of Commerce Inspector General reports \6\ and a Government 
Accountability Office (``GAO'') study, the BTOP program had a number of 
shortcomings. For example, many awardees were public entities with 
ambitious goals of building their own broadband networks. However, at 
the time of approval of their applications, many of these entities did 
not have the expertise or the infrastructure in place to build 
broadband networks capable of being operational in relatively short 
order. In order to prevent a similar situation from reoccurring, 
Congress should mandate that any broadband funding made available 
through the infrastructure initiative go to providers that have the 
expertise and infrastructure in place to immediately deploy broadband. 
In addition, any Federal dollars used to deploy broadband must be 
subject to the highest degree of scrutiny to ensure that the money is 
not being used to overbuild existing broadband networks.
---------------------------------------------------------------------------
    \6\ https://www.oig.doc.gov/OIGPublications/OIG_Report_No_14-
0480_West_Virginia_
BTOP.pdf
---------------------------------------------------------------------------
Streamlining of the Federal Permitting Process & Streamlining 
        Regulation at the FCC
    It is beyond debate that the costs and time involved in securing 
state and Federal permits to deploy broadband delay projects and 
increase costs. Congress should work to create a ``deemed granted'' 
standard that places the burden on the applicable government agency to 
approve, deny, or require more information from an applicant within a 
defined period of time. While TDS recognizes that deemed granted 
language presents jurisdictional issues among Congressional committees, 
I encourage the various relevant committees to work together to find a 
solution that protects the integrity of our Federal permitting process 
and, at the same time, brings certainty and resolution to broadband 
projects that are tied up in bureaucratic red tape.
    Thank you for the opportunity to testify today. I look forward to 
answering any questions you may have.

    Senator Wicker. Thank you very, very, much, Mr. DeBroux.
    Mr. Gillen.

    STATEMENT OF BRAD GILLEN, EXECUTIVE VICE PRESIDENT, CTIA

    Mr. Gillen. Thank you, Chairman Wicker, Ranking Member 
Schatz. Thank you for including the wireless industry as part 
of this important conversation. I want to particularly thank 
this committee for making sure that broadband is not only a 
national priority, it's an infrastructure priority.
    And from our standpoint there are two core challenges we 
face together. The first is the digital divide. Despite 
billions invested and years of work, there are too many 
Americans from northern county New Hampshire, foot hills of 
West Virginia, I could go across the dais today. There are too 
many Americans that don't have access to the wired and wireless 
broadband we all rely on today. We commit as an industry to 
work with you on your efforts to close the digital divide and 
provide more opportunities for more Americans.
    The second challenge, and Chairman Wicker alluded to it in 
his opening, goes to our global competitiveness. We lead the 
world today in 4G wireless. The LTE phone in your pocket today.
    Right now we are on the cusp of 5G, the fifth generation of 
wireless, and we are in a race, it is a global race. The head 
of Nokia 2 weeks ago noted we are neck and neck with China to 
lead the world in 5G. And this is a race that China wants to 
win. They have seen what U.S. leadership has meant for us. They 
are investing billions. They have over a hundred active trials 
of 5G technology ongoing today.
    We would like to win too and the United States is prepared 
to invest in our next generation as well. We have trials 
ongoing and all four national carriers have announced 
accelerated deployments of 5G. Years have had to schedule 
starting later this year.
    In all, the wireless industry is estimated to spend 275 
billion of its own private capital over the next 10 years to 
build these 5G networks. So we are here today asking for help 
to modernize the rules to reflect this new technology. Because 
5G is going to be fundamentally different, as a number of the 
witnesses have already alluded to. It's going to be built with 
these. They are called small cells. They will attach to 
streetlights and the sides of buildings throughout the country. 
Accenture estimates we will have 800,000 of these in place by 
2026. To put that in perspective, over the last 30 plus years, 
we have installed a 150,000 total cell towers across the 
country. So in about a third of the time we are going to need 
five times the amount of infrastructure. It's a daunting task.
    And right now, the good news is a device like this only 
takes an hour or two to install. The challenge we face is it 
can take a year or two to gain approval. And that's because at 
every level of government; local, state and Federal, these get 
treated as if they were a 275 foot tower along the side of the 
highway.
    And with your leadership, these new networks will have new 
rules and there are a number of proposals before this Committee 
that address the core impediments which give us--make us very 
optimistic.
    The first, Chairman Wicker, and--Chairman Wicker and 
Senator Cortez Masto have the SPEED Act and the SPEED Act would 
update Federal regulation for these type of devices. That 
common sense proposal would slash the costs to deploy these by 
a third and would shave months off deploying each of these.
    Senator--next turn to Senator Schatz and Senator Thune are 
working on local siting with respect to how do we update the 
rules and the guidance to local communities to do siting. This 
is something the Committee has done in 1992, 1996, and most 
recently 2012. What are the guardrails around local action?
    And Senator Schatz and Senator Thune's proposal addresses 
what the proper rate structure, the timelines for devices like 
this while preserving important local authority and retaining 
that authority, as it should. Senator Heller and Senator 
Mansion are working on Federal lands and making sure utilizing 
Federal assets, particularly in rural America, to extend 
broadband in rural America where Federal lands is the place 
that makes most sense to site on.
    And I can't have a conversation about infrastructure on 
wireless without talking about spectrum. And Senator Hassan and 
Senator Gardner's AIRWAVES Act is a central proposal for the 
future of our country in terms of spectrum policy. We want to 
win the race to 5G. That gives us a roadmap on the spectrum we 
will need to do so.
    And if we get these policies right, 5G will be 
transformative. It's going to unlock telehealth and precision 
agriculture, connected cars and the Internet of things. We are 
excited about the possibility of jobs. We project 3,000 jobs in 
downtown Honolulu, three million across the country. We are 
looking at places like Jackson, Mississippi gaining 140 million 
dollars to the local economy over next the 10 years thanks to 
5G, 500 billion across the country.
    So we are excited about what 5G can do and we are excited 
about your leadership and we think working together this year 
we can help close the digital divide and win the 5G race 
together.
    Thank you for the time. Look forward to your questions.
    [The prepared statement of Brad Gillen follows:]

   Prepared Statement of Brad Gillen, Executive Vice President, CTIA
    Chairman Wicker, Ranking Member Schatz, and members of the 
Subcommittee, on behalf of CTIA and the wireless industry, thank you 
for the opportunity to testify today to discuss the critical role 
Congress plays in ensuring that wireless broadband infrastructure can 
be rapidly deployed across the country.
    We commend the Subcommittee for its leadership with the MOBILE NOW 
Act that provides a bipartisan roadmap for future infrastructure and 
spectrum initiatives to help create new jobs and economic 
opportunities. MOBILE NOW was focused on promoting the deployment of 
wireless networks by making more spectrum available for wireless use 
and facilitating deployment of infrastructure needed to support these 
networks. We appreciate the opportunity today to address the next set 
of infrastructure reforms needed to drive wireless investment.
    This hearing is timely, as all four nationwide U.S. wireless 
providers have recently announced plans to roll out the next-generation 
of wireless networks, 5G, using a variety of spectrum bands. National 
infrastructure reform can greatly expedite the millions of jobs and 
billions of investment that 5G deployment will bring. Nations across 
Asia to Europe are investing heavily in 5G, but none of those countries 
can match the competitiveness of the U.S. wireless industry. Massive 
private investment from the national providers and regional carriers 
will be unleashed in the U.S. if the government modernizes its approach 
to infrastructure siting this year.
    We are confident that, with this Subcommittee's continued 
leadership, we can win the global race to 5G--as we did for 4G. We are 
equally confident that reforms can help the industry expand wireless 
coverage throughout the country, particularly in rural areas.
The Wireless Industry Invests In Jobs and the Economy
    Wireless networks and smartphones have become a central part of 
Americans' daily lives. There are now more wireless connections in the 
U.S. than there are Americans, and over the past two years, U.S. mobile 
data usage has more than tripled. This rapid growth has been made 
possible by the wireless industry's substantial investment in our 
Nation's infrastructure. To meet consumer demand, wireless capital 
expenditures totaled more than $200 billion in the past seven years 
alone. Overall, the wireless industry supports more than 4.6 million 
American jobs and contributes roughly $400 billion annually to the 
economy.
Modernizing Regulation Promises 5G Investment and Jobs
    The wireless industry is poised to play an even more significant 
role in our economy with the arrival of 5G--networks that are expected 
to be up to 100 times faster than 4G networks, connect 100 times the 
number of devices, and respond five times as quickly. This increased 
speed and lower latency will not only improve the way we communicate, 
but it will unlock innovations in healthcare, transportation, and 
manufacturing, help deliver the benefits of the Internet of Things, and 
enable smart communities.
    The overall impact on the economy from 5G will be remarkable. 
Accenture reports that 5G will create three million new jobs and add 
approximately $500 billion to the economy. To deploy tomorrow's next-
generation networks, wireless companies will need to complement today's 
large towers with small cells that can be the size of a small pizza box 
and that will often be located discreetly on the side of a building or 
on a street light. It is estimated that wireless carriers will need to 
deploy hundreds of thousands of these small antennas over the next few 
years in order to meet America's consumer demand. This will require a 
substantial infrastructure build by wireless operators across the 
country at a projected cost of $275 billion.
Congress Plays an Important Role in Promoting National Wireless Policy
    Congress has long played a critical role in setting nationwide 
guidelines for how localities should treat requests for siting wireless 
infrastructure. By affirming wireless infrastructure siting as a 
national priority, just as it did in 1996, Congress can once again 
ensure Americans benefit from global-leading wireless services.
    The wireless industry works in collaboration with local and state 
governments to facilitate the buildout of wireless infrastructure. Many 
are good partners, but too often the wireless industry today is 
encountering policies--long delays, onerous requirements, and excessive 
fees--that frustrate efforts to deploy new broadband and expand 
wireless coverage. In too many instances, an installation that takes 
one to two hours to complete requires one to two years of processing 
and application procedures. Some cities refuse to allow wireless 
installations on streetlights, and still other communities effectively 
foreclose deployment through excessive application and monthly fees 
(e.g., charging $30,000 per pole per year, or a $15,000 application fee 
per pole). The U.S. will not win the global 5G race if those timelines 
and costs are not significantly reduced across the country.
    More than 20 years ago, Congress made clear that localities play an 
important role in the permitting process for wireless facilities, and 
that localities may not frustrate wireless deployment that will 
otherwise benefit our economy, and consumers. Specifically, Congress 
established the rapid deployment of wireless infrastructure as a 
national priority and set nationwide guidelines for how localities 
should treat siting requests. Under that Federal regime, the wireless 
industry constructed 150,000 cell towers and rolled out service 
nationwide.
    The transition to 5G necessitates updating Congress's guidance to 
localities, as the rules that applied to the infrastructure of the past 
are no longer appropriate to support next-generation 5G deployment. The 
most meaningful step Congress can take is to once again provide clear 
direction to--and guardrails around--state and local government. CTIA 
is encouraged that Senators Thune and Schatz have circulated a 
discussion draft that addresses three targeted reform areas that would 
make a significant difference in promoting broadband investment while 
preserving local authority. The discussion draft would:

  1.  Ensure Cost-Based Fees. Congress would make clear that localities 
        retain the right to charge for access to government property, 
        provided that such fees are fair and reasonable, competitively 
        and technologically neutral, based on actual costs, and 
        publicly disclosed.

  2.  Set Reasonable and Enforceable Timelines. Congress would 
        establish a reasonable ``shot clock'' on handling siting 
        applications and deeming applications granted if there is no 
        action within that shot clock period. This could accelerate 
        deployment while still preserving state and local authority 
        over zoning decisions.

  3.  Clarify Permitted Conduct. Congress would clarify that local 
        roadblocks--like unreasonable, non-objective or discriminatory 
        application review guidelines--are forbidden by Congress's 
        long-standing directive to eliminate rules that ``prohibit or 
        have the effect of prohibiting'' the provision of 
        communications services.

    These reforms, if enacted, would promote billions of dollars in the 
deployment of new wireless infrastructure.
The SPEED Act Will Help Modernize Federal Requirements
    Today, in order to install a new antenna or small cell, Federal 
regulations require a cumbersome and costly Federal review process that 
generally disregards the size or location of the new facility. For 
instance, wireless reviews under the National Historic Preservation 
Act, or ``NHPA,'' and the National Environmental Policy Act, or 
``NEPA,'' can run into the tens of thousands of dollars per 
installation, even for small wireless deployments that are dramatically 
different in nature than the larger deployments for which these 
obligations were originally created. FCC Commissioner Mignon Clyburn 
has correctly noted, ``treating small cells differently than large 
macrocells, that makes all the sense in the world. They're not created 
equal.''
    Yet today, NHPA mandates alone recently cost a carrier more than 
$170,000 to install just 23 small cells in a parking lot. Another 
provider estimates that reviews under NHPA and NEPA comprised, on 
average, 26 percent of its total small cell deployment costs last year. 
And these costs are increasing; one carrier reports that these costs 
have risen by as much as 2500 percent in some parts of the country 
since 2010. The direct costs only tell part of the story: these reviews 
can take months, which add delays and uncertainty to projects, keeping 
customers from enjoying the benefits of better service.
    To be clear, the wireless industry supports appropriate 
environmental and historic preservation review for sensitive sites and 
major projects. The current regulatory structure, however, fails to 
reflect the different impact of new small cells or installations in 
previously approved locations.
    That's why we're pleased with the common sense legislation--S. 
1988--introduced by Senators Wicker and Cortez Masto, which would 
modernize the NEPA and NHPA review process for wireless facilities. 
While preserving key protections for environmentally or historically 
significant areas, the SPEED Act recognizes the need to modernize the 
process to allow antennas in public rights-of-way and where new 
facilities simply replace existing ones or do not significantly expand 
existing ones. It also recognizes that a small cell should not face the 
same requirements as a 250-foot tower. The FCC is also scheduled to 
consider reform to address modernizing NHPA/NEPA review at its March 22 
meeting. CTIA strongly supports the FCC's proposed action as well.
Congress Can Facilitate Deployments on Federal Lands
    The Federal Government owns nearly 30 percent of the land in the 
U.S. and more than 50 percent of the land in the 10 most western 
states. The Federal Government also owns and manages key buildings in 
major cities and towns throughout the country.
    Leases to place new sites on lands regulated by the Bureau of Land 
Management or the National Park Service can take two or three years to 
negotiate. Even simple lease renewals can take 12-18 months. In many 
parts of the nation, enhanced siting on Federal lands will help 
wireless carriers more quickly deploy in unserved or underserved 
communities. Today, the process to deploy wireless networks on Federal 
lands is too often opaque with different applications requirements and 
timelines and without guidelines to support timely deployment of new 
communications facilities.
    We support Senators Heller and Manchin's leadership with S. 1363 to 
streamline and standardize the process by which broadband companies of 
all kinds obtain access to Federal properties for siting facilities and 
also ensure that applications for this access are processed in a 
reasonable period of time. These provisions, along with use of common 
forms and master contracts, would bring much-needed predictability to 
the process. S.1363 builds on key provisions included in MOBILE NOW.
The Wireless Industry Shares Congress's Goal of Expanding Broadband's 
        Reach
    We are proud of the investment our Nation's wireless providers have 
made to expand coverage across the country, including to rural areas, 
and look forward to working with Congress to continue expanding the 
number of Americans with access to wireless broadband. The wireless 
industry--including both national and regional providers--has made 
substantial strides in the past decade to expand wireless coverage to 
reach more Americans. Today's 4G LTE mobile broadband services were 
first introduced in the United States in 2010, and in less than eight 
years, 4G wireless services are available to more than 99 percent of 
Americans. This is a remarkable pace of deployment for a new technology 
in a very short window. And our Nation's wireless footprint continues 
to grow. In 2016 alone, wireless investment increased coverage by more 
than 150,000 rural Americans and nearly 50,000 rural road miles.
    We share the Subcommittee's desire to further expand broadband to 
more Americans, and recognition of the important role infrastructure 
reform can play to do so. Private capital has driven the vast majority 
of the expanded wireless coverage, and there should be a renewed focus 
on the steps policymakers can take--like those detailed above--to 
facilitate wireless providers' investments in rural America by altering 
the investment calculus of some rural deployments from uneconomic to 
viable. As FCC Commissioner Brendan Carr has said, reducing the cost of 
building new networks can ``flip the business case for [wireless] 
deployments in thousands of communities in the U.S.''
    The government also has the ability to expedite deployment in 
unserved areas through direct funding. The upcoming FCC Mobility Fund 
II auction of $4.5 billion over 10 years will be an important step to 
reach rural Americans currently unserved by wireless broadband. And the 
bipartisan budget that passed last month included $20 billion for 
infrastructure programs, including funds for the expansion of rural 
broadband. Any new Federal funding should consider the increasingly 
critical role that mobile wireless services play in rural consumers' 
lives. Greater participation by mobile wireless providers will lead to 
more effective use of public resources and deployment of high-speed 
broadband services to more rural areas. Any new funding should also 
ensure that reaching areas unserved by wireless is reflected in the 
program's objectives. In making funding decisions, data is key, and 
rural broadband is no exception. CTIA appreciates that the Senate has 
attempted to address this issue by passing the Rural Wireless Access 
Act (S. 1621), and we will continue to work with both national and 
regional wireless providers to ensure the FCC has information necessary 
to direct limited Federal resources appropriately.
                             *  *  *  *  *
    The wireless industry is eager to work with this Subcommittee in a 
bipartisan manner to advance U.S. innovation and investment in mobile 
broadband. CTIA strongly supports this Subcommittee's efforts to help 
clear the way for 5G and expand wireless coverage. The time for 
addressing these issues is now. America is in a global race to 5G as 
China, Japan, South Korea, and the European Union are hard at work 
accelerating 5G deployments. As Nokia's CEO noted, ``it's a neck-and-
neck race between the U.S. and China to see who will be the first to 
deploy'' 5G networks. With the right infrastructure, spectrum, and 
other regulatory policies in place, the U.S. can win this race, and 
Americans can further benefit from the economic and consumer benefits 
that flow from continuing to lead the world in wireless. Thank you for 
the opportunity to testify today.

    Senator Wicker. Thank you very much, Mr. Gillen.
    Mr. Romano, you are recognized.

      STATEMENT OF MICHAEL ROMANO, SENIOR VICE PRESIDENT, 
  INDUSTRY AFFAIRS AND BUSINESS DEVELOPMENT, NTCA--THE RURAL 
                     BROADBAND ASSOCIATION

    Mr. Romano. Good morning. Thank you, Chairman Wicker, 
Ranking Member Schatz and members of the Subcommittee for the 
chance to testify today.
    NTCA and our 850 small, rural telecom provider members have 
been singularly focused on the mission of rural broadband, 
making great strides to reach hard-to-serve areas in the most 
rural parts of the United States. But as everyone here has 
noted on the dais as well, there's much more to do to deploy 
and sustain networks and we are eager to be part of a 
conversation about developing comprehensive, coordinated 
strategies to connect rural America with the world.
    My testimony highlights several principles and lessons 
learned to inform future infrastructure efforts. These are 
based upon our members' efforts serving their rural hometowns 
and their experience with prior Federal and state initiatives.
    First, no rural broadband effort can succeed if the 
business case for investment operation does not exist. While 
rural broadband is difficult, it is not hard to identify the 
primary barrier, the challenging economics of deploying and 
sustaining networks in rural America.
    Put simply, helping to make the business case for rural 
broadband is job one. Other measures will help only on the 
margins at best if there's no business case and dedicated 
funding in the first instance.
    Second, a proven track record of delivering real results in 
rural areas is important. Finite Federal resources to promote 
rural broadband are too important a gamble. Building and 
operating a network in an NFL city is very different than doing 
so in western Nebraska. We should leverage the experience and 
existing assets of those that have actually deployed and 
operated a rural network, to the extent possible, and must 
verify the technical capabilities of proposals.
    Third, we need to demand the best return in leveraging 
public resources. Broadband networks are a long-term 
investment. They must scale and be able to meet user demands 
over the decades long lives of such assets. Investing in 
networks that seem cheaper up front but cannot keep pace with 
escalating user demand represent resources potentially wasted 
and risks leaving rural America behind along the way. As an 
analogy, we should not be paying for a two lane road when we 
know a four lane road will be needed in just a few years time. 
The same is true for broadband.
    Fourth, any resources made available for rural broadband 
should go to where they are needed most based upon an accurate 
picture of current availability and construction underway. This 
has been one of the most vexing challenges, but this can be 
done better, as explained in my testimony, and it's extremely 
important to do so.
    Fifth, and on a related note, we must coordinate new 
programs and resources with existing initiatives. There may be 
no greater waste of money or opportunity than dueling programs 
that over-build one another where the market can't sustain even 
one network on its own.
    To date most initiatives have complemented one another 
quite well. But as new programs get created or older programs 
are repurposed, the risk increases that Federal dollars may 
compete with one another. Leveraging existing initiatives 
provides the best means of avoiding such potential conflict and 
waste.
    Sixth, streamlining of permitting is important to help 
remove barriers and accelerate broadband deployment. This must 
be part of a comprehensive package, however, and not seen as 
the singular solution to overcoming our digital divide.
    Moreover, any permitting relief must take into account that 
5G goals, which are very important, won't be achieved in rural 
America without robust fiber necessary to connect those cells. 
It's often said wireless needs wires and the new saying these 
days is 5G needs fiber. Seventh, accountability is critical. 
Providers must demonstrate that they have used resources to 
deploy networks that do, in fact, deliver on the promises they 
have made.
    With these principles in mind and lessons learned NTCA 
suggests three steps to take in pursuing a broadband 
infrastructure plan.
    First, any infrastructure package should direct resources 
for rural broadband toward time-tested initiatives to the 
greatest extent possible. For example, the FCC's universal 
service program is a proven mechanism that with additional 
support in the face of current shortfalls can deliver immediate 
results in the form of better broadband to more places at more 
affordable prices. USDA's RUS programs could certainly use 
additional resources as well, and such funds, if directed 
there, should be coordinated with FCC efforts to avoid 
potential conflict and overbuilding.
    Second, we must accurately identify where resources need to 
go, as you said, Chairman Wicker. We suggest looking to how the 
FCC's universal service programs have done this. While not 
perfect they at least contain processes intended to overcome 
mapping limitations, which prior programs have not.
    Until more precise and granular mapping is available these 
programs offer at least the best start in terms of targeting 
resources. And we can do more to develop better maps going 
forward and to develop better challenge processes.
    Finally, streamlining of permitting is important. It's true 
that the business case for investment must exist in the first 
instance, but once that business case is made providers need 
the opportunity to hit the ground running, as Mr. Gillen 
described, to deploy networks and deliver services.
    Discussions underway in the administration and Congress and 
at the FCC all offer promise in this regard. The current 
infrastructure debate represents an opportunity to make great 
headway on rural broadband. A comprehensive, coordinated plan 
that leverages existing initiatives and know-how and takes 
stock of lessons learned can make a significant difference in 
the immediate availability and sustainability of rural 
broadband.
    We look forward to working with you and we greatly 
appreciate the long-standing and ongoing work of this 
subcommittee on rural broadband concerns.
    Thank you for inviting me to be with you today.
    [The prepared statement of Mike Romano follows:]

 Prepared Statement of Michael Romano, Senior Vice President, Industry 
      Affairs and Business Development, NTCA--The Rural Broadband 
                              Association
Introduction
    Chairman Wicker, Ranking Member Schatz, and members of the 
Subcommittee, thank you for this opportunity to testify today to 
discuss rural broadband infrastructure. My name is Michael Romano, and 
I am the Senior Vice President for Industry Affairs and Business 
Development at NTCA--The Rural Broadband Association.
    NTCA applauds the increasing focus on rural broadband from Congress 
and the Administration. Our association and the approximately 850 
small, hometown-based rural telecom providers in our membership stand 
ready to work with this Subcommittee and others in Congress on 
comprehensive, coordinated strategies that can help connect rural 
Americans with the world. NTCA welcomes the prospect of much-needed 
additional resources for rural broadband deployment, but, at the same 
time, it is critical policymakers closely examine not only what is 
needed, but also what Federal initiatives are already working well and 
what lessons can be learned from past and current broadband deployment 
efforts. Any new initiatives must build upon--or at least take stock 
of--efforts already underway, and also draw upon lessons to be learned 
from earlier programs.
Background
    NTCA's cooperative and small company members live and work in rural 
America. They operate in the ``original unserved'' areas--those areas 
left over when telephone service was first deployed starting over a 
century ago. These are the most rural parts of the United States, 
spread across more than 35 percent of the U.S. landmass but containing 
less than five percent of the U.S. population. The average density is 
about seven customers per square mile.
    In the face of such distance and density challenges, these 
committed hometown small businesses have nonetheless already made 
substantial efforts to deploy, upgrade, and sustain advanced networks 
that connect rural America to the rest of the world and to respond to 
demands for cutting-edge services. The rural telecom industry has 
always been resourceful and innovative--leading the way in converting 
to digital switched systems, deploying creative technological solutions 
to their hardest-to-reach customers, enabling distance learning and 
tele-health applications, and ultimately deploying scalable broadband 
networks.
    For all this progress and commitment, however, the job is not done 
in either the areas our members serve or in the areas not fortunate 
enough to be served by a small hometown communications provider. In the 
areas served by NTCA members--again, many of the most rural parts of 
the country--13 percent of consumers still cannot get 10 Mbps 
broadband, while 33 percent are unable to obtain 25 Mbps broadband that 
is considered a threshold level today.\1\ And the story appears worse 
in areas that are not fortunate enough to be served by cooperatives and 
other small hometown-based telecom companies like those in NTCA's 
membership; in these other rural communities, we know that many more 
consumers, businesses, schools, and medical facilities lack access to 
even basic levels of broadband.
---------------------------------------------------------------------------
    \1\ NTCA 2016 Broadband/Internet Availability Survey Report (2017), 
NTCA-The Rural Broadband Association, Arlington, VA.
---------------------------------------------------------------------------
    But to be clear, even where broadband is available in rural 
America, the job is never done. Sustaining and upgrading broadband 
networks is essential because consumers and businesses depend upon 
reliable and affordable services that will remain high-quality and keep 
pace with advances in technology and user needs. Indeed, what was 
considered ``high-speed'' broadband just seven or eight years ago is 
today considered antiquated, meaning that networks must be scalable and 
upgraded over time to keep pace with consumer demand. Furthermore, in 
terms of comparative operating costs between rural and urban areas, 
when an urban operator has a ``truck roll'' to repair service, its 
technician might need to drive two miles; a ``trouble call'' for a 
rural operator by contrast might entail driving two hours--in each 
direction. Thus, even as we have successes to celebrate and roadmaps to 
look to for proven track records of success, we as a nation have much 
more to do both to reach unserved areas and to sustain robust and 
affordable rural broadband where it is available today.
Key Principles for Broadband-Focused Infrastructure Initiatives and 
        Lessons Learned from Prior Efforts
    As policymakers consider effective and efficient ways to include 
broadband deployment within broader infrastructure initiatives, it is 
important to take stock of what has been tried to date--to build upon 
(or at least take account of) existing initiatives and to draw upon 
lessons learned from prior initiatives. Based in large part upon such 
prior experiences, there are a number of principles to consider in 
shaping policy and crafting infrastructure initiatives going forward.
1. Making the Business Case for Rural Broadband is Job One
    While rural broadband is not an easy challenge to overcome, it is 
not terribly complicated to identify the primary barrier to rural 
broadband--the economics of deploying and sustaining broadband are 
difficult, if not impossible, in many rural markets. The rates that 
rural consumers pay are rarely sufficient to cover even the costs of 
operating in rural areas, much less the upfront capital expenditures 
required to deploy reliable, high-speed broadband in rural America. 
While obtaining permits to build new infrastructure and navigating 
complex bureaucratic application processes can often be difficult for 
small businesses in particular, the single biggest challenge in rural 
America is simply making the business case to build any broadband at 
all. Put another way, permitting barriers and other impediments to 
construction are no barriers at all if one cannot justify even building 
a network in the first place.
    Without a reasonable business plan, providers are hard-pressed to 
justify borrowing funds or using one's own capital to build, and then 
harder-pressed still to sustain networks in areas where densities are 
low, distances are great, and terrain and topography complicate 
operations. Ongoing support from the High-Cost Universal Service Fund 
(USF) initiatives overseen by the Federal Communications Commission 
(FCC) has therefore been critical to making the business case for 
investing in and then sustaining rural broadband. The USF programs help 
providers to keep rates more affordable and to justify either use of a 
provider's own cash or financing from the few lenders that tend to 
serve rural Internet service providers--the Department of Agriculture's 
Rural Utilities Service (RUS), the Rural Telephone Finance Cooperative, 
CoBank, and some community banks.
    For these reasons, it is essential that infrastructure initiatives 
include sufficient resources to meet the challenges of deploying and 
sustaining broadband in rural America. Without such resources, any 
effort is likely to be effective only on the margins or in very limited 
respects, leaving behind many areas that still lack broadband access 
and/or putting at risk investments already made to deploy advanced 
broadband networks in deeply rural areas.
2. The Importance of Proven Track Records and Technical Know-How
    The operational challenges of deploying networks over great 
distances through sparsely populated rural areas are quite different 
than any other network construction project. Just because an operator 
has constructed a network in a downtown business district in an NFL 
city--where there could be more people in a single building than in an 
entire rural town and surrounding areas--this does not necessarily 
translate into success in rural broadband.
    It is therefore important to seek a proven track record of 
delivering real results in rural areas. For example, while both 
American Recovery and Reinvestment Act (ARRA) programs asked for 
information on the capability of applicants to perform, only one 
included an explicit preference for real-world experience in rural 
broadband. Any finite resources put toward supporting rural broadband 
are too important to gamble. Although new infrastructure initiatives 
should consider the merits of all comers willing and able to make the 
effort to deploy rural broadband, in the first instance we should also 
look to leverage the experience and existing assets of those that have 
in fact deployed and operated a rural network and then delivered 
services atop that network.
    This last point is particularly important. Our nation is not 
building networks just for the sake of building shiny new networks. 
Congress and the Administration are considering broadband 
infrastructure initiatives because they care in the end about the 
consumers and businesses in rural America that will use those 
networks., and they recognize the benefits to the Nation as a whole To 
this end, any initiative should look first to operators that are 
currently in the business of rural broadband, delivering high-quality 
broadband day after day to hundreds of customers spread over dozens or 
even hundreds of miles in rural areas. If public resources are 
leveraged to help make the business case to deploy networks, the 
sustainability and usability of those networks are just as important as 
the act of initially constructing them.
    On a similar note, it is important to ensure that any entity 
wishing to leverage Federal resources to deploy a rural broadband 
network is technically capable of delivering on its promise. The FCC's 
new Connect America Fund Phase II USF auction program, for example, 
includes a ``screen'' that will aim to test technical assumptions of 
applicants prior to providing any funding; the State of New York's 
broadband grant program seems to have gone even further in ensuring 
that those claiming to have solutions for rural broadband can in fact 
deliver on their promise from a technical perspective. Similarly, the 
ARRA programs required network proposals to include certification from 
a professional engineer that the proposal would operate as designed and 
claimed. Robust but reasonable ``technical screens'' are essential to 
establish that a particular solution can in fact deliver upon the 
promise asserted.
3. A Long-Term Investment Strategy is Far More Effective and Efficient
    Any resources provided in connection with an infrastructure plan 
will be finite, and thus should aim for the best return. In the case of 
long-term capital investments such as networks that will last for 
decades, this means that networks must be scalable and capable of 
meeting user demands over the full life of such assets. Putting 
resources toward inferior infrastructure that might seem cheaper 
upfront but needs to be substantially rebuilt in only a few years' time 
could turn out to be resources wasted--and risks leaving rural America 
behind.
    This concept can be referred to as ``total cost of ownership''--
estimating the total costs of owning and operating (and needing to 
reinvest in) an asset over its economic life, rather than looking 
merely at the upfront costs of procuring the same asset. Policymakers 
should craft an infrastructure initiative with this in mind; it will do 
neither the rural Americans that depend upon broadband nor the broader 
American economy any good to spend billions of dollars now just to have 
another conversation about the need to rebuild that broadband 
infrastructure five years from now. Like bridges and roads, broadband 
networks are long-term infrastructure assets, and our Nation should 
adopt a similar planning horizon based upon scalable networks that can 
meet user demands now and over the useful lives of these valuable 
assets. Put another way, sustainability is key. It is not just about 
getting broadband out there; from the perspective of consumers and 
communities, it is about keeping broadband out there, and keeping it 
affordable and up-to-date with user demand.
4. Targeting Resources for New Construction is Critical
    It is important to target any resources made available to minimize 
the prospect of overbuilding existing networks. Unfortunately, as 
discussed further below in connection with broadband mapping, 
identifying where service is or is not available has proven vexing. The 
ARRA programs did not contain effective processes to validate existing 
service coverage, and in some respects their rules all but invited at 
least limited overbuilding. For example, the Broadband Technology 
Opportunities Program (``BTOP'') overseen by the Department of Commerce 
largely eliminated any firm bars to overbuilding by the time of its 
second round of funding, instead merely weighing projects by the degree 
of unserved areas reached. By contrast, the FCC employs a variety of 
processes in its USF programs aimed at validating where service is or 
is not already available in order to direct funding to where it is 
needed most; these processes may not be perfect in scope or 
granularity, but each is an improvement upon the baseline data 
available in the FCC's Form 477 availability database or from any other 
current source.
5. Coordinating Efforts Among Federal and State Broadband Initiatives 
        is Essential
    Coordination among programs--both those that may be created as part 
of any infrastructure plan and those already in place--is essential to 
maximize the effectiveness of finite resources and achieve the goal of 
robust and sustainable universal broadband. In fact, to minimize the 
likelihood of ``making new mistakes'' (or even repeating old ones) in 
the rush to stand up any new program, as discussed further below, NTCA 
submits that it makes sense in the first instance to leverage existing 
programs that have time-tested processes and procedures to direct funds 
to the right places and already have experience in vetting proposals to 
deploy and sustain rural broadband.
    If, however, new programs are to be created, these programs should 
not only take stock of the lessons learned and principles to be derived 
from prior experience as outlined in this testimony, but such new 
efforts must also ensure that they complement--and do not compete 
with--the existing efforts already underway. For example, some 
providers receiving Federal USF support have complained that BTOP funds 
were used to connect anchor institutions that already had broadband 
service leveraging that USF support. Similarly, RUS resources should 
work in concert with USF as described further below, rather than having 
multiple Federal programs stimulate the construction of duplicative 
networks in rural areas where the costs of deploying and operating even 
just one network are prohibitive. Any Federal resources made available 
to promote broadband availability should therefore be directed through 
existing programs to maximize their effectives, and sufficient 
``guardrails'' should be put into place to ensure that any new efforts 
complement, rather than undermine, the good work that existing 
broadband-focused programs already enable.
6. Streamlining Construction Processes is Necessary
    Once the business case can be made for deployment and ongoing 
operation of a rural broadband network, this is where impediments that 
can delay or deter a project come into play. Steps can and should be 
taken to mitigate permitting delays, complicated application 
procedures, and high costs of access. Such efforts are especially 
important to enable any Federal resources made available as part of an 
infrastructure plan can begin delivering on their promise as soon as 
possible.
    Smaller providers like those in NTCA's membership have neither the 
staff nor the resources to navigate complex agency structures in search 
of permits to build broadband; for companies and cooperatives with an 
average of approximately 25 employees, time and money spent on such 
efforts translates to time and money not spent building broadband. At 
the same time, in serving many of the most remote parts of the United 
States, our members have deep experience with the Bureau of Land 
Management, U.S. Forest Service, National Park Service, and many other 
land-owning and property-managing agencies across the Federal 
Government. Especially when crossing Federal lands or railroad rights-
of-way, small rural providers must address permitting concerns or 
contractual obligations that can delay projects and increase their 
already high costs.
7. Accountability Must be Part of any Program
    One final principle to consider in connection with any 
infrastructure plan is how to hold recipients of any resources 
accountable for use of the support they may receive. Concerns have been 
raised in the past, for example, that it is difficult to discern the 
precise locations reached leveraging ARRA resources. Similar concerns 
were raised in the past with respect to use of USF funds, particularly 
in areas where broadband remained lacking notwithstanding the sums 
disbursed to certain carriers. In more recent years, however, the FCC 
has established a robust accountability program that imposes specific 
buildout obligations and requires recipients of USF support to capture 
the latitude and longitude of every new location to which they deploy 
broadband using such support. The FCC is also in the process of 
developing measures by which USF recipients will verify the 
availability of services at the levels required by the program. Similar 
measures should be considered in any new program--or, yet again, this 
provides good cause to leverage existing efforts in lieu of creating 
new programs and compliance measures from scratch.
Proposed Steps Forward Based Upon These Key Principles and Lessons 
        Learned
    The principles and lessons learned described above can provide 
guidance in considering the most effective and efficient steps in 
addressing our Nation's remaining rural broadband challenges. I will 
next discuss a few steps that NTCA suggest should inform and shape any 
infrastructure plan.
1. Leverage Existing Initiatives to the Maximum Extent Possible
a. Universal Service Fund
    Standing up new programs from scratch is not easy, and if a new 
broadband infrastructure initiative conflicts with existing efforts, 
this would undermine, rather than further, our Nation's broadband 
deployment goals. For these reasons, strong consideration should be 
given to leveraging--and supplementing--the FCC's existing High-Cost 
USF initiatives as a primary means of implementing a broadband 
infrastructure initiative.
    USF programs have been in place for years, and the FCC has recently 
reoriented these efforts under the ``Connect America Fund'' banner to 
promote broadband in high-cost rural areas. As discussed earlier in 
this testimony, the high-cost USF/CAF initiatives are essential both in 
justifying the business case for broadband infrastructure investment in 
the first instance, and then sustaining such investments by keeping 
rates for services more affordable once networks are built.
    Unfortunately, although the FCC is considering steps to partially 
address a current USF funding shortfall, these otherwise effective 
broadband-promoting initiatives remain woefully underfunded to achieve 
their goals. More than $100 million per year is still needed to fund a 
USF model that the FCC created to promote broadband deployment. In 
addition, under a budget control mechanism included within 2016 reforms 
that applies only to some carriers, many small rural telecom operators 
have had their support slashed by an unpredictably escalating budget 
control that now equals 12.3 percent on average, translating into 
denied recovery of more than $170 million in actual costs this year for 
private broadband investments that they have already made.
    Indeed, the impacts arising out of insufficient funding of the USF 
programs are striking, and they underscore how more sufficient funding 
could yield compelling results. Because of the USF model budget 
shortfall, 71,000 rural locations will receive lower-speed broadband, 
and nearly 50,000 may see no broadband investment at all. Meanwhile, a 
NTCA survey found that 183 small business member companies were facing 
annual USF support reductions of more than $500,000 on average, with a 
corresponding average decline in planned network investment of nearly 
$950,000 that translated to delays or denials of upgraded broadband to 
more than 850 customers on average. (This last set of figures would add 
up to an estimated $91.5 million in reduced USF support leading to 
nearly $174 million in declined or deferred broadband investment, and 
more than 150,000 customers estimated to remain without access to 
upgraded services.) Moreover, NTCA members estimated that the USF 
support reduction would contribute to standalone broadband prices $50 
higher per month than they would otherwise have been for rural 
consumers.\2\
---------------------------------------------------------------------------
    \2\ NTCA 2017 USF Budget Control Impact Survey Results (2017), 
NTCA--The Rural Broadband Association, Arlington, VA.
---------------------------------------------------------------------------
    The FCC's High-Cost USF efforts therefore represent a logical focal 
point for future broadband infrastructure initiatives. The FCC is the 
Nation's expert agency in telecom policy, and it is already tackling 
broadband challenges with respect to availability and affordability. 
Moreover, recent CAF reforms adopted by the FCC have sought to: (1) 
reorient the USF programs toward broadband, (2) ensure funding is 
targeted to where it is needed (i.e., to places where the market does 
not enable service delivery on its own), and (3) define what the FCC 
considers an efficient level of support in each area. The FCC will also 
be conducting an auction later this year that will allow interested 
bidders of all kinds to seek USF/CAF support for unserved areas. 
Finally, the reformed program rules compel significant accountability, 
to the point that support recipients must meet specified deployment 
obligations and geocode every new location to which they deploy 
broadband leveraging USF support.
    The FCC's various High-Cost USF programs offer a ready-made 
platform that, with additional resources but with very little 
additional ``heavy lifting'' or process, could satisfy the principles 
articulated above and yield immediate, measurable benefits for rural 
consumers in the form of additional locations reached and higher-speed 
broadband. By contrast, creating new programs would require more 
administrative effort, and the rules for any such new programs must 
still be informed by the objectives and ``lessons learned'' articulated 
above--while also making sure not to undermine the important work that 
existing programs are already undertaking.
b. Rural Utilities Service
    Additional resources for rural broadband could also be directed to 
the Department of Agriculture's RUS programs that have likewise been 
important in stimulating rural infrastructure deployment. The RUS has 
long played a crucial role in addressing rural broadband challenges 
through its telecommunications programs that finance network upgrades 
and deployment in rural areas, and these programs remain just as vital 
today. If any infrastructure resources are directed to RUS rather than 
to the FCC's USF/CAF efforts, it will then be essential, however, to 
ensure that such programs are coordinated effectively with and 
complement, rather than compete with, the ongoing efforts of the 
Federal USF programs.
    At times, some confuse the roles of RUS programs and the USF, 
thinking them repetitive or redundant. But this reflects a fundamental 
misunderstanding of the unique and distinct role each has played. USF 
does not finance networks; banks and other lenders (including RUS 
programs) provide upfront financing necessary to construct networks 
(although not too many banks lend to construct broadband infrastructure 
in rural America where return on investment is typically measured in 
decades). On the other hand, RUS programs and other banks and financing 
programs do not sustain networks or make services atop them affordable 
for consumers; again, loans from private lenders or through the RUS 
programs focus upon upfront financing. It is the Federal USF program 
that is essential to ensure that consumers can obtain reasonably 
comparable services at reasonably comparable rates atop the networks 
once financed and built. In other words, USF is the linchpin of making 
the business case in the first instance to obtain financing from any 
lender--RUS or otherwise--to build networks in rural areas.
    It is essential that this long-standing complementary relationship 
between RUS and the USF initiatives continue, rather than revising the 
programs or using any new infrastructure plan resources in a manner 
that pits Federal efforts against each other. RUS already has policies 
in place precluding its own programs from competing with one another; 
it is important to take this a step further and ensure that all federal 
programs work in concert rather than potentially undermining each 
other's important pro-investment policies. To this end, NTCA suggests 
ensuring that any Federal RUS program funds and new infrastructure 
resources not be used to overbuild another provider's broadband network 
if supported by Federal USF resources, provided that the USF recipient 
is meeting its buildout obligations under the USF program. Such a 
reasonable measure will ensure the ongoing complementary nature of 
these efforts, maximize the effectiveness of any Federal resources put 
toward broadband infrastructure, and ultimately enhance the likelihood 
of success of new infrastructure initiatives in reaching as many rural 
Americans as possible.
2. Conduct Better, Smarter Mapping of Service Availability
    This Subcommittee's attention to mapping is much-needed and 
appreciated by NTCA and its members. We need more accurate, granular 
data on service availability to ensure that government efforts to 
support broadband target resources as efficiently as possible. Such 
data serve two important functions, in fact, in the context of 
broadband infrastructure policy. First, better data will help ensure 
that Federal support is not withdrawn when still needed because there 
is no other network in a given area. Second, better data can help avoid 
the prospect of federally-supported duplicative infrastructure 
deployment in an area that might at first appear ``unserved.''
    Unfortunately, there is no single, current, fully reliable source 
of data with respect to broadband availability in the United States. 
The National Broadband Map administered by the Department of Commerce 
has not been updated since June 2014--ages ago in the evolution of 
broadband network coverage and speeds. Moreover, depending on the state 
process that went into gathering such data, that map appeared to 
contain anything from carefully vetted information to self-selected 
claims of coverage based more upon marketing interest than actual 
network capabilities. In the interim, the FCC has started to publish 
more tools showing the data gathered through provider Form 477 
submissions, but the underlying Form 477 process itself suffers from 
imprecision and an inherent lack of granularity. The Form 477 is 
certified by the provider, but there is no means of validating the data 
submitted. In addition, the Form 477 data is submitted by census 
block--meaning that in a rural area, one consumer with service in a 
block can result in unserved consumers miles away looking ``served'' 
nonetheless. It is for these reasons that the FCC has engaged in 
substantial periodic data collections and additional ``challenge 
processes'' in the context of its fixed and mobile USF proceedings, so 
that it can develop a record of better evidence to validate where 
service truly does and does not exist notwithstanding the face of Forms 
477 received.\3\
---------------------------------------------------------------------------
    \3\ See Connect America Fund, et al., WC Docket No. 10-90, et al., 
Report and Order, Order and Order on Reconsideration, and Further 
Notice of Proposed Rulemaking, FCC 16-33 (rel. Mar. 30, 2016),  70-71 
(directing a challenge process for recipients of model-based USF 
support) and  116-145 (creating a challenge process for carriers 
receiving cost-based USF support); Connect America Fund, et al., WC 
Docket No. 10-90, et al., Order on Reconsideration and Second Report 
and Order, FCC 17-102 (rel. Aug. 4, 2017),  27-64 (adopting a 
challenge process intended to direct Mobility Fund support to rural 
areas that lack unsubsidized 4G LTE service).
---------------------------------------------------------------------------
    Better methods to ascertain broadband availability exist. The FCC's 
High-Cost USF program requires recipients of support to geocode 
individual locations where new broadband is installed (and, in some 
cases, for prior deployments, too). Such measures--particularly the 
geocoding of new installations and upgrades going forward--can bring us 
closer to identifying where broadband exists with much greater 
precision, which would then allow targeting of support and other 
efforts to promote broadband deployment where needed most. On a going 
forward basis, geocoding could perhaps offer promise in transitioning 
from the current maps to better information. Whatever means might 
ultimately be chosen to obtain more accurate and granular data, 
however, it will be important to: (a) avoid unreasonable burdens in the 
data-gathering process, including any duties to go back and geocode 
prior installations; and (b) reconcile and coordinate data-gathering 
and mapping efforts to avoid duplicative reporting requirements for 
operators and the prospect of generating inconsistent data due to 
differing standards among reports at different agencies.
3. Streamline Permitting
    As discussed earlier in this testimony, the primary challenge to 
rural broadband deployment is making the business case at all for rural 
broadband deployment. Where such business case exists however, removing 
barriers to deployment through streamlining of governmental permitting 
procedures can in turn drive more rapid rural broadband deployment at 
relatively lower cost. Several steps can and should be taken to address 
such concerns, and NTCA is encouraged that Congress and the 
Administration continue to examine these issues on so many fronts.
    As an initial matter, NTCA and its members have urged that 
differences in Federal agency policies and procedures with respect to 
installation of communications facilities should be the exception 
rather than the rule, applying only where needed to implement a unique 
statutory directive to the agency in question. A lack of coordination 
and standardization in environmental and historical application and 
approval processes across Federal agencies increases the cost and 
further complicates and delays the deployment of broadband 
infrastructure--especially for small providers. Several NTCA members 
joined NTCA's CEO, Shirley Bloomfield on the FCC's Broadband Deployment 
Advisory Committee's Streamlining Federal Siting Working Group that put 
forth recommendations, which will hopefully be implemented to further 
accelerate the broadband deployment permitting process. Those 
recommendations included:

  <bullet> Standardize and publish fee schedules, and utilize revenue 
        in a way that promotes expediting Federal siting processes.

  <bullet> Harmonize permitting processes across agencies to the extent 
        feasible and ensure the process is uniformly applied across 
        regional and state offices.

  <bullet> Recognize and accept existing completed studies in 
        previously disturbed areas.

  <bullet> Harmonize environmental assessments across Federal 
        landholding or managing agencies, further streamline National 
        Environmental Protection Act and National Historic Preservation 
        Act exclusions, and eliminate duplicative environmental 
        studies.

  <bullet> Make current environmental and historic review streamlining 
        mechanisms mandatory for all agencies.

  <bullet> There should be a single, easily accessible online-tracking 
        mechanism at each Federal agency for the permitting process. 
        All agencies should regularly report on permit status and the 
        number of permitting applications they have processed.

  <bullet> The common application form should accommodate changes to 
        existing installations and applicable leases and easements. 
        Agencies should accommodate and incorporate new broadband 
        infrastructure technologies into their review processes. \4\
---------------------------------------------------------------------------
    \4\ Broadband Deployment Advisory Committee: Federal Siting Working 
Group, Final Report, (2018).

    As Congress considers any permitting reforms, however, it is 
important to emphasize that any changes and coordination with respect 
to permitting should be made on a ``technology neutral'' basis. Much of 
the discussion with respect to streamlining of permitting processes 
appears driven by a desire to promote the availability of 5G wireless 
capabilities through the increased placement of small cells. This is 
understandable given the promise of faster mobile broadband services 
and the fact that massively expanded small cell placement is critical 
to the availability of such services.
    At the same time, it is important to take realistic stock of 
whether, when, and to what degree 5G services will be available on a 
widespread basis in rural America. A technical paper released last year 
found that the full promise of 5G capability can only be realized in 
rural America if small cells are placed every several hundred feet 
apart,\5\ and it will take significant amounts of backhaul capacity--
``densification'' of fiber \6\--to manage the data loads that 5G is 
hoping to handle.\7\ In short, the deployment of 5G-capable networks in 
rural areas where there are only a few households per square mile would 
effectively seem to translate to a fiber-to-the-premise construction. 
Put another way, the old mantra of ``wireless needs wires'' is quickly 
becoming ``5G needs fiber.'' In addition, it has been explained that 
taking steps to rationale 5G permitting alone ``will not solve the 
problem in unserved areas;'' it will clearly take both permitting 
relief and additional resources if the promise of 5G will come to rural 
America within the foreseeable future.\8\
---------------------------------------------------------------------------
    \5\ Evaluating 5G Wireless Technology as a Complement or Substitute 
for Wireless Broadband, Vantage Point Solutions (2017).
    \6\ See Remarks of Federal Communications Commission Chairman Ajit 
Pai at the Mobile World Congress, Barcelona, Spain, February 28, 2017.
    \7\ The Road to 5G is Paved with Fiber, Fiber Broadband 
Association, December 2017; Sean Buckley, ``Verizon's McAdam: Our 
multiuse fiber approach offers more cost efficiencies,'' Fierce 
Telecom, May 22, 2017.
    \8\ Holmes, Allan, ``5G Cell Service is Coming. Who Decides Where 
It Goes?'' The New York Times, March 2, 2018; see also remarks of CTIA 
during ``Closing the Digital Divide: Broadband Infrastructure 
Solutions'' hearing, U.S. House of Representatives Energy & Commerce 
Communications and Technology Subcommittee, January 30, 2018.
---------------------------------------------------------------------------
    In the end, for rural consumers to have a broadband experience 
reasonably comparable to that in urban America, they must have 
meaningful access to both fixed and mobile broadband services. Placing 
too much hope on mobility alone without recognizing ``wireless needs 
wires''--or, these days, ``5G needs fiber''--is a recipe for 
insufficient access in rural America.
Conclusion
    The current national infrastructure debate represents a significant 
opportunity to make progress on rural broadband deployment, and we hope 
that the promise of broadband will be recognized among the many other 
compelling infrastructure priorities also in need of attention and 
resources. We look forward to working with you and greatly appreciate 
the work of this subcommittee in helping to solve the challenges of 
rural broadband.
    Due in part to the leadership of this subcommittee, small, rural 
broadband providers like those represented by NTCA-The Rural Broadband 
Association continue to make great strides in overcoming the challenges 
of providing broadband to rural America. Your commitment to identifying 
and solving these challenges is greatly appreciated. Thank you for 
inviting me to be with you today, and I look forward to your questions.

    Senator Wicker. Well, thank you very much, Mr. Romano. And 
thank you all, gentlemen, you all submitted excellent written 
testimonies which will be included in the record and your 5 
minute summaries were just outstanding. So my hat is off to 
each of you.
    Let's begin, Mr. Gillen, with something you brought up and 
perhaps others would like to comment on this. This race to win 
5G. You say we are in a race with China and Japan, for example, 
as well as the European Union. What are the consequences of 
letting someone else win this race? What if China wins the race 
and we come in second? What does this really mean to Americans?
    Mr. Gillen. It's a great question. Chairman, I think the 
easiest way to think about it is looking backward. We lead the 
world in 4G wireless and that lead to things like the app 
economy developing here. You have global giants like Samsung 
and Erickson have R&D facilities here in the United States 
because we have the best networks to innovate off of.
    So when we talk about 5G and the exciting things happening 
in healthcare and transportation and education, we want that 
innovation to happen here first. And if we aren't first we risk 
that innovation going overseas.
    Senator Wicker. Would someone else like to talk about that? 
All right. OK. If not, we will move on and I'll get all my 
questions in.
    So do all of you agree with Mr. Gillen?
    Mr. Berry.
    Mr. Berry. Yes, Senator, I agree that we do want to be in 
first because we get the first mover of benefit in an economy.
    I'm also concerned about as we move to 5G that we are also 
ready for 5G in all of rural America. We need to get the 4G 
LTE, long-term evolution technology, as well as VoLT, voice 
over LTE, and the faster we get there the faster we can have 
the benefits in rural America and urban/suburban America of a 
5G world. Because I don't think we want to leave half the 
United States or half the Nation behind this economic 
opportunity for the new mobile world. And so that's my concern. 
Yes, we need to be on the forefront of innovation, but we also 
need to do it in a way that allows the entire economy to 
benefit from this great opportunity.
    Senator Wicker. Thank you very much.
    Well, Mr. Berry, let me ask you then to elaborate on the 
concern that I expressed and that you expressed about data 
collection and broadband mapping. I think you said it's just 
totally inadequate. So if you would comment on that first and 
then anyone else would like to follow-up, please do.
    Why is the data so wrong?
    Mr. Berry. You know the simple answer is garbage in, 
garbage out. And we are not asking--it's clear that I had great 
hopes that this next round of data request would actually 
produce a better quality service maps. What we actually got 
though was very clear that the FCC requested the wrong 
perimeters in order to define a granular map that has actual 
meaning on the ground.
    Senator Wicker. When did that request go out?
    Mr. Berry. Well, it was a whole series of discussions and 
back and forth with the FCC. You know, our carriers, FCC and 
our members said, listen, you should measure signal strength 
and you should measure those types of things that consumers 
expect for usage on the ground. And we didn't do that in this 
map.
    What you have is a map that the FCC produced that says here 
is the areas that we think are eligible for USF and all those 
other areas, including like 99 percent of Mississippi is 
ineligible, and until someone challenges that, it's like having 
to prove a negative and I--I am very concerned that the map is 
so disfigured in terms of its reality on the ground that it's 
almost impossible to have a successful challenge because you're 
going to have to challenge literally 98 percent of the United 
States in order to do so.
    It's--we can do better. I would suggest that maybe we need 
all the resources of the Federal Government to focus on 
broadband data and information. NTIA just last--just a few days 
ago, David Redl, the new Assistant Secretary of NTIA, suggested 
NTIA has a great database and has access to local, state and 
governments and that they can help build a better database that 
is rational and more accurate about where is broadband and 
where it is not.
    Senator Wicker. Mr. DeBroux----
    Mr. Berry. Not just wireline, but wireless.
    Senator Wicker.--you seem eager to jump in.
    Mr. DeBroux. Yes. I think, and I'm not an expert on the 
wireless side of this, but on the wireline side I think some 
good starts have been made. We are not there, but take, for 
example, in the ACAM program, the FCC was extremely careful to 
make sure that there was no over building. That money wasn't 
given to households that already had other options available.
    And we are in 25 different states and we looked very 
closely at where the locations would be funded. We've actually 
engaged in their challenge process in various areas and we 
actually lost some of those challenges that we thought we 
should have won, but what that meant was there was no 
possibility that any money would be going for duplicative 
networks. And in that particular context, I think the FCC had 
done a really good job using 477 data in terms of precisely 
targeting the money that was available for broadband.
    So I think there's a start. I don't think it's all, you 
know, total chaos out there. I think there are various agencies 
that are collecting data.
    In addition, USAC for each location that we build, each 
household that we build to we have to provide the geocode 
location to them. So they are building a map as time goes on. 
So I think with coordination among various Federal agencies, I 
think we are getting there, but we are clearly not there yet.
    Senator Wicker. There are better maps you say.
    Mr. DeBroux. Well, there are better--there's information 
that hasn't really made its way into the maps. When I looked at 
the FCC map, there were definitely flaws with it and I think 
it's the way, partly the way the 477 data was interpreted.
    For example, TDS Telecom, our parent company is telephone 
and data systems. It's also the parent company of U.S. Cellular 
and there was confusion in the maps in terms of what was 
represented as an area that telephone and data systems served 
that could have been either our wireless or our wireline areas. 
So there's refinement that needs to be done, but I think the 
underlying data is there.
    So it's a matter of evolving these maps and working on them 
and seeing what needs to be done and moving forward.
    Senator Wicker. Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman. Thank you to all 
the testifiers for being here.
    I want to talk a little bit about tech infrastructure in 
the context of this broader infrastructure conversation. It 
occurs to me that Democrats are unlikely to support a shifting 
of responsibility for infrastructure from the Federal 
Government to State and local. They are also unlikely to 
support the undermining of labor or environmental protections. 
And, likewise, Republicans are unlikely to support, at least at 
this time, a big unpaid for straight up 1.5 trillion dollar 
infrastructure plan and yet everybody likes the idea of funding 
USF to a greater degree.
    You have a technical problem I think of just making a 
straight appropriation into a fund which is--which has always 
operated under a statute with fee revenue. So that's context.
    One more point of context is that the USF contribution 
factor was five and a half percent in 2000. It's 19.5 percent 
right now. We have gone from three million broadband 
subscribers at the residential level to about 100 million now. 
And that doesn't count anybody who gets high speed Internet in 
some other way.
    So you have this shrinking base of revenue from people who 
still use traditional telephone service that is funding 
broadband infrastructure across the country. We all support 
that, but the math doesn't work out.
    And the beauty of this is that the difficulty that a 
legislative body would normally have in assessing a fee for 
broadband, because everybody is freaked out about calling it 
taxing the internet, is set aside because these are appointed 
officials, not elected officials. The FCC already has statutory 
authorization to do contribution reform.
    And I can understand elected officials not wanting to stand 
up and tax broadband, but it is actually unconscionable that we 
are charging a smaller and smaller number of people who are 
primarily rural in the first place, elderly, not as wealthy, 
who just have traditional telephone service to subsidize the 
rest of the world getting on broadband.
    We need contribution reform and we need the FCC to step up 
and act like appointed officials for a quasi-judicial 
commission.
    And, the FCC has already shown this year, without getting 
into a separate conversation, an absolute determined 
willingness to do unpopular things. This would be an unpopular 
thing that would actually make sense in terms of connecting all 
of our communities to the internet. And so I'll start with Mr. 
DeBroux and Mr. Romano and see if you have any comments on 
that.
    Mr. DeBroux. Well, first of all, I'm not sure I've got much 
to add to what you said because I could not agree with you 
more. The base, the current base is shrinking. The need for 
broadband is there. We have a law that says reasonable 
comparability. I mean it's not just a good idea, it's the law.
    And in order to obtain that, in order to get broadband out 
into rural areas that is comparable it's going to take a lot of 
money. I mean there are a lot of things that can be done around 
the margins in terms of, in terms of helping getting through 
rights-of-way, getting access, all that kind of stuff.
    But without actual dollars being spent we are not going to 
achieve comparability and so I agree a hundred percent with 
your analysis.
    Senator Schatz. Mr. Romano.
    Mr. Romano. Thank you, Senator. Yes. So, first, you are 
correct, the FCC does have the authority, regardless of--and I 
know sometimes this gets into a question of what is broadband. 
Regardless of what one considers broadband, the FCC has the 
authority under current law to include some form of broadband 
within the contributions mechanism, whether it's on a revenues 
or connections or what have you basis. So that authority is 
there.
    But you raise a fundamental point. This is about equity. We 
are talking about funding broadband networks. We are talking 
about finding a way to help make sure broadband gets deeper 
into rural areas, to lower-income consumers, into schools and 
libraries. But yet the one service that isn't contributing to 
that goal of getting more broadband out there, ironically, is 
broadband.
    There's an equity issue there. The consumers who are left 
paying for this are the consumers who are not making use of 
broadband. It's a fundamental disconnect in that. 
Sustainability is critical to these programs, especially with 
long-term investments like the ones we are talking about here. 
If you don't have a sustainable universal service mechanism 
itself in the form of sufficient funding, predictable funding, 
we're going to have a problem. We are talking about potentially 
providing more support for broadband. Yet right now the high-
cost program operates on levels that were decided in 2011 just 
because that happened to be what 2010 distributions were.
    So we do need to approach this fundamentally as an equity 
issue and hopefully find a way to make these programs more 
sustainable.
    Senator Schatz. Thank you to all of you.
    Mr. Mayor.
    Mr. Resnick. Thank you, Senator. It's a great question. In 
addition to being the Mayor and working with NLC on these 
issues, I had the privilege of serving on the FCC's 
Intergovernmental Advisory Committee for 8 years including as 
its Chair through December 2016.
    My committee supported the FCC reforming its programs to 
recognize that people are getting new technology and the 
programs don't work anymore based on the old technology, 
including Life Line program which the FCC did reform to include 
broadband support. So there's no reason that these programs 
can't be expanded to cover broadband service.
    Senator Schatz. I'm out of time so I'll take the rest of it 
for the record.
    Thank you.
    Senator Wicker. Let's go ahead and let Mr. Gillen and Mr. 
Berry comment briefly.
    Mr. Berry. I'll give you one more factoid for your 
illogical rationale on how we are spending more and more on 
broadband and less and less contributions. Wireless is actually 
spending--making a significant contribution to broadband. 
That's the one area that's gone up.
    Unfortunately, decisions in the last 4 years have reduced 
the amount of funds that are available under the High-Cost Fund 
for wireless. While we are paying 45 plus percent, we get about 
8 percent now. Five years ago we were paying 45 or 50 percent 
and we were getting 23 and a half percent. So how do you get 
high speed mobile broadband when--and you're right, in a fund 
that's declining, when the policies have actually decreased the 
amount of funds that are going to mobile.
    Senator Wicker. What decisions, what policies?
    Mr. Berry. Within the FCC, when we restructured the USF, 
you know, I represent wireless. So I think it's a little 
broadband--I mean I think it's a little wireline biased, but 
now we are in a broadband world and I think we do need to 
address the contribution reform issue. It's been on the table 
for a long time.
    We have a lot of companies out there, especially over-the-
top companies are making a heck of a lot more on the networks 
than the people that build and operate and maintain the 
networks and we need to address that.
    Senator Wicker. Mr. Gillen.
    Mr. Gillen. Mr. Berry covered it well. It truly is, for us, 
a matter of technology neutrality as well. We are paying in 
roughly 50 percent of the fund, because we still have 
telecommunication services that all of your cell phones pay 
into this. But we are only getting 10 percent of the fund back. 
So I think some of the equities we look at updated methodology 
is who is paying in and the fairness of that program.
    Thank you, sir.
    Senator Wicker. Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. It's highly possible that I don't understand 
how 5G is going to work. But what I think I understand about 5G 
would mean that it would be likely to be even more slowly 
implemented in rural America than what we are doing now. So 
here's a premise.
    The premise is if that's right and you have to have a 5G 
tower every, you all can fill in the blank, but it all sounds 
like to me it's pretty close, it might work in Wilton Manors, 
Florida. It might not work in the rural parts surrounding 
Wilton Manors, Florida as the example. So the premise would be 
if--explain to me why 5G would be implemented in those last 
people's served, and if it's not going to be implemented, would 
we be better off to focus on wired broadband for those kinds of 
locations knowing that there is likely not to be a tower built 
for a long time every 500 yards. I think that's a big number 
based on what I have heard.
    Mr. Berry, do you want to start? And, Mr. Gillen, I can see 
your eyes are twinkling there. So, and, Mr. DeBroux too, I 
would be interested in what you have to say.
    Mr. Berry. Thank you for the question. And it is real 
interesting issue that I think technology is going to help us 
respond and address some of those issues, but 5G IoT is a lot 
of different things and a lot of different services.
    There's some new technology the NB, narrowband technology, 
on the IoT Internet of things can roll out through an LTE and 
on top of LTE networks. So narrowband LTE. It can reach as much 
as ten times further than existing LTE technology. So it's not 
necessarily so that 5G IoT type of services and capabilities 
are going to be rolled out in rural America last. I think what 
we may have is an opportunity to actually enhance broadband 
service, narrowband broadband service in some of the, you know, 
more cost-effective deployments in rural America earlier. And 
so if we had----
    Senator Blunt. What do you mean by narrowband?
    Mr. Berry. It's a type of technology that runs on a smaller 
slice of spectrum and will--DISH technology, DISH is using 
narrowband technology, as well as T-Mobile has just deployed a 
narrowband technology running side-to-side essentially on the 
guardbands of their own LTE network. So technology is giving us 
great opportunities here.
    Senator Blunt. All right.
    Mr. Berry. So if we have some revenue and dedicated 
resources for mobile broadband build out I think you are going 
to see it sooner than you might otherwise expect.
    Senator Blunt. Mr. Chairman, I'm going to have to take this 
call.
    Mr. Gillen. It's a 5G call.
    Senator Blunt. While--it's a 5G call. It's probably a 4G 
call. Go ahead and answer the question and I will read your 
answer in the record.
    Mr. Gillen. Absolutely, thank you, Senator. And I think 5G 
will absolutely benefit rural America and it is going to start 
in the denser parts, as any new technology does. So it's going 
to first go to college campuses like Missoula, it's going to go 
to the town square, places where you need to have the ability 
to have a hundred times more devices and a hundred times the 
speed.
    But 5G will have applications, as Steve noted, that require 
low band spectrum to go distances like connect a car and other 
applications that is going to be different technology. So for 
us we separate: there's rural America that absolutely will 
benefit from 5G and then there are Americans unserved by any 
broadband today, and those are really two different challenges 
and we need two different sets of solutions for that, but in 
terms of 5G benefiting rural America, absolutely.
    Senator Wicker. OK. Mr. Udall is next.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Mr. Chairman.
    This topic of this hearing is timely and important. In New 
Mexico we have companies, including tribally owned 
telecommunication companies, rural electric co-ops and 
traditional rural, local exchange carriers that are working 
hard every day to serve the highest cost areas, but basic 
economics tells us they need more support from Federal 
programs. And by support we mean dollars, not simply press 
releases and rhetoric.
    As I sit here and listen to some of the testimony it is 
striking as major wireless companies tout winning the race for 
5G, too many people in New Mexico and those living on tribal 
lands are stuck without 1G. While carriers have been vocal 
about what they see as delays, I hear from many rural areas and 
tribal communities about these same carriers refusing to build 
towers or serve those areas.
    For example, the Village of Reserve, New Mexico was 
approached by a wireless company in 2014 to build a tower 
within village limits. Surveying was completed, but then the 
company has failed to return a single phone call or e-mail from 
local officials. That was 4 years ago.
    So as we hear from companies asking for more latitude to 
build in mostly urban areas, everyone on this Committee must 
push them hard to expand to rural areas where so many 
communities still do not have adequate internet.
    And at this point, Mr. Chairman, I would just seek to put 
in the testimony of Godfrey Enjady, the General Manager of the 
Mescalero Apache Telecommunications, Inc. in New Mexico. And 
he's also the head of the tribal entities----
    Senator Wicker. Without objection it will be.
    [The information referred to follows:]

        Prepared Statement of Godfrey Enjady, General Manager, 
               Mescalero Apache Telecommunications, Inc.
    Chairman Wicker, Ranking Member Schatz and members of the 
subcommittee, thank you for this opportunity to submit testimony. I am 
Godfrey Enjady, General Manager of Mescalero Apache Telecom, Inc. 
(MATI) located in Mescalero, New Mexico. I also serve as President of 
the National Tribal Telecommunications Association (NTTA) which is 
comprised of the nine Tribally-owned and operated telecommunications 
companies that provide voice, broadband and other communications 
services to their communities. Those companies are Cheyenne River Sioux 
Telephone Authority, Fort Mojave Telecommunications, Inc., Gila River 
Telecommunications, Inc., Hopi Telecommunications, Inc., Mescalero 
Apache Telecom, Inc., Saddleback Communications, San Carlos Apache 
Telecommunications Utility, Inc., Tohono O'odham Utility Authority, and 
Warm Springs Telecom.
    Mescalero Apache Telecom serves the entirety of the Mescalero 
Apache Reservation located in the remote South Central Mountains of New 
Mexico. Prior to MATI purchasing its service area and building its 
network in 2001, 52 percent of the Mescalero Apache Tribe received no 
service, and 48 percent received only basic voice service. Nearly 100 
percent of the Tribe now has access to some level of broadband service. 
MATI provides services in what is considered a rural, high-cost area 
and serves an average population density of two customers per square 
mile. This situation causes the average cost per loop to substantially 
exceed the national average. In addition, 84 percent of the Tribe is 
eligible for Lifeline Support, compared to the national average of 21.8 
percent.
    The recent 2018 Broadband Deployment Report acknowledges that only 
31.6 percent of rural Tribal areas in the lower 48 states have access 
to 25/3 fixed broadband service. MATI attests that, in its specific 
case, extremely high costs are incurred to build out its Reservation 
and maintain network operations to provide modernized 
telecommunications and broadband services to its community and close 
the digital divide.
    The difficulties in serving remote, dispersed communities situated 
in hard to serve, rough terrain has been thoroughly illuminated in 
Congressional testimony and on the record at the Federal Communications 
Commission (FCC), and with USDA's Rural Utilities Service (RUS).
    Access to capital is a major roadblock to network growth and 
viability. Because most Tribally-owned carriers cannot collateralize 
their assets, RUS is our only lender and I appreciate the work that 
they do. In 2015, my company received the first RUS loan under the 2008 
Farm Bill's Substantially Underserved Trust Area provision. RUS loans 
and FCC Universal Service Fund (USF) support go hand-in-hand. Reliable 
and predictable cash flow is required to get any sort of loan, 
including RUS loans.
    The National Broadband Plan, in numerous instances, outlined the 
need for greater efforts to be made to make broadband available on 
Tribal lands. There is a lack of FCC development of broadband 
performance goals and measurements on Tribal lands. We recommend the 
development of training, mapping, data collection, and performance 
goals and measurements for broadband development in Native communities.
    The arbitrary budget cap that has been established for the FCC's 
USF high-cost program does not allow for adequate funds to build and 
maintain the broadband networks that are demanded by regulators, policy 
makers and consumers. There continues to be a debate about broadband 
capacities and speeds, no matter what the platform of delivery. Fiber 
optic networks, with the complement of wireless and satellite 
technologies, delivers the most rewarding Internet experience to 
consumers. And that network requires a viable and predictable funding 
source, especially in areas that are remote, sparsely populated and 
hard to serve. An examination and reform of the USF contribution regime 
is long over-due, and may eliminate any need for the arbitrary budget 
cap.
    In June of 2015, NTTA went on record at the FCC with a proposal to 
adopt a Tribal Broadband Factor (TBF) as part of the reform of the long 
term USF for rate-of-return carriers. The TBF included a multiplier for 
targeted support on Tribal lands, and had specific obligations for any 
carrier, Tribally-owned or not, that uses the program. The proposal was 
straightforward and easily understood, and was narrowly-tailored to 
address the specific need to promote broadband while causing very 
little impact on the overall USF mechanism. The FCC did not adopt this 
proposal. In February of last year, the FCC began circulation of a 
portion of the TBF proposal that would allow funding relief for 
operational expenses for communications companies serving Tribal lands. 
To date, this proposal has not been adopted. We call on this committee 
to weigh-in with the FCC to immediately act on this opex relief order 
and work to bring stability and predictability to USF support for 
Tribal communities.
    NTTA recommends that a pilot program be established to locate 
existing infrastructure in Indian country. In many Tribal areas, 
current infrastructure facilities (water, sewer, gas, electricity) are 
not properly identified or mapped. The preference of burying new 
broadband infrastructure leads to unintended cuts and/or damage to 
existing utility facilities that can prove to be inconvenient and 
possibly dangerous to the local community as well as adding significant 
cost to a broadband build out. There are numerous instances of 
Tribally-owned and operated telecommunications companies using a major 
portion of their broadband project funding to repair damaged 
infrastructure. For example, MATI recently incurred over $350,000 of 
additional construction costs resulting from hitting unmarked water and 
sewer lines during its current fiber-to-the-home build. In the case of 
Tribally-owned companies, this funding would be provided primarily 
through RUS loans. With aging infrastructure on Native lands, the scope 
of this problem is significant and unknown. A pilot program, with 
adequate funding, would allow all parties involved to develop best 
practices and methods to identify unmarked infrastructure to avoid 
damage and unneeded additional cost.
    We also recommend additional funding for the development of more 
robust middle mile infrastructure and capacity. Most Tribally-owned 
telecommunications companies serve rugged and remote areas. Issues 
related to distance and capacity make connecting to the ``outside 
world'' very costly. As Tribal companies build out broadband to their 
communities, they add more customers and therefore more traffic on 
their network. Customer usage has also driven the need for more 
capacity (Netflix, YouTube, etc.). An injection of funds to build more 
middle mile capacity for Tribal use would greatly benefit those 
communities.
    Also, there needs to be a reallocation of spectrum for Tribal use. 
The current process of spectrum allocation makes it very difficult for 
smaller entities to access spectrum. This includes Tribal communities 
which need both wired and wireless services to prosper. One way to 
address the scale of size issue is to establish a Tribal Spectrum 
Network to increase the capacity ``buying power'' of Tribal entities.
    There are many other issues that can be addressed to enhance 
broadband deployment in Tribal areas: expansion and increased funding 
for USDA's Community Connect Grant program, the reduction of regulatory 
compliance reporting for small companies, an enhanced Tribal Lifeline 
credit, and a better Tribal engagement and consultation processes.
    Mr. Chairman, much more work needs to be done on infrastructure 
growth in Tribal areas, most importantly in the area of broadband 
deployment.

    Senator Udall. My question to Mr. Berry and Mr. Gillen, 
there is much talk about the great future and capabilities of 
5G, 5G wireless services and the need for more infrastructure 
to build out that network. The FCC is currently examining 
sweeping changes to Section 106 requirements that have been a 
good example of government-to-government engagement between 
tribal entities and the Federal Government.
    How do your member companies view this Section 106 historic 
preservation mandates and tribal consultation requirements in 
light of the FCC's draft report and order?
    Do you believe these mandates should be weakened and are 
your members seeking to eliminate fees that cities and states 
charge as well?
    Mr. Berry and Mr. Gillen.
    Mr. Berry. Thank you, Senator. Thank you for the concern 
you expressed on the local tribal issues, as well as the 
cultural heritage issues.
    I would ask sort of a success story to be entered into the 
record. One of our carriers, Commnet Cellular, actually worked 
with the Pueblo tribes there in New Mexico to actually provide 
a tower that is commensurate with their historical and cultural 
acquisitions and worked very closely with them to bring them 
their number one priority, which was service that was 
culturally acceptable in its application.
    So we very--most of our carriers are smaller carriers. They 
live in the community. If they don't like something, you may 
hear it at church and you may hear it at the PTA. So we are 
very concerned about that in the local context.
    But, we do believe that we need a modifications of Section 
106 and National Historic Presentation Act, as well as NEPA. As 
well as some of those tribal review requirements should be 
focused more on actual addressing historical, cultural 
antiquities and preservation.
    It doesn't make any sense, Brad just mentioned, sometimes 
you file an application and 2 years later you get approval. The 
technology has moved so quickly that the antenna that you were 
going to put up there is now no longer the antenna that works 
in your network and so you have to refile.
    So I think there are rationale, reasonable and logical 
progression of how we can not only address those issues, but 
also speed them up and bring that service to rural America and 
we are totally in favor of that. And I'll share with you the 
story that I think was a model of how we should address the 
tribal issues.
    Senator Udall. Thank you.
    Mr. Gillen.
    Mr. Gillen. Thank you, Senator. And we can and need to do 
better in serving your residents in New Mexico. With respect to 
the tribal question you raised, I think it's important from the 
FCC's perspective what they are doing next week. It does not 
actually govern actual tribal areas or reservation, it goes to 
the consultation process of areas of significance.
    And the challenge we face right now is there is an example, 
a carrier wanted to site in Houston before the Super Bowl last 
year 23 small cells in an existing parking lot. That process 
cost $173,000 to site something on a parking lot.
    And so I think what the FCC is trying to do is find the 
right balance to retain the important tribal rights, but also 
ensure we are deploying in a timely manner. We think the FCC 
has struck the right balance, but happy to work with you on 
that issue.
    Senator Udall. Mr. Chairman, I think my time is up, but the 
Mayor I think wanted to comment on this.
    Mr. Resnick. Just briefly. I just wanted to bring to the 
attention of the Senator and the Committee that the issues with 
respect to deployment are not only in rural areas. I happened 
to be at a public hearing in Leon County, Florida, which is 
where Tallahassee is located. I know the representative is here 
from Tallahassee.
    And that when asked by a county commissioner whether a 
company would install 5G technology in inner city Tallahassee 
where residents do not have affordable broadband, do not have 
reliable service, frankly, the industry in a candid moment 
said, no, that there's not an economic case for that. We have 
absolutely no intention of deploying 5G technology in inner 
city Tallahassee and there's nothing in Florida law that allows 
the city to require a buildout.
    So it's not just the rural and tribal areas that are going 
to suffer from a lack of this technology, it's the inner city 
areas as well.
    Senator Udall. Thank you.
    Senator Wicker. Thank you, Mr. Mayor.
    Senator Udall. And thank you for your courtesies.
    Senator Wicker. Thank you, Senator Udall.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    In Nebraska one-in-four jobs is agriculture related. I 
recently held an Internet of Things, an agriculture roundtable, 
to explore the needs of rancher and farmers leveraging new 
technologies that increase efficiencies and enhance crop 
yields.
    As we discussed precision agriculture technologies are 
estimated to improve American farmer's crop yields by an 
average of $40 per acre.
    Mr. Gillen, in your view, how will 5G networks impact 
precision agriculture to increase productivity and better 
manage risk?
    Mr. Gillen. Thank you, Senator. And thank you for your 
leadership on this issue. Absolutely, we are very excited what 
precision agriculture can do.
    We tend to think about 4G made each of our lives easier, 
made it simpler, made it more convenient. And 5G will do that 
for industries and agriculture is certainly one of them. You 
see the forty dollar example you gave. There's also examples of 
reducing water usage by 50 percent thanks to sensors and better 
utilization of data to keep farmers on farmland.
    So we are very excited about what precision agriculture can 
do and we have the challenge of deploying the networks to help 
Nebraska be better farmers.
    Senator Fischer. How do you think farmers can better manage 
their risk through IoT?
    Mr. Gillen. I think you know better than I, but I think 
data is key here, just like it is when we talk about maps that 
the more data we can give farmers about their crops, about 
their land and their yield, they, they know-how to do their 
job. So the more information we can give them the better they 
will be.
    Senator Fischer. Great.
    Mr. Romano, do you feel different metrics or approaches 
would be needed to properly address network coverage on our 
Nation's ranch lands and the crop lands as well?
    Mr. Romano. Thank you, Senator. I do. I think there's a--
there are two fundamental issues today with the mapping 
structures that are in place. Now, the FCC's Form 477 data 
right now is the best available source we've got. But there are 
two primary I think issues with it. The first is that it is not 
granular enough. If there is one location served within a 
census block the entire location is deemed served. And as we 
know in rural areas, those can be pretty big census blocks, 
particularly when you have got agricultural communities at 
issue.
    The second issue is the fact that those are self-reported. 
There's no verification process behind it. They are certified. 
Providers have to certify that they are doing it, but there's 
no verification of that. And as we seen in the mobility fund 
context, as Mr. Berry described, as we have seen even in the 
ACAM process or other processes, statements of overcoverage 
lead to false positives of customers being served. And that 
means, for example, that agricultural community does not have 
the service throughout that is, in fact, claimed to be. It 
might only be in the town and not to the surrounding areas.
    Senator Fischer. How can we get better mapping? How can we 
find those dead spots that are out there? Because in my area 
they certainly exist.
    Mr. Romano. So there are two things there. With respect 
first to how do we get better data set beyond the 477? The FCC 
has sought comment on that. One thing that we have suggested, 
and Mr. DeBroux mentioned this a moment ago, is this notion of 
geocoding.
    So we initially had actual questions about the process of 
geocoding, but what we found is that on a going-forward basis 
with respect to figuring out where customers were actually 
served it's not an unmanageable process as long as it's done 
again going forward. And it could help to provide a transition 
to actually figuring out at each and every location does this 
customer have what the provider says they have there.
    Senator Fischer. And, Mr. Romano, in your testimony you 
referenced important distinctions in the FCC's USF and USDA--
sorry, RUS programs in terms of persistent rural broadband 
challenges. You also stated that it is essential that these 
longstanding complimentary relationship between RUS and the USF 
initiatives continue.
    How do you envision improved coordination going forward 
between the two Federal agencies? So that we can avoid possible 
believe overbuilding. So we can look for more enhanced 
accountability and still maintain the integrity of these 
programs.
    Mr. Romano. Thank you, Senator. RUS and the FCC have worked 
very well together in the past, I believe. There have been 
times where communication might have been improved as some of 
the reforms were going through and one agency was moving 
quicker than another or in different directions, but by and 
large I think the communication has been highly effective and 
relatively consistent.
    The question now as we talk about branching into new 
programs, potential infrastructure initiatives, farm bill 
coming up, what have you, this is an opportunity to make sure 
we have got the right guardrails in place. What we don't want 
to have happen is have two programs funding two different 
providers to operate broadband networks to the same location.
    We are going to be pitting programs against each other and 
you are making use of resources that then could have gone to 
other unserved areas or to help with the affordability of 
networks. So having guardrails in place for affordability of 
services. Having guardrails in place to make sure that a 
program recognizes, for example, well, there's a FCC CAF II 
build going on over here or an ACAM build going on over here is 
going to be important and make sure those two programs work in 
concert.
    Senator Fischer. And how are we going to make sure that 
this is extended to the State levels so that those dollars can 
be maximized? Do you have any thoughts on that?
    Mr. Romano. So, yes, Senator. We have been looking at the 
prospect of potential State block grants. And this, to us, is 
one of the most important questions to think about in the State 
process is the states are going to be racing to get money out 
the door as fast as they can and standing up a new program. We 
are going to have to make sure that the same sorts of 
guardrails are in place.
    So, for example, New York had to do this in their program. 
They made sure that they coordinated their program with the CAF 
II initiatives to avoid that very prospect of overbuilding. And 
I think the same care needs to be taken if we go to the State 
route.
    Senator Fischer. Thank you.
    Thank you, Mr. Chair.
    Senator Wicker. Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you very much and thank you to all of 
our witnesses for being here this morning. Look, since joining 
the Senate connecting Americans to robust broadband service has 
remained a central focus of mine. I thank both Mr. Gillen and 
Mr. Berry for mentioning a couple of the efforts I have been 
involved in.
    For starters, I work closely with Senator Gardner to 
introduce the AIRWAVES Act which would free up more spectrum 
resources to power our Nation into 5G. And the bill would also 
set aside a portion of auction proceeds to invest in rural 
broadband initiatives. Additionally, I worked with Senator 
Capito to introduce, and here's a name that just rolls right 
off the tongue, the Rural, Reasonable and Comparable Wireless 
Act of 2018, which would help close the digital divide and 
expand access to broadband in rural parts of the country.
    So I would just like to give you both, Mr. Gillen and Mr. 
Berry, an opportunity to talk to us about how these bills would 
assist us in reaching our connectivity goals and spurn growth 
in our economy.
    Why don't we start first with Mr. Gillen and then Mr. 
Berry.
    Mr. Gillen. Thank you, Senator.
    Absolutely, airwaves and spectrum policy are key to solving 
this puzzle. When you look at the low band spectrum we sold 
last year, that's enabling carriers now to reach rural America, 
including some building out to Montana right now because that 
spectrum goes a great deal of distance. So that spectrum is 
definitely a key part of this puzzle.
    And as you alluded to, one of the unique things in airwaves 
is the idea of the rural dividend and that money raised through 
the auction would go back into rural deployment. And that does 
get to Senator Schatz point earlier where is this money coming 
from and this is the wireless industry supporting the wireless 
industry bill where you guys want us to build. So I think it's 
a rather unique way of doing this and you are able to do both 
spectrum and siting policy in the same item.
    Senator Hassan. Great. Thank you.
    Mr. Berry.
    Mr. Berry. Thank you not only for your interest in those 
two bills, but generally in support of broadband deployment.
    We totally agree the AIRWAVES Act gives a road map on the 
type of spectrum you can reasonably expect to be coming up and 
it will give carriers an opportunity to say this is where I'm 
going to go in my deployment scenarios. We would love to see, 
you know, band 24 and I think 47 included in that, because I 
think those two, you know, usable high speed mobile broadband 
bands.
    So I--we appreciate that and we also appreciate the ten 
percent set aside that you included in the bill. I think it 
will focus a lot of attention on how do we get that new service 
out there sooner rather than later. So thank you for your help.
    I think if the FCC had read your bill on comparable, 
reasonably comparable wireless services, we might have had a 
little more due thought to designing the perimeters around the 
data requests that they made. Thank you.
    Senator Hassan. Well, I appreciate that. And I was just 
going to add my voice to the chorus to speak about how 
inaccurate the data and the maps are. At the end of last year, 
as I think you all know, I held a field hearing to examine the 
state of broadband in the Granite State and mapping came up 
frequently throughout the conversation. It continues to be a 
serious challenge that throws off our efforts at ensuring 
adequate coverage, particularly in rural areas.
    Last week I joined a bipartisan group of Senators in a 
letter to the FCC regarding their recently released map which 
shows that most of New Hampshire is covered and, therefore, 
ineligible for further support through the universal service 
program mobility fund.
    I will tell you, you can drive from Concord, New Hampshire, 
our State capital, to our biggest city in the southwest corner 
of the state, Keene, along Routes 202 and 9 and you cannot get 
cell phone coverage for most of that trip. I, as Governor, I 
had to try to respond to public safety emergencies while 
traveling that route and if it hadn't been for a State Police 
radio in the car it would have been extraordinarily difficult.
    So your own members, Mr. Berry, testified at our field 
hearing about their own lack of mobile service between 
Manchester and Keene. So how can we work to address these 
issues so that small carriers are not overburdened and states 
like New Hampshire are not left to bear the brunt of the 
digital divide?
    Mr. Berry. Thank you for the question. You know, I think 
we--years ago my grandfather owned an old two ton truck and 
every time you wanted to take out a groundhog, meaning go a 
little faster, you had to change the gears, but you had to 
double-clutch it.
    Senator Hassan. Yes.
    Mr. Berry. And I think we need to double-clutch this data 
access requirement. We need to get the right data to put this 
thing in a higher gear because our carriers want to build out. 
And so I think we double-clutch that by getting all sources of 
Federal data and information included in it.
    David Redl, as I mentioned to the Chairman Wicker, 
suggested that NTI has a lot of data. They have good 
relationships with states and counties, municipalities and they 
already have some of that information that has not been tapped, 
not been utilized. I think we can do a better job of that and 
hopefully we can come up with a better map of where there is 
and is not.
    One thing that I would mention on the data that Mr. Romano 
mentioned is it's a little easier to identify where you have a 
fiber or a wire. Wireless is a lot different in their measuring 
devices and their measuring scenarios are different.
    I do want to thank the FCC for changing the wireless 
measuring devices away from the centroid. So they finally 
recognized that measuring the centroid, you know, whether it's 
a part of the center. So, you know, we are working on it. We 
are trying to do better, but we could, I think we could use 
some help from some of the other agencies.
    Senator Hassan. Well, thank you. I know that I'm over time, 
Mr. Chair. So thank you and I look forward to hearing the rest 
of the hearing.
    Senator Moran. Thank you, Senator Hassan. I now recognize 
myself.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Let me direct this to Mr. Romano. The FCC is 
in its finishing stages it seems of the high-cost program and 
as you have testified, as we know there has been insufficient 
funding that's resulted in cuts, uncertainty for small and 
local broadband providers. We know it's clearly true in rural 
Kansas.
    So this lack of sustainability puts the investments that 
have been made at risk, their future, and it creates an 
unwillingness or could create an unwillingness for additional 
investment in the arena.
    This may be, you may have answered this question when in 
response to Senator Schatz, but what is the long-term solution 
for making certain that the investments made have a return and 
that there is enough certainty that we will make future 
investments?
    Mr. Romano. Thank you, Senator. So there are two parts to 
this. There is the answer I gave to Senator Schatz, which 
relates to the sustainability of the funding mechanism itself.
    I think your question goes to a certainly related issue, 
which is the sustainability of the networks that the providers 
are able to invest in, their reliance upon the program 
ultimately to make their investments. We are making investments 
here that they are talking about measuring in decades. These 
are assets that are going to be long-term infrastructure assets 
over which there is going to be cost recovery over the course 
of decades.
    The FCC had tried to reposition those for broadband in 
2016, the mechanisms to support those. It rebuilt the engine, 
but it didn't put enough gas in the engine and that has been 
the fundamental problem. We have seen in Kansas that the 
impacts have been worse than average and unfortunately in terms 
of what it means both for recovery of existing investments and 
in the ability to plan for future investments.
    We are deeply gratified that the FCC seems inclined to take 
steps perhaps to mitigate some of the budget shortfalls that 
have hit carriers hardest in Kansas and a number of other rural 
states. We are hopeful those actions will come through.
    But we are still going to be in a case, to your point about 
sustainability, come July 1 the budget control hits again. And 
so we are going to be right back in the same thing with 
providers looking at it saying, can I make investments for the 
next year? Should I hold off because I don't know what the 
budget controls are going to be? It's an ever escalating set of 
cuts so far.
    So we are hoping the FCC will act, stabilize the ground, 
and give us an opportunity for a conversation as soon as 
possible about what long-term sustainability really means in 
these programs.
    Senator Moran. Do you have any basis for that hope?
    Mr. Berry. The FCC has been talking about an Order that 
would address some of these issues in the near term and 
immediately address, mitigate some of the budget shortfalls 
that have occurred for this 12 month period. And we understand 
that they are going to be asking questions about what should 
the budget be going forward.
    Our hope is that that will meet the standards of the Act 
which look for reasonably comparable services or reasonably 
comparable rates and the standards for predictability and 
sufficiency.
    Senator Moran. Thank you, Mr. Romano.
    Mr. Berry, I want to talk about spectrum incentive auction. 
Your testimony indicates that CCA supports completing the 39 
month broadcaster repack in a timely fashion with adequate 
resources provided to broadcasters to expedite the transition 
and prevent delays to the winning bidders.
    I'm an advocate for that repack and for adequate funding. 
CCA members made up most of the winning bids for this 
particular spectrum. Can you confirm and explain how funding 
certainty for relocated broadcasters translates into 
competitive wireless carriers expeditiously deploying 
broadband?
    Mr. Berry. Thank you, Senator. Thank you for the question. 
Thank you for sponsoring the Viewer Protection Act also.
    Six hundred megahertz was the largest--second largest 
auction that actually ever occurred in the United States and it 
is critical for our members to get 600 megahertz deployed in 
their networks. Its great propagation characteristics, networks 
in rural America. That's why 600 megahertz LTE is going to be, 
you know, a great opportunity to get high speed mobile 
broadband. We need to repack with a--we think the 39 month 
timeframe that Congress set is the right timeframe. We were 
very supportive of the broadcasters' efforts to not only 
repack, but do it in a timely fashion and a safe fashion.
    So I think additional funds that, my understanding, is they 
have identified the cost of additional funding need and I think 
it's reasonable to respond to that. We made, U.S. Treasury made 
probably 13, 14 billion dollars net on that. Almost seven 
billion dollars went into the first responder program, as you 
will remember, out of that auction. So I think that's fair and 
reasonable. Let's get that spectrum out there as soon as 
possible. Let's build those networks.
    Senator Moran. Thank you very much. I won't ask a question, 
but I'll make a comment that there has been a theme about the 
map or mapping or data accuracy. Senator Wicker led a letter, 
which a number of us joined and if we can send a message 
through this hearing to the FCC in regard to the accuracy of 
the map we are particularly now talking about the Mobility Fund 
Phase II map, and I heard what Mr. DeBroux said about there is 
a standard there, a place to start we can work from, but let 
me, in particular, complain about the appeals process or trying 
to get the map changed. It puts a burden on people.
    You start from, first of all, I think you start from a map 
that is improperly determined, the accuracy or the value of the 
map is nearly nil, in my view, but even if you start with the 
baseline, the ability to modify the map, the actions that are 
going to be necessary for a carrier or a community to get it 
changed, I don't think it's going to be something that's going 
to be easily done.
    And so my hope is we start with a different map as compared 
to trying to correct this one through an appeals process that I 
don't think will work and will leave behind the folks that we 
are desperately trying to provide service to.
    Mr. Chairman, thank you.
    Senator Wicker. We might as well say it, Senator Moran, 
that the map is utterly worthless in terms of giving us good 
information.
    Senator Tester.
    Senator Moran. You one-upped me, Mr. Chairman.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    And kudos to you, Mr. Berry, for the double-clutching 
getting out of groundhog. We used to call it granny, but you 
are probably more politically correct.
    My first question is to Mr. Gillen, and that is it has been 
referred to before that we need to win the race to 5G. What 
constitutes a win? Is that people covered? Businesses covered? 
Geographic area covered? What constitutes a win to 5G?
    Mr. Gillen. For us it is that next generation of innovation 
and opportunity happened here first. So it is a matter of 
having enough scale that we have enough entrepreneurs and 
innovators to build off of that platform. And so absolutely it 
starts with a number of people covered in a timely manner.
    Senator Tester. OK. So that and, by the way, that's the 
definition of expect. The number of people covered in one block 
of New York City is far more than the county I live in and my 
county is bigger than most of the states. Not most of, but a 
fair number of states at the table.
    So the question is, is it--how do we get--how do we get 5G 
into rural America? How do we get it there? The Senator from 
Nebraska talked about, you know, precision farming, but it's 
more than that. So how do we get it there?
    Let me put it this way. I'll be more specific. Will you 
commit to a pilot program for Montana on 5G?
    Mr. Gillen. I'm happy to work with your office and put 
something that looks like. I think for us 5G starts with the 
densest area. So it is places like Missoula, it is town 
squares, and then it goes go from there.
    Just like 4G, and we continue to work on getting 4G more 
and more in Montana. The job is not done by far.
    Senator Tester. OK. So, and I'm not picking on Verizon, but 
I happen to have one of your phones in my pocket. OK. Have you 
seen the map on the advertisement that Verizon puts up? And, by 
the way, I think all of them are this way. I'm picking on you 
because I've got this.
    Have you seen that advertisement?
    Mr. Gillen. Yes, sir.
    Senator Tester. Do you agree with that map?
    Mr. Gillen. I've only had the chance to be in Missoula, 
which had great coverage, but I have not been in the rest of 
your state.
    Senator Tester. Well, let me tell you something, Missoula 
and Big Sandy is a hell of a lot different. I'll just say that. 
It's 75 mile drive for me to Great Falls from my farm and I bet 
I don't have coverage 25 miles of that and yet that map is all 
red.
    Do you want to talk about that?
    Mr. Resnick. Just, yes, sir. And I do appreciate the 
question and this is something that National League of Cities 
and governments across the country are facing is that there's a 
real misunderstanding as to 5G, especially when they ask states 
to preempt local governments with respect to deployment.
    So the industry comes in and says we will have 5G in your 
communities and throughout the state and it's the next 
generation broadband and we absolutely need it. Really, what 
they are doing is densification of 4G networks in very dense 
city areas for the most part.
    Just to give you an example. The State of Nebraska is 
currently debating a preemption small cell deployment bill, the 
same as Florida passed last year, and the cities, lead by the 
City of Lincoln, talked about lowering their rates for 
attachment to city owned polls, to city and county owned polls. 
They were willing to reduce the rate from the market rate of 
about $2,000 per poll to $95 per poll if the industry would 
agree to build out the entire state over reasonable period of 
time with 5G service.
    Senator Tester. Yes, but that isn't the problem. The 
problem is you look at the bars on this phone, when I go home, 
there are none.
    Mr. Resnick. Right.
    Senator Tester. There are no bars on this phone. So we are 
not even close to talking about 4G or 3G or any G where I live. 
We are not even close. I might be able to get a text message, 
but unless I'm standing in the right corner of my house with my 
mouth held in the right direction this phone does not work. OK. 
And it's that way--I live in one of the more populated areas of 
the state.
    Go ahead.
    Mr. Berry. Well, Senator, get back to the eligibility map 
which, and you raise a really important point, it says it's 
covered.
    Senator Tester. Yes.
    Mr. Berry. And it says a lot of places are covered.
    Senator Tester. Yes.
    Mr. Berry. What the FCC did was decide----
    Senator Tester. So how do we fix that? The FCC is wrong, 
they screwed up. We are getting screwed because they screwed 
up. So how do we fix it?
    Mr. Berry. Well, you've got to get better data. What they 
decided was to collect data that was not what I would call----
    Senator Tester. Who did they collect it from? Who did they 
collect it from? Who did they collect it from?
    Mr. Berry. They requested perimeters for the data and 
information from all the carriers and the carriers gave the FCC 
exactly what they requested. We suggested that that was the 
wrong conclusion.
    What they chose was the recommendation from the two largest 
carriers on how to measure coverage, and I'll tell you that in 
the last 8 years, the FCC is time and time again under very--
several administrations said we had 98 percent coverage 
throughout the entire United States.
    Senator Tester. You made the statement in your opening 
statement, garbage in, garbage out. There has got to be a way 
to get the FCC's attention on this, Mr. Chairman, on this 
issue. It has come up in almost every one of these questions.
    We are not going to solve the problem of wireless, 
broadband, anything in rural America if we don't have good 
information. And I would just say I've got 400 questions to ask 
you guys. I'm not going to be able to do it. So put them in 
writing and you'll have a lot of work to do, but the bottom 
line is if we don't get this right----
    Senator Wicker. Actually, you are limited to 300 questions.
    Senator Tester. 300, OK. I'll par back to 299, with due 
respect, but the truth is I know there is plenty of folks out 
there that say things like, why do these guys even live in 
rural America, they knew they didn't have the coverage when 
they moved there.
    I have got to tell you, I looked at my grandfather's diary 
from 1915 and, you're right, he said, ``you know, damn it, 
there is no cell coverage out here.''
    We have to do better, folks. It's not working. Thank you.
    Senator Wicker. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much. I think 
Tester said it all down there.
    But I want to start out, I noticed, Mayor, that you 
mentioned the Dig Once bill that I've been leading for quite a 
while and we are hoping we can finally get it done. It was 
included in the MOBILE NOW Act and recently passed the House as 
part of the FCC reauthorization bill.
    As you know, this allows for better coordination between 
state departments of transportation and broadband providers 
during construction. You want to, I know you, I think, have a 
comment on this, but maybe, Mr. Berry, do you want to add 
anything? If you want to add anything, Mayor, that would be 
great.
    Mr. Resnick. No, I appreciate it, Senator. You know it's 
nice when occasionally common sense makes its way into law.
    Senator Klobuchar. Really?
    Mr. Resnick. And it doesn't happen that often. So we do 
appreciate it.
    My city, for example, well this is around the country, 
received Federal funds through our MPO to do about ten million 
dollars in road improvements and I wanted to put in conduits. 
It's very simple. It makes sense. We are digging up the roads. 
It's no real extra expense. And we were frankly told, because 
these were transportation and Federal dollars that we were not 
allowed to put in conduits.
    So we appreciate the Dig Once bill and the new legislation 
and I think that's going to go a long way around the country to 
speed up deployment of broadband.
    Senator Klobuchar. Thank you.
    Mr. Berry. Same here. Not only thank you for that, but also 
signing the letter to the FCC on the eligibility map. We 
greatly appreciate that.
    All of our, and believe it or not, it does have a real 
impact in rural America also. When you are building that road 
if you can dig once it makes a huge difference. And what we are 
talking about is how do you get that initial Cap X investment 
down so that you can use that money to build out.
    I was just in Shenandoah Valley last week with Commissioner 
Carr and Shentel, which is a small carrier--larger carrier for 
our purposes--saying if they can decrease their cost of 
deployment to comply with Federal rules and regulations they 
can put 13 more towers just on that one area. So that's 
significant broadband buildout.
    Thank you.
    Senator Klobuchar. Different subject.
    Mr. Romano, we just got the Rural Call Quality and 
Reliability Act passed, something I worked on with Chairman 
Thune as well as Senator Tester. This is all these dropped 
calls that have been going on in rural areas and the President 
just signed it into law and it's going to establish some basic 
quality standards and a registry at the FCC.
    Can you talk about how that will be helpful?
    Mr. Romano. Yes. Thank you, Senator. Thanks to all of you 
who supported that bill. Thank you for introducing it.
    To echo the Mayor's comments, another case of common sense 
making it into law. We should have reasonable expectation that 
our calls are going to go through and that was an epidemic we 
were seeing in rural America. Calls were not reaching rural 
America and they still aren't today.
    There have been efforts to try to improve the situation. 
And it's a bit like wild fire, you put it out and then all of a 
sudden it pops back up in a different space. So what this bill 
will do and it's critical, it brings transparency to this 
marketplace. It helps the FCC, it helps states, it helps the 
industry to understand who is involved in taking these calls, 
finds out--makes them register and finds out are they doing the 
basic job of completing those calls.
    We ask basic business registration for conducting business 
in jurisdictions. This bill simply does a similar thing in 
terms of calling those people out and making sure that we can 
find them if we need to to ask the questions and get the calls 
completed. So thank you.
    Senator Klobuchar. OK. Thank you.
    Mr. Gillen, in the run up to Super Bowl LII, I like to 
mention that we had Super Bowl LII whenever I can, hundreds of 
small cells were installed to accommodate the increase in 
demand before, during and after the game. The deployment effort 
will lay the groundwork for 5G communications capabilities in 
the Twin Cities. How do small cells help address surges in data 
usage?
    Mr. Gillen. Thank you, Senator. We should all visit 
Minneapolis because it has the best wireless network in the 
country now as a result of the Super Bowl.
    Senator Klobuchar. Thank you.
    Mr. Gillen. And that really is the result of what Minnesota 
state and Minneapolis as a city to create a rate structure and 
the timelines to allow those small cells to be invested. So you 
have 5,000 more bio tons capacity in Minneapolis today than you 
did this time last year and you saw 71 times more traffic 
during that Super Bowl than you did just last year's Super 
Bowl.
    And so in terms of where Minneapolis is with that small 
cell infrastructure, they are ready for 5G in a way that other 
cities aren't today.
    Senator Klobuchar. And how could that be helpful at all in 
rural areas? I can tell you we don't have that coverage in the 
rural parts.
    Mr. Gillen. Yes. Absolutely, Senator. I think it goes to 
part of it is starting in the rural town centers, college 
campuses and areas that are denser.
    When we are talking about truly unserved areas, we need to 
talk about how the mobility fund and other programs work. And 
the challenge, as we all said, is getting the data right in 
order to make sure we are funding the right places. But truly 
unserved areas we are going to need your help.
    In areas more dense where there's coverage today, 5G will 
absolutely serve rural America as well.
    Senator Klobuchar. All right. Thank you very much.
    Senator Wicker. Now that item sitting on your witness table 
there.
    Mr. Gillen. Yes, sir.
    Senator Wicker. That alone won't solve the question that 
Senator Klobuchar asked about rural coverage?
    Mr. Gillen. This will be rural coverage in a town square. 
There is other more tradition technology that will be used for 
truly coverage areas and more rural communities.
    Senator Wicker. OK. Why is that going to work in a town 
square and not five miles out of town?
    Mr. Gillen. Well, this is only supposed to go about meters 
in terms of how far the actual signal will go. And when we are 
talking about in terms of serving rural Mississippi we need to 
go miles.
    Senator Wicker. OK. Well, darn.
    Mr. Gillen. The technology is getting better every year.
    Senator Wicker. Mr. Romano.
    Mr. Romano. Thank you, Senator. That's one point that I 
think is important to make is there are many tools in the tool 
kit to solve rural broadband challenges. Small cells may offer 
help in small towns. You know, our average density of our 
membership's customer base is about seven people per square 
mile. So we talking about 40 percent, 35 to 40 percent of the 
U.S. land mass. It's going to be difficult to get those small 
cells out there. We hope that they will, but it's going to 
require ultimately as well a densified--the term densification 
has been used a great deal today.
    Densified fiber network to feed those small cells. So at 
the end of the day in rural America, you are almost talking 
about a fiber to the home network because those cells will need 
to be several hundred feet apart in order to achieve the 
promise of 5G in rural areas. It's going to take an integrated 
solution of wired and wireless networks to achieve the 
universal broadband that we are talking about.
    Senator Wicker. Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman. Thank all of you.
    I think we worked with just about everybody on the panel, 
again, for echoing what many of my colleagues have said, but I 
have now figured out how to get rural broadband to West 
Virginia, host the Super Bowl. It's that easy.
    But I was recalling the conversations, I was listening to 
your testimony several years ago that I had with our major 
provider and I said, what is it going to take, what is it going 
to take, insisting like Senator Tester was. Two things, time 
and money. Well, you know, I get tired of hearing the same 
thing, time and money. That's what you all are telling us, time 
and money. So we try to focus the money.
    We have a rural broadband caucus that Senator Klobuchar is 
on. It's bipartisan. We have the desire, but you know I hear 
about 5G development and I know 5G obviously the President's 
decision this morning to disallow a merger because of security 
reasons around 5G tells me how important that is on one, and, 
Mr. Gillen, you have spoken to that.
    But it also tells me when you keep talking about density in 
town squares and college campuses, we are still not--they are 
going to have 5G, but we are still not going to even have the 
ability to do a lot of what we want to do. So I'm as 
frustrated, as I'm sure you all are, and everybody else is to 
try to get to that last, that last mile.
    So let's talk a little bit about the census track. We 
talked a lot about that. We have that same issue. We actually 
have a broadband council in our state that has asked people to 
do a self-test to see how fast. El flunko. I mean the results 
are terrible.
    So we know the data is not reflective of, and better yet, 
what they are paying their bill, the service to receive is not 
matching with what their data test is. But so what would it 
take? Now it's like if one person is served in the census 
track, the whole census track. So what would be a better 
metric, 50 percent, 51 percent?
    Mr. Romano.
    Mr. Romano. I would submit actually that this geocoding 
opportunity or geocoding method is a good opportunity. The FCC, 
as Mr. DeBroux mentioned, is requiring those carriers that 
receive universal service support to geocode. Get the latitude 
and longitude of every location to which they are installing 
fixed broadband.
    And Mr. Berry mentioned about mobile. It's a slightly 
different case. But fixed broadband you are then required to 
show you actually have the service that you are saying you are 
delivering to each of those locations. If we can get to that 
level and it's going to take time because there's a transition. 
Trying to go back and geocode every location where anybody ever 
installs is a huge burden.
    Senator Capito. So would you consider that a third-party 
verification?
    Mr. Romano. It's not. So this is--each carrier is going out 
and geocoding when they do a new installation to a new rooftop, 
to a premise, they are geocoding that they installed service 
there and reflecting what they installed. So it is still 
carrier reported.
    The verification process I think ultimately when you are 
talking about universal service dollars or other infrastructure 
funds, for example, you are going to need to to set up a more 
robust challenge process, which is the issue we are now seeing 
with the mobility fund and we have had with other funds before. 
Making sure that you are not having to prove a negative. There 
isn't service there, but rather the provider who says there is 
service there comes forward to validate, yes, there is service 
there such that you should not then put Federal dollars toward 
a program to invest there.
    Senator Capito. So the other thing is money. We talked a 
lot about the Universal Service Fund and the Connect America 
Fund and where those dollars are going. We had the stimulus 
package, the West Virginia stimulus package was a 126.3 million 
dollars, and guess what, a lot of it was wasted. It was a 
wasted opportunity for our state and sort of embarrassing too 
in some ways when some of the stories came out.
    So I put together an Act called the GO Act, a Gigabyte 
Opportunity Act, which is trying to use the tax code to drive 
investment to these last areas. So the Governor could 
designate, much like he's going to be doing under these 
opportunity zones that we created in the tax reform bill, but 
the Governor designates these deserts of development.
    So you could, the Governor could designate an unserved area 
in the broadband area and you could create a fund that would 
draw investment through the tax code into those gigabyte 
opportunity zones. So I would ask you all to take a look at 
that if you haven't looked at that to try to drive more private 
investment into these areas before we give 5G to everybody else 
and we are still sitting there with very little and no service.
    My last question is, Mr. Gillen, you mentioned telehealth. 
That's really important to an elderly state. Chronic conditions 
can be monitored so well to people who lack transportation, 
mobility, you know, physical mobility themselves or any family 
members nearby to take them to their healthcare provider.
    How do you see that rolling out into the really remote 
areas?
    Mr. Gillen. And, thank you, Senator. It goes exactly to the 
challenge you just faced. Those that need the telehealth the 
most are the ones we still need to reach often.
    Senator Capito. Right.
    Mr. Gillen. And so, absolutely, what you talk about on a 
global scale it's a huge amount of savings and better outcomes 
for patients and the challenge is connectivity in places like 
West Virginia. But that we do see a great promise in the 
ability to really revolutionize healthcare and drive down costs 
by bringing healthcare closer to you and not having to have to 
drive to Wheeling, or anywhere else, to get care. It will be 
transformative when we get there.
    Senator Capito. I know the VA is moving in this direction 
too, which I would highly encourage and I think that would be 
good sort of test drive how, I mean I know it's being done 
everywhere because I've actually been to a couple 
demonstrations, but really important.
    And, last I'll say, Mr. Chairman, one of the biggest 
phenomenon with our elderly is loneliness and connectivity can 
help with that. You know, it's not waiting by the mailbox to 
get a letter. Just think if you could Facetime with your 
grandchildren or something like that to try to help with all of 
the other issues that go with your mental health as you age. I 
think it holds great promise.
    So thank you all very much.
    Senator Wicker. Thank you, Senator Capito.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And, Senator Capito, thank you for bringing it up, the 
statement about the elderly. I will tell you I think the person 
that is most skilled at Facebook is my 93 year old mother. She 
is amazing with it. And it is about being connected, it's 
transformative to her life and countless other seniors. So 
thank you for bringing that up.
    Each of the folks for your testimony, thank you today for 
that and certainly I think it is clear from the panel here we 
all agree that broadband Internet and high speed internet in 
rural areas is absolutely critical.
    In fact, I really equate it to our country's effort in the 
last century to make sure that everybody no matter who you are 
or where you lived you had access to electricity, that it was 
absolutely critical that we make sure that everybody had access 
to it. In today's age high speed internet is in that same 
category.
    Certainly that's why I'm disappointed that it seems as if 
President Trump doesn't necessarily share that in the fact that 
the infrastructure package that was put before us doesn't 
include any, none, zero, dedicated funding for rural broadband, 
which I think is a big mistake.
    My question for you though is that I've heard from many 
local business leaders in Michigan that have reached out to me 
about the rural utility service community connect to grant 
program which prioritizes grants to communities that have zero 
or very little access to broadband. Certainly an important 
goal, but they have identified a problem with that grant and I 
want to run that by you and get your thoughts on it.
    As it currently stands, if any one household within the 
applicant's defined geographic area has broadband service at or 
above 4/1 megabytes per second speeds, the entire community 
becomes ineligible to be considered for those funds. And while 
it's important for these grants certainly to target communities 
most in need, the 4/1 speed threshold has not been updated in 
years. It's substantially below FCC's definition of broadband 
coverage at 25/3.
    So what I'm considering now is some legislation that will 
modernize the grant program. The eligibility cutoff is intended 
to be the base minimum for broadband coverage and preserve the 
program's ability to prioritize the most underserved and 
unserved rural communities. However, it's my understanding that 
4/1 is simply no longer a bare minimum.
    Do you think that the 4/1 speed threshold currently used by 
the USDA should be updated? And that's to anyone. What do you 
think about that?
    Mr. DeBroux. Well, I'll start out. Thank you for your 
question.
    You know I do think we need to take the law seriously. And 
the words, reasonably comparable, there's a little bit of 
fuzziness on the edge, but there's no way 4/1 is reasonably 
comparable to what you can get in major metropolitan areas.
    The FCC tracks speeds and prices in major metropolitan 
areas and I think that there needs to be something in place 
that makes sure that the speeds in rural areas get ratcheted up 
as those go up in metropolitan areas. So there needs to be a 
connection in there.
    Senator Peters. Any others agree?
    Mr. Romano. Yes, Senator, thank you. We do agree. Our 
members have actually made effective use of the community 
connect grant program as it's constituted so far. But I think a 
refresh, an update would be helpful to make sure that we are 
continuing to raise the bar.
    Your question also goes again to this point do you 
disqualify an entire area, an entire community simply because 
one location may be lucky enough to be served? In fact, there 
are some cases, and this goes to the homework gap. You have a 
school that happens to have gotten a State regional network 
together, but the surrounding community doesn't have service. 
That would disqualify it, if I understand the parameters of 
community connect grant appropriately.
    So it's a good point and one well taken and we look forward 
to working with you on that.
    Senator Peters. Mr. Berry.
    Mr. Berry. Again, I go back to reasonably comparable 
service, but also data. I mean how can you set a standard? How 
do you know what it is unless you have qualified data?
    We may be to the point that a third-party verifier, 
collector and verifier of data may be. NTIA has put fifty 
million dollars in their budget for data collection and 
producing a new broadband map. Maybe the time has come so we 
have a third-party verifier that would actually collect the 
data and information, authenticate it and provide that 
information to every agency in the Federal Government saying 
this is where there is and is not broadband coverage.
    And you can put the speeds with it. And, you know, 4/1 in 
most urban/suburban areas would not be considered useable video 
streaming capability. So you have some definitional problems 
there. And I think the data is the key to whether or not you 
can make that happen.
    Senator Peters. So it's pretty clear that that is simply a 
worthless standard to have 4/1 right now as part of it. That we 
should be modernizing that. Any idea as to where we should set 
that threshold or any advice?
    Mr. Berry. Well, I would say--I wouldn't say it's a 
worthless standard when you have no connectivity at all.
    Senator Peters. Well, yes.
    Mr. Berry. It's a pretty important standard. So we are 
still going back to no connectivity versus, you know, 4/1. 4/1 
sounds pretty good.
    But it would be nice if you knew where those speeds were 
and where that connectivity level was and have that in a map 
that you could utilize for all different types of funding 
programs. Not only the RUS program, but the FCC program and the 
other two sources that you're going to make available, which is 
under the budget act, 20 billion dollars there.
    And then you've also identified additional funds that will 
be in the infrastructure bill. We don't know what they are 
right now, but wouldn't it be nice to have the ability to put 
all these programs together on a map that says here's how we 
can reach those most unserved areas in the United States.
    Senator Peters. Right. Thank you so much.
    Senator Wicker. Thank you, Senator Peters.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman, thanks for 
having this hearing.
    I want to talk a little bit about urban areas which, in my 
view, are as important as rural areas in lack of adequate 
service. Ellen Katz, who is the Consumer Council for the State 
of Connecticut, recently testified at the House Energy and 
Commerce hearing on closing the digital divide with regard to 
the gap in Hartford. She called it ``the homework gap.'' I 
think that's a common way of putting it.
    Her report observed that many students lack adequate 
broadband at home. They go to fast food restaurants or they sit 
outside in all kinds of weather trying to pick up Wi-Fi from 
another building in order to do their online school work. If 
this problem exists in Connecticut where fiber services are 
available in excess of 90 percent across the state they must be 
even a bigger problem in other urban areas around the country.
    So let me begin with Mr. Resnick. Would you agree that the 
digital divide certainly exists in urban as well as rural 
areas?
    Mr. Resnick. Yes, Senator. Thank you for the question.
    I actually included that in my testimony earlier today that 
we are seeing within the urban areas lack of broadband access 
by so many people simply because it's just not affordable. As I 
indicated, the library in my city, the libraries in our areas 
are packed after school with children just trying to get online 
to do homework. We actually, through the National League of 
Cities, had a conversation with FCC Commissioner Rosenworcel 
about this very issue and she's from Connecticut and she made 
very strong statements confirming that there are so many 
children that just do not have access to needed broadband 
simply to do their homework and they are being very creative.
    They are, as you indicated, going wherever they can find a 
good Wi-Fi hot spot, but that's certainly not the answer. And 
this is happening not just in inner cities, but in suburban 
areas, like my city, throughout the urban areas. So this is a 
significant problem to address as well.
    Senator Blumenthal. What's the best way of meeting that 
urban need?
    Mr. Resnick. Well, I think we need to focus on ways to 
possibly reduce the cost of broadband. Currently to get ten 
megz of broadband service costs many families over a hundred 
dollars a month. That's just not affordable.
    Communications costs for a family now easily are over four 
hundred dollars. My neighbor who is a retired, 88 year old 
gentleman, talk about connectivity for seniors, I mean of 
course he wants to have Facebook to stay in touch with his 
grandchildren across the country, to stay involved in the 
community. He spends over four hundred dollars a month for 
communication services and he's not getting anything special, 
he's getting basic service. So I think we have to address the 
affordability.
    Senator Blumenthal. The Connecticut office of state 
broadband, which is a division of the office of consumer 
council headed by Ellen Katz assessed this homework gap in 
Hartford and the report noted that a lot of Connecticut 
families are frustrated that a smart phone is regarded by 
policymakers and the public as a substitute for a home 
connection for broadband Internet access.
    Of course smart phones are typically expensive and 
difficult to use to complete written school work or write 
papers. I don't know how anyone could possibly use a smart 
phone to do a paper.
    Would you agree that a smart phone is no substitute for a 
home connection for broadband access?
    Mr. Resnick. Yes, sir. And we were actually disappointed 
that some members of the FCC wanted to include wireless 
broadband service as satisfying the requirements for meeting 
broadband deployment.
    As you indicated, children cannot do homework on a mobile 
device, especially on a smart phone. It's just impossible to do 
papers, to do significant research. It's really going to create 
more of a digital divide if some students will be relegated 
solely to that technology as opposed to have full broadband 
access to do the work that they absolutely need to do. It's 
just no substitute. So we do recognize that.
    Senator Blumenthal. It's a form of sort of second class 
citizen.
    Mr. Resnick. Exactly.
    Senator Blumenthal. In the broadband world.
    Mr. Resnick. Exactly.
    Senator Blumenthal. Thank you.
    Senator Wicker. Thank you, Senator Blumenthal.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Well, thank you, Mr. Chairman. I 
appreciate the panel's insights on a lot of the tough issues 
for us.
    You know, I'm going to go back to the rural focus which has 
been a lot of the discussion here in this hearing and, you 
know, sometimes we talk about rural and then we can talk about 
my state, which is I'm not sure how you would define it, but 
extreme rural.
    In terms of size we are about almost one-third the size of 
the continental United States and have 730,000 people and 
dozens and dozens of communities that are not connected by 
roads. If you can put yourself in the shoes of Alaskans right 
now, you know, hearing like this talks about 5G siting and 
cells and, you know, a lot of my communities don't have 2G yet. 
So excuse us if we are not kind of getting fired up about 5G 
when we are not far down the line at all on some of the 
previous technology.
    So I'll start with you, Mr. Romano, but really open it up 
to anybody. What would, what would be some of the most 
important ways in which to address this, just, I mean we are a 
big country obviously and Connecticut is a lot different than 
Alaska. But what would be ways to really address, kind of, the 
challenges that we have in the most extremely rural parts of 
America, whether it's Alaska or some of the other communities 
that you heard here?
    I always look at this some ways as kind of a balance 
between streamlining the permitting to actually get 
technologies out and not delay, delay, delay, which is an 
enormous problem with infrastructure in America whether it's 
telecommunications or roads. And, of course, funding.
    But, again, looking at some of the extreme rural 
communities like we have in Alaska, what would you say are the 
big issues and what are the problems? Is it NEPA? Is it the 
National Historic Preservation Act?
    I mean where do we need to focus to really get to, you 
know, deal with communities that have been left behind? 
Unfortunately, I have thousands if not tens of thousands of my 
constituents who, they never talk about 5G because they are 
still waiting for 2G.
    Mr. Romano. Thank you, Senator. Yes, we have 13 members 
that cover a significant footprint in your state.
    So we are very familiar with the challenges they face that 
your constituents face.
    Alaska has some very unique challenges, but generally 
speaking with respect to rural challenges we believe an 
infrastructure package could contain at least two maybe three 
key elements. First is funding, second is permitting and the 
third is tax incentives.
    There are going to be different tools in the tool kit 
depending on what the particular challenge is that's faced. I 
would suggest with respect to Alaska in particular funding is a 
big issue. There's just no way around it.
    The fact is that these remote villages are going to be very 
tough to connect and build and your build season is short, 
supplies are costly. All of those things drive higher cost in 
Alaska for sure. Never mind distance and density alone.
    So infrastructure funding and in that regard we believe 
looking and leveraging existing initiatives is going to be 
critical. Those places in Alaska where we have seen the best 
success have been those places where there has been predictable 
and sufficient universal service funding for those carriers 
that can invest there.
    The villages that are left behind are in many respects 
those areas where universal service has not worked as well, 
although the FCC has tried to recalibrate it to do so. The one 
last piece I'll just mention quickly is middle mile. This is a 
challenge that is often overlooked in universal service context 
because everybody always thought about local telephone service, 
that's where universal service started. But we need those 
connections to connect rural Alaska, rural Montana, rural New 
Hampshire, everywhere else to the rest of the world.
    And those are connections that are today not supported at 
all. Those are connections that are going to be critical, 
increasingly critical as you are sending mission critical data 
across those communications in terms of agricultural data, 
connectivity, streaming video, whatever it is, that's a big 
challenge in Alaska in particular of course.
    Senator Sullivan. So just on that your kind of three areas, 
would you kind of place one above the other or kind of all, all 
of the above; taxes, streamlining, the permitting process and 
funding? What would you say, is there a hierarchy there or just 
got to attack all three?
    Mr. Romano. There is a hierarchy. Financing, funding is 
first. Because if you don't have the business case to invest it 
doesn't matter that I can get permits more quickly, I can't 
build the network to begin with.
    So that's going to be first and foremost where it is 
needed. If the business case is not there you need funding to 
help make the business case. Then if the business case is 
there, whether it's through funding or through the ability to 
make it on its own in the marketplace you then move to 
permitting. The ability to hit the ground quickly, remove 
barriers, cost of deployment, and get those networks working 
for consumers.
    And then the third piece is tax incentives. To be candid, 
tax incentives are an interesting tool in the tool kit but in 
deeply rural areas you are not going to move the margins very 
much because they are areas where it's hard to make any money 
investing in the first place. If you are not going to make 
money you don't need a tax break on the money you are not going 
to make.
    Senator Sullivan. OK. Thank you very much.
    Senator Wicker. Thank you.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman. Mr. Gillen, and 
thanks to all of you for your time and testimony today.
    Mr. Gillen, you talked a lot about infrastructure for the 
future. Today's hearing spectrum is obviously a critical piece 
of this and that infrastructure for wireless, the juice that is 
going to keep innovation running; satellite, Wi-Fi and other 
technologies.
    This Committee has done a lot of great work under the 
Chairman's leadership and I'm grateful for his leadership on 
this issue including the MOBILE NOW Act that recently passed 
the House as part of the Ray Bonds Act. And I just want to say 
something about the name of that bill.
    Ray is a, was a beloved figure in the House and a great 
person. Just need this recognition to have happened.
    I believe we have got to continue to keep up the pressure 
to free even more spectrum and help close that digital divide. 
That's why Senator Hassan and I introduced the AIRWAVES Act to 
free up more license and unlicensed spectrum and to invest in 
the buildout of rural broadband networks.
    Do you agree that we should consider legislation like the 
AIRWAVES Act as we continue to evaluate future spectrum policy?
    Mr. Gillen. Thank you, Senator Gardner. I think we should--
it should be airwaves. Airwaves is the road map for the future 
of our country when it comes to spectrum policy. In one place 
we have low, mid, high band spectrum license and unlicensed and 
the opportunity to make a difference in terms of a 5G race.
    And the other thing that you guys have done, including that 
bill, is the rural dividend to ensure that money coming in 
through the Treasury will go back out to serve rural America, 
to serve the plains, to serve the parts of Colorado that don't 
have coverage today. You get to do both spectrum and 
infrastructure policy and that's not we have seen before.
    Senator Gardner. Thank you, Mr. Gillen, for that. And 
following up on kind of that rural comment. Mr. Berry, the FCC 
recently released a new map for the dispersal of mobility fund 
Phase II support. I appreciate the FCC's attempt to improve the 
map and I continue to have--but I continue to have concerns 
that it doesn't reflect actual coverage on the ground in my 
home state of Colorado and I can tell you that because I can 
tell you the mile markers south of town that, according to the 
map, has excellent coverage, but somehow I don't have coverage 
for mile upon mile upon mile when I'm driving it.
    On the eastern plains, for example, nearly the entire 
region is shown that it is served when I know firsthand large 
service gaps exist. And so pleased about this decision, but are 
many of your member companies planning to participate in the 
challenge process? What would that look like and what do you 
expect?
    Mr. Berry. Thank you, Senator. And thank you for the 
AIRWAVES Act.
    Also, I could add two additional bands in there if you 
would like to add 24 and 47 gigahertz in there.
    Senator Gardner. Get the bands together, that sounds good 
to me.
    Mr. Berry. You got it. You're absolutely right. I was going 
to congratulate you on getting a hundred percent coverage in 
Yuma because that's what the map says you have, but obviously I 
was premature in my congratulations, but----
    Senator Gardner. My neighbors think I'm nuts because I have 
to walk to the end of the block to get a cell phone signal.
    Mr. Berry. Yes. Many of our carriers are going to 
participate in our challenge process. The problem is the map is 
so distorted in terms of reality of the coverage that it will 
be exceedingly difficult for smaller carriers to challenge vast 
territories of the map.
    And this is one thing that we mentioned today, and I think 
Senator Hassan also mentioned it, if you don't challenge it 
then you're not going to be eligible for USF for 10 years. 
Because that reverse auction is going to occur.
    They are going to make a decision. Those areas that are not 
deemed eligible, if they are not challenged, the auction will 
occur 4.53 billion dollars will go out over the next 10 years.
    Senator Gardner. How do we fix this? How do we make sure we 
get this right?
    Mr. Berry. I suggested earlier that you need to utilize all 
the resources that we have available at the Federal Government. 
I mean the NTIA indicated, David Redl, new Assistant Secretary, 
said they have information, they have data, they have data 
points that can contribute and inform the FCC on that and I 
think we need to do that. The problem is, the 2009 Stimulus 
Act, the money went out the door before the broadband map came 
in. We should not, you know, commit the same error this time.
    Let's try to get the data right as we are getting ready to 
provide the funds available. And I think those are some of the 
areas, innovative ways that we can inform the database.
    Senator Gardner. Thank you, Mr. Berry, for that.
    Mr. Romano, when the BTOP program was created in 2009 many 
people were hopeful about the money that it would bring into 
rural infrastructure, underserved, unserved areas. A hundred 
million dollars went to an outfit called Eagle Net in Colorado. 
I strongly--and obviously they overbilled existing providers, 
failed for years to meet their service obligations and now are 
gone.
    I strongly support including specific funding for broadband 
in any infrastructure package, but I also want to make sure 
that we never again have a situation like we did with Eagle 
Net. Both from a competition standpoint and the fact that 
somehow the Denver Cherry Creek School District was unserved 
and underserved under its definition.
    Will you commit to supporting strong oversight of any new 
broadband dollars and robust buildout obligations for 
providers?
    Mr. Romano. Thank you, Senator. Absolutely, yes, sir. In 
fact, that's one of the reasons we suggest leveraging existing 
initiatives such as the Universal Service Fund. While it has 
shortcomings in terms of the data that's available and the 
challenge processes, it is by far the best way of ensuring that 
we are targeting the money in the right places that exists 
right now.
    It also has great accountability on the back end in the 
form of measuring where broadband is actually being deployed 
and whether the provider's network can do what it actually 
says.
    Senator Gardner. Thank you, Mr. DeBroux. I'm out of time. 
Thanks for the work you are doing in Colorado.
    Thank you.
    Senator Wicker. Thank you, Senator Gardner.
    Senator Baldwin.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Mr. Chairman and Ranking Member 
Schatz for holding this hearing, and to our panel of witnesses 
for sharing your expertise. And I want to particularly welcome 
Bob DeBroux, fellow Wisconsinite, from the Madison-based TDS 
Telecom. I'm really pleased to have a Wisconsin voice at the 
table today and thank you also for your membership on the FCC 
Broadband Deployment Advisory Committee.
    I also want to associate myself, Mr. Chairman, with remarks 
of my colleagues earlier during this hearing who have 
emphasized the need for dedicated funding for broadband as part 
of any infrastructure measure that moves forward. Like a number 
of my colleagues on the Subcommittee, from both sides of the 
aisle, I wrote to President Trump urging him to include dollars 
specifically for broadband and particularly in rural America.
    And while I'm disappointed that he chose not to do so, the 
Senate Democrats in putting forward our own infrastructure 
proposal did include broadband. And I think as Congress 
advances on an infrastructure package that we must address this 
critical need for our communities.
    Now, we are not starting from scratch regarding Federal 
support for broadband deployment. In fact, we have current or 
historic programs of the FCC, USDA and Commerce that have 
supported expansion of broadband including in rural areas.
    These can inform how we make future investments. So, Mr. 
DeBroux, TDS telecom is a significant recipient of funds under 
the Phase II of the FCC's Connect America Fund specifically 
through the it's alternative connect America model program, and 
I'm wondering if you can tell us how you believe your company's 
experience with this program should inform how any new 
resources are employed with the goal of ensuring the most 
effective deployment of broadband to areas that are currently 
unserved or underserved?
    Mr. DeBroux. Well, thank you, Senator Baldwin, and thank 
you for, apparently you have a lot of clout, because not only 
was I put on the BDAC, but I was made Chair of a work group. So 
it only tripled my work, but that was OK. Yes, I think there 
are a lot of things that the FCC got right. I think their 
programs have evolved and I think the accountability that's 
built into their programs, and especially the certainty. I 
mean, one, it's difficult, I think, for companies under the old 
universal service programs where how much money you got 
depended on a lot of things like how much your neighbors spent 
on their programs and things went up and down to really make 
predictable investments.
    With the ACAM program and now with some of the improvements 
that hopefully are coming with the legacy program it will be 
easier to have more certainty in terms of how many dollars you 
have. And with the ACAM program, the number of locations are 
specified and with each extra dollar that goes into there the 
number of locations that get higher speed broadband go up.
    So it's a program that is scalable in that sense that you 
can feed more money into it and you automatically get more 
broadband and at the end of the day you have to report to USAC 
how many locations you served including the exact location, 
within feet, of where those locations are. So USAC is 
collecting that data and they will then know going forward what 
is served.
    So the program, it did utilize the 477 data in order to 
make sure that we weren't building duplicate networks and I 
think that worked in the context of that program. People have 
pointed out issues with the maps, but I think at least that was 
a good starting point. So I think those are the types of 
features, I think, that are critical that any programs, if 
money goes to RUS or to NTIA in terms of having--and in 
addition having specified dollars set out for infrastructure 
specifically.
    Senator Baldwin. Thank you.
    Last year I had the opportunity to meet with a variety of 
community stakeholders in different regions of the State of 
Wisconsin: Washburn County, Green County and Eagle River, the 
community, and Vilas County, Wisconsin, which is in the far 
northern part of my home state. One thing I heard from 
participants in this particular roundtable was their 
frustration that the local and state planning efforts like the 
one they undertook in Eagle River which helped identify the 
unique needs of an area and how best to address them aren't 
necessarily taken into account when distributing Federal 
supports for broadband deployment.
    So, Mayor Resnick, do you agree that there should be more 
engagement with local and State planning processes and, if so, 
what steps can Congress take to ensure local communities are a 
part of the broadband deployment process?
    Mr. Resnick. Well, thank you, Senator. And thank you for 
your support of so many members of my community.
    It's tremendously important that local governments, 
counties, and cities have a seat at the table. I appreciate 
being invited here to be part of this panel, but so often in 
this discussion we are not. Look at, for example, and no 
offense to my colleague at the table who is part of BDAC and we 
appreciate his work on that, its ratio of industry members to 
local government members is ten to one.
    They drafted a model code for states without the input of 
any single local official. So we do not feel right now that the 
FCC is serious about engaging in dialogue with local 
governments and we think that that's going to result in bad 
broadband policy frankly.
    So we do--any efforts that you can make to try and ensure 
that local governments have more of a voice and a seat at the 
table we would appreciate. Also, you cannot forget, you know, 
we have heard throughout the hearing today about the 
frustration of getting affordable broadband available in every 
area.
    Rural areas, inner city areas, et cetera, and the Federal 
programs apparently are not providing enough incentive to make 
the business case for the private investment that the industry 
is looking for, but municipal broadband does have a way of 
solving the needs of their communities.
    Local governments are very good being creative coming up 
with ways of solving of the needs of their communities. Mayors 
like to get things done and if a problem exists in available 
broadband for my community we are going to get it done. If we 
have to build a municipal network to do it, we are going to try 
and undertake efforts to do it.
    So when you are talking about ways to engage local 
governments and make sure that the needs of our communities are 
met, we should not forget about the possibility of municipal 
broadband systems. Too often we are preempted from doing so, 
especially at the State level.
    There's a situation, or an example, I think Wilson, North 
Carolina, where they actually passed a referendum. The 
taxpayers supported building a municipal network. It was built. 
It was operating. It was providing great service and because of 
State law they had to discontinue using it.
    So there are plenty of examples like that where 
municipalities and counties want to take the effort and spend 
their residents' funds on these networks and State law simply 
does not allow them. If there's something you can do with 
respect to that, we would appreciate it.
    Senator Wicker. Thank you very much, Senator Baldwin, and 
thank you to the members of the panel and to the members of the 
Subcommittee. I will tell you that almost one-fifth of the U.S. 
Senate attended this hearing today. I think that tells us of 
the interest we have in this subject.
    Now, according to our procedures the hearing record will 
remain open for two weeks. During this time Senators are asked 
to submit any questions for the record. On receipt, the 
witnesses are requested to submit their written answers to the 
Committee as soon as possible. So we invite your cooperation 
there.
    Again, thank you for very excellent testimony and for 
valuable information provided to the members.
    This hearing is now adjourned.
    [Whereupon, at 12:06 p.m., the hearing was adjourned.]

                            A P P E N D I X

           Prepared Statement of Utilities Technology Council
    The Utilities Technology Council (UTC) thanks the Subcommittee on 
Communications, Technology, Innovation and the Internet for the 
opportunity to submit these comments for the record regarding the 
above-referenced hearing. As the Subcommittee considers policies on 
America's broadband infrastructure, UTC members are supporting 
broadband deployment by both providing access to utility infrastructure 
for third-party broadband providers and, where allowed, deploying 
broadband services in unserved and underserved areas. UTC therefore 
supports the development of policies which promote utility broadband 
deployment and infrastructure access.
    Established in 1948, UTC is the global association representing 
energy and water providers on their needs related to the deployment of 
reliable and resilient information and communications technology (ICT). 
Energy and water providers use ICT networks as the backbone for the 
infrastructure that delivers safe, reliable, and secure energy and 
water services. These networks are essential for reliability, safety, 
resiliency, and security.
    UTC applauds the Subcommittee for holding this important hearing. 
Our membership represents energy and water entities of all sizes and 
ownership types, from investor-owned utilities to publicly and 
consumer-owned utilities located in small towns and rural areas. 
Although our membership is diverse, they all share the belief that 
access to affordable and reliable broadband is a key economic driver 
for our Nation.
    Indeed, electric utilities, in particular, enable broadband access 
in multiple ways. In many cases, where not prohibited by state or local 
statute, a number of utilities are actually providing broadband in 
locations where private firms have decided not to deploy such services. 
Most of these locations are in rural, unserved or underserved areas.
    For electric utilities, the decision to provide broadband services 
to their customers and beyond is a natural progression because in most 
cases these utilities have already built communications networks to 
enhance electric reliability and resiliency; these networks include 
wireline and wireless services that have narrowband and broadband 
features. Therefore, electric utilities can use both their existing 
knowledge and, in some cases, their infrastructure to deliver 
broadband. As such, electric utilities can deploy future-proof, often 
fiber-based, networks offering robust, affordable and reliable 
broadband to potential customers inside and outside their service 
territories. Importantly, the services these electric utilities provide 
are reasonably comparable to the cost and quality of broadband 
available in urban areas.
    In addition, some electric utilities are willing and able to 
provide wholesale services and infrastructure access to third-party 
commercial communications service providers to enable broadband 
deployment. As stated above, electric utilities have extensive 
infrastructure that includes wireline and wireless communications 
networks, as well as power poles and rights of way. Many utilities 
offer wholesale capacity and dark fiber services over their 
communications infrastructures at rates, terms and conditions that are 
just and reasonable.
    As this Subcommittee addresses broadband issues, we urge 
acknowledgement of electric utilities as key partners in bringing 
broadband to all Americans. Utility-owned infrastructure is an 
important piece of the broadband-deployment puzzle, as power poles are 
not only essential for delivering electricity, they are also used by 
third parties to enable voice, data, and broadband services. Power 
poles are designed first to deliver electricity to homes and 
businesses, and in so doing they also power the carrier-provisioned 
telecommunications services which cannot operate without electricity. 
These poles are built to withstand tough weather conditions and hold 
equipment that transforms high-voltage electricity into lower voltages 
safe for homes and businesses.
    With the advent of 5G wireless technologies, policymakers and 
industry are looking at new ways to reduce pole-attachment costs and 
expedite the regulatory process. This ``race to 5G'' is seen as the 
next wave of broadband development that will enable greater 
communications access to more people. Again, power poles play a key 
role in the deployment of this technology, as small cellular wireless 
devices that can be attached to electric infrastructure will be used to 
bring 5G service to the Nation. These devices can weigh as much as, if 
not more than, a pizza oven or a full-size refrigerator. In addition, 
different companies will want to attach their own ``pizza ovens'' to 
power poles or other devices, not necessarily recognizing that adding 
so much weight to a pole could interfere with its first 
responsibility--delivering the electricity that fuels everything from 
our homes to the devices and systems 5G technology is intended to 
serve.
    UTC recommends this Subcommittee, as it looks to encourage 
broadband deployment, consider the following:

  <bullet> Supporting broadband-funding programs that promote the 
        deployment of future-proof networks which provide robust, 
        reliable and affordable broadband services to all Americans;

  <bullet> Supporting pole attachment policies that promote safety, 
        reliability and security of electric utility infrastructure 
        while accelerating broadband deployment; and

  <bullet> Passing rights-of-way legislation that would clarify that 
        electric utilities may use their existing rights-of-way for 
        communications purposes. Doing so would promote broadband 
        deployment by preventing class-action lawsuits against electric 
        utilities that offer these services.

    Ensuring that all Americans have access to affordable, reliable 
broadband is just as important today as electricity was for the growth 
of the Nation a century ago. Now as then, electric utilities are 
critical partners in doing so and stand ready to assist.
    UTC thanks the Subcommittee for holding this important hearing and 
appreciates the opportunity to submit this statement. We look forward 
to working with you and the full Commerce, Science, and Transportation 
Committee in ensuring that all Americans have access to robust, 
affordable and reliable broadband networks and services.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                           Hon. Gary Resnick
    Question 1. The next generation of technological advances--like 
self-driving vehicles--depend on increased connectivity and massive 
amounts of data. I am deeply concerned that President Trump's 
infrastructure and budget proposals do not appear to mention or 
prioritize infrastructure needs of the future, particularly around 
mobility, 5G, or connected infrastructure. What should Congress include 
in an infrastructure package to support these initiatives? What Federal 
investments are needed now to prepare for the future of mobility and 
5G?
    Answer. Cities agree that a national infrastructure framework must 
be forward-looking, reimagining the infrastructure of the future while 
repairing and rebuilding existing infrastructure networks. To that end, 
broadband deployment and planning must be incorporated into other 
infrastructure projects and programs, such as transportation projects 
that could incorporate deployment of fiber or wireless equipment.
    Congress should avoid focusing on the deployment of small cell or 
5G-focused technologies to the exclusion of other broadband tools. 
Closing the digital divide and enhancing mobile connectivity will 
require a mix of wired, wireless, and satellite technologies. Even 
wireless technologies will require an enormous amount of fiber backhaul 
to support their transmissions, and support for smart cities and 
connected infrastructure will require fiber investments to make the 
wireless connectivity function. Congress must not be in the business of 
picking winners and losers in the broadband industry.
    Congress should also prioritize the inclusion of cybersecurity in 
major infrastructure programs. As we have seen repeatedly over the past 
several years, our increasingly connected workplaces and infrastructure 
networks are much more vulnerable to cyberattacks, and these attacks 
will have increasingly dangerous consequences. Finally, Congress should 
prioritize digital inclusion efforts, not just the buildout of physical 
broadband infrastructure. Too often, low-income residents are left out 
of the benefits of our connected world, even if they live in 
neighborhoods with broadband service. Without digital inclusion, low-
income residents of smart cities will be left further and further 
behind.

    Question 2. The omnibus spending bill provides $600 million to RUS 
for a new pilot program of grants and loans for rural broadband 
deployment. How should the RUS plan to use these additional funds?
    Answer. Cities were pleased by the inclusion of $600 million for 
rural broadband through the USDA's Rural Utilities Service. To have the 
most impact, this pilot program should coordinate closely with local 
and regional governing bodies, as well as the Federal Communications 
Commission and the National Telecommunications and Information 
Administration. This coordination must not only be focused on 
preventing duplicative efforts across subsidy programs, but also 
sharing best practices gleaned from existing or past subsidies, 
encouraging economies of scale where possible, and coordinating network 
build in adjacent communities or within regions. For example, Congress 
should consider whether existing subsidized buildouts, such as 
provision of E-Rate broadband service to a community institution such 
as a school or library, can be expanded by a new infusion of funds to 
serve the surrounding residential and business communities.
    Congress should also ensure that rural service does not mean 
second-class service. Federal support should be prioritized to 
providers who can actually offer minimum upload/download speeds of 
25Mbps/3Mbps or higher--the current Federal broadband standard--even in 
low-density rural areas. Without some equity in the standard of service 
available to all residents, rural communities will continue to fall 
further behind in the digital economy.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Steven K. Berry
    Question 1. The next generation of technological advances--like 
self-driving vehicles--depend on increased connectivity and massive 
amounts of data. I am deeply concerned that President Trump's 
infrastructure and budget proposals do not appear to mention or 
prioritize infrastructure needs of the future, particularly around 
mobility, 5G, or connected infrastructure. What should Congress include 
in an infrastructure package to support these initiatives? What Federal 
investments are needed now to prepare for the future of mobility and 
5G?
    Answer. While it is important to lead the world in 5G technologies, 
we must immediately focus on preserving and expanding mobile broadband 
services to those who remain on the wrong side of the digital divide. 
To ensure that all consumers have access to the latest mobile broadband 
services, Congress should focus efforts on three critical elements: 
sufficient and predictable funding for services in rural America based 
on reliable data, certainty regarding policies for deployment, and 
access to low-, mid-, and high-band spectrum.

    Question 2. The omnibus spending bill provides $600 million to RUS 
for a new pilot program of grants and loans for rural broadband 
deployment. How should the RUS plan to use these additional funds?
    Answer. As RUS works to distribute $600 million through a new pilot 
program for rural broadband deployment, emphasis should be on grants 
over loans. Additionally, RUS should work with the FCC to ensure that 
future grants or loans do not impose obligations on future USF 
decisions.

    Question 3. The omnibus spending bill for FY 2018 allocated $7.5 
million for NTIA to use for the National Broadband Map, and the 
Administration has requested $50 million for FY 2019. Do you think the 
FCC or NTIA should be in charge of the National Broadband Data Map? How 
should the FCC and NTIA leverage and coordinate their resources to 
provide more accurate and granular data?
    Answer. NTIA and the FCC should coordinate their expertise and 
resources to develop a National Broadband Data Map that reflects the 
reality American consumers experience every day.
    Administrator Redl has noted the need for better broadband mapping 
data that is more accurate, granular, and verified. Unfortunately, the 
parameters selected by the FCC for the one-time data collection to 
determine initially eligible areas for Mobility Fund Phase II have 
produced a map that fails to reliably reflect coverage. Data collected 
to shape the National Broadband Data Map should balance real world 
coverage without unduly burdening wireless carriers or state and local 
governments.

    Question 4. As noted during the hearing, I am considering 
legislative options for modernizing the RUS Community Connect grant 
program. The program currently sets an eligibility cut off that makes 
communities ineligible if a single household has broadband service at 
or above 4/1 megabits per second. This speed threshold has not been 
updated in years, and it is substantially below the FCC's definition of 
broadband coverage at 25/3 speeds. In addition to my questions we 
discussed regarding the 4/1 speed threshold, do you have other 
recommendations for modernizing these RUS grants?
    Answer. RUS grant programs should provide support for an increasing 
range of speeds based on technology and spectrum availability. However, 
eligibility should be determined from geographic coverage based on 
reliable data, not an outdated model where service available at one 
location could eliminate entire areas from funding eligibility.

    Question 5. Your testimony ``encourages the use of grants instead 
of loans due to the costly, unnecessary bureaucratic red tape that 
accompanies current RUS loans.'' Can you elaborate on what makes grants 
preferential?
    Answer. Mobile carriers today rely on various funding models, 
especially to fund deployments in rural and high cost areas. While 
carriers must already navigate bureaucratic processes in the 
application and review process, additional steps to satisfy Federal 
loan programs can add additional delays and costs compared to loans 
available through commercial channels.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Steven K. Berry
    Question 1. In Nevada we have the most public lands of any state in 
the Nation. In some of these remote areas, Internet access is extremely 
slow or nonexistent. This presents a number of challenges for both the 
residents who live in these areas to the government employees who 
manage them, but there's also opportunities in these places.
    Can you give an examples of any partnerships that have been done 
with land management agencies that have increased access to high speed 
broadband for these outposts?
    Can you give examples of any of these partnerships being used to 
increase access to high speed broadband to communities in these areas?
    Answer. CCA is continuing outreach to members for examples of 
successful partnerships with land management agencies and will provide 
any additional updates to your office.

    Question 2. 5G will rely on small cells with short signal ranges. 
This raises questions about how they will be deployed and utilized in 
remote areas like those we have in Nevada. Can you give examples of 
these cells being deployed and befitting in rural areas?
    Answer. Small cells are not only for big cities, and are being used 
in addition to traditional macro-cell towers to provide coverage in 
both urban and rural areas. Small cells can be particularly useful in 
rural areas with areas where people congregate and need greater data 
capacity, such as schools and universities, local sporting events, 
designated areas of commerce or government, rural areas of recreation 
and sport, and events such as state fairs and festivals. Additionally, 
small cells may be deployed in rural areas where other considerations 
may present challenges to deploying traditional towers.

    Question 3. Can you describe the approval process by which telecom 
carriers install components of their networks on Federal land?
    Answer. Carriers must navigate a lengthy, complicated process to 
gain regulatory approval to site mobile infrastructure, rife with 
potential for delays or costs. The attached chart, produced by CCA, 
describes the siting process for telecom equipment. CCA supports the 
SPEED Act and appreciates your leadership on these issues, which will 
benefit both urban and rural areas.

    Question 4. What improvements are needed to the process to ensure 
better connections for our residents and visitors to many of our 
beautiful public land destinations, like Great Basin National Park?
    Answer. Enacting the SPEED Act will help streamline deployment and 
provide improved mobile broadband services. Enhancing mobile broadband 
can also support residents and visitors to national parks and public 
land destinations through allowing connectivity when desired for social 
media and augmented reality experiences, as well as critical 
connections to public safety and 9-1-1 if necessary. As policies are 
updated, it is important that specific master plans are updated to 
allow for telecommunications deployments, particularly if existing 
master plans stretch over a decade or longer.

    Question 5. The administration's proposal includes no direct 
funding for rural broadband but $50 billion for rural infrastructure, 
80 percent of which comes in the way of formula grants to the states 
who will have the discretion to doll that money out as they see fit. 
States often do not have institutions dedicated to allocating grant 
money for rural broadband like they do for projects like water or 
highways. What has been your experience in states prioritizing 
broadband over other projects like highways or water?
    Answer. While state focus on broadband deployment policies and 
funding varies from state to state, traditional state infrastructure 
policies have not focused on broadband deployment and have prioritized 
other projects. CCA supports Congressional efforts to include direct 
funding for rural broadband programs in any infrastructure legislative 
package.

    Question 6. One issue of concern in ensuring that Federal funds 
that are included in any plan are well spent and not wasted. How do we 
ensure we have the proper oversight or metrics in place to ensure that 
Federal funds are well spent and reach the intended people without 
adequate service?
    Answer. You cannot manage what you cannot measure; reliable 
coverage data is critical to structuring a program to provide funding 
to reach the intended areas. Absent reliable data, areas that should be 
eligible for funding will be left behind. Additionally, using lessons 
learned from Mobility Fund Phase I, oversight of disbursed funds should 
not freeze capital through withholding reimbursement until after 
separate USAC certification, and build out time frames should be 
flexible to accommodate for any delays outside a carrier's control, 
including in the application process. Balancing oversight with 
flexibility will encourage participation in programs, particularly in 
remote areas, to ensure that Federal funds are being used as intended.

    Question 7. Is increasing the amount of resources to RUS and the 
FCC sufficient to meet our Nation's needs?
    Answer. Congress directed the FCC to administer the Universal 
Service Fund to provide eligible carriers with support that is both 
predictable and sufficient. To close the digital divide in high cost 
areas, additional resources are needed to support a business case where 
private capital alone may not be sufficient.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                             Robert DeBroux
    Question 1. The next generation of technological advances--like 
self-driving vehicles--depend on increased connectivity and massive 
amounts of data. I am deeply concerned that President Trump's 
infrastructure and budget proposals do not appear to mention or 
prioritize infrastructure needs of the future, particularly around 
mobility, 5G, or connected infrastructure. What should Congress include 
in an infrastructure package to support these initiatives? What Federal 
investments are needed now to prepare for the future of mobility and 
5G?
    Answer. Successful deployment of 5G requires more than just 
wireless ``towers.'' It requires, for the most part, fiber connections 
to the network. In rural areas, especially, the business case for these 
connections, i.e., covering the cost of these connections, may require 
specific funding. Thus, any goal of deploying 5G broadly will need 
dedicated funding.

    Question 2. The omnibus spending bill provides $600 million to RUS 
for a new pilot program of grants and loans for rural broadband 
deployment. How should the RUS plan to use these additional funds?
    Answer. The omnibus spending bill provided a solid framework for 
the RUS to follow in establishing the new broadband pilot program. Most 
important is Congress's acknowledgment that government funded projects 
should be directed to unserved areas and to only one entity per service 
area. I would recommend that Congress direct RUS to not only consult 
with the FCC, but require that the RUS use the FCC's data to verify 
that areas are unserved. In addition, RUS can allow current Universal 
Service Fund (``USF'') recipients' to have the right of first refusal 
prior to funding any incumbent provider's service area when applying 
for funding. The FCC can also verify to the RUS which applicants are 
USF recipients.

    Question 3. The omnibus spending bill for FY 2018 allocated $7.5 
million for NTIA to use for the National Broadband Map, and the 
Administration has requested $50 million for FY 2019. Do you think the 
FCC or NTIA should be in charge of the National Broadband Data Map? How 
should the FCC and NTIA leverage and coordinate their resources to 
provide more accurate and granular data?
    Answer. The FCC should be the primary agency tasked with collecting 
and interpreting broadband data. However, Congress has designated that 
NTIA host and maintain the National Broadband Map and it's now up to 
Congress to make sure that NTIA is not duplicating efforts taken by the 
FCC or using different standards or benchmarks when collecting 
broadband data. I would also add that the Census Bureau can also be 
very helpful in providing broadband data to NTIA and the FCC. For 
example, as the Census Bureau begins work on the 2020 Census, Congress 
should direct the Census Bureau to geocode all parcel locations and 
provide that information to the FCC and NTIA so that rural broadband 
carriers can better identify where households are located.

    Question 4. As noted during the hearing, I am considering 
legislative options for modernizing the RUS Community Connect grant 
program. The program currently sets an eligibility cut off that makes 
communities ineligible if a single household has broadband service at 
or above 4/1 megabits per second. This speed threshold has not been 
updated in years, and it is substantially below the FCC's definition of 
broadband coverage at 25/3 speeds. In addition to my questions we 
discussed regarding the 4/1 speed threshold, do you have other 
recommendations for modernizing these RUS grants?
    Answer. The Farm Bill must be reauthorized by Congress by the end 
of this year. Reauthorizing the Farm Bill, presents a real opportunity 
for Congress to improve not only the RUS Community Connect Program but 
also the RUS Rural Broadband Program. TDS suggests that the Community 
Connect Program be rolled in the RUS Rural Broadband Program to gain 
the greatest efficiency and to ensure better participation by 
perspective applicants
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Robert DeBroux
    Question 1. I have heard from other people in your industry that 
personnel is a major challenge. They feel that there is insufficient 
personnel at state and national level agencies to review applications 
quickly. This gets at the heart of the problem which is that this 
administration wants to roll back the time it takes to do these reviews 
and permitting but has also neglected staffing many of these agencies 
responsible. How has, in your experience, staffing affected the speed 
of the process?
    Answer. It has been our experience that in some instances, lack of 
staff has contributed to delays in applications However, when staff has 
to comb through thousands of Federal and state laws just to approve an 
application then it's easy to see why permit applications are delayed. 
By appropriately streamlining the permit process and waiving some of 
the more onerous requirements that in most cases, shouldn't apply to 
broadband permit applications, the Federal government will be making 
Federal agencies more efficient while at the same time promoting the 
stated policy goal of expediting broadband deployment on Federal lands.

    Question 2. How can we have ``shot clocks'' work if agencies are 
not staffed to meet demand?
    Answer. The alternative to not having ``shot clocks'' is what we 
have today, thousands of permits pending before the Federal government. 
Congress needs to find the right balance between providing adequate 
time for agencies to review applications but not allowing the weight of 
Federal bureaucracy to ensure broadband permits are never be approved.

    Question 3. A recent Wireless Infrastructure Association report 
notes that engineers and technicians need new training as we advance 5G 
infrastructure.
    What workforce development challenges is the industry facing?
    What is being done to ensure that women and minorities have the 
chance to fill these well-paying and technical positions?
    Answer. As a primary wireline company I do not have any insight 
into the challenges of 5G infrastructure.

    Question 4. The administration's proposal includes no direct 
funding for rural broadband but $50 billion for rural infrastructure, 
80 percent of which comes in the way of formula grants to the states 
who will have the discretion to doll that money out as they see fit. 
States often do not have institutions dedicated to allocating grant 
money for rural broadband like they do for projects like water or 
highways. What has been your experience in states prioritizing 
broadband over other projects like highways or water?
    Answer. To my knowledge, the Trump Administration's proposal on 
infrastructure would be the first time Federal broadband projects would 
have to compete against more traditional infrastructure projects such 
as highways and bridges. So while TDS doesn't have any experience in 
competing against projects like bridges and roads I would caution 
Congress and this Administration from establishing such a precedent.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                              Brad Gillen
    Question 1. I understand that the next generation of 5G wireless 
networks will require hundreds of thousands of small cells that will be 
placed on existing infrastructure. I'm encouraged that the FCC recently 
released a draft decision that would exempt some of these small cells 
from the burdensome and costly environmental and historic process 
reviews that the FCC is required to conduct. Does CTIA favor the 
proposed action?
    Answer. Yes, consistent with the helpful direction in your 
legislation, the RAPID Act, the Federal Communications Commission's 
decision to update the environmental and historic preservation reviews 
designed for large cell towers will accelerate 5G deployment, spur 
significant new investment, innovation and job creation and help the 
United States win the global race to 5G.
    The wireless industry is preparing to install 800,000 small cells 
in the next few years to make 5G a reality. These small cells are 
roughly the size of a pizza box and can be installed in an hour or two 
on a streetlight or utility pole, but it can take a year or more to get 
the necessary siting permits due to rules designed for 200-foot cell 
towers.
    The Commission's March 22 decision to modernize some NEPA and NHPA 
permitting reviews will mean tremendous time and cost savings that will 
boost network investment and job creation, without impacting the 
environment or historic properties, as reviews will still happen when 
appropriate.
    A recent Accenture report found that almost a third of the cost of 
next-generation wireless deployments go to Federal reviews that the FCC 
modernized with their decision. Accenture projects reforms like those 
the FCC adopted could bring $1.6 billion in savings, helping jumpstart 
5G deployment.
    In addition to these reforms, the most important thing the Federal 
government can now do is update its nationwide guidelines for how state 
and local governments treat siting requests.

    Question 2. To win the global race of 5G, the wireless industry 
needs to rapidly deploy small cells, but many of today's rules were 
designed for the large macro towers. I appreciate the work that the FCC 
is doing this month to modernize the environmental and historic 
preservation rules, but what should Congress do to ensure the United 
States remains the world's leader in wireless?
    Answer. Congress can help the United States remain the world's 
leader in wireless by focusing on two main issues: (1) infrastructure 
reforms and (2) building a spectrum pipeline.
    (1) To unlock hundreds of billions of investment in new networks, 
the U.S. needs a modernized siting framework. The most meaningful step 
Congress can take is to provide clear direction and guardrails to state 
and local governments for wireless infrastructure siting. CTIA is 
encouraged that Senators Thune and Schatz have circulated a discussion 
draft that updates congressional guidance to localities to reflect how 
wireless infrastructure has evolved. The draft's ``shot clock'' 
provision provides reasonable timelines for states and localities to 
act on siting applications and creates an important enforcement 
mechanism--the ``deemed granted'' remedy. The FCC has already had a 
``deemed granted'' tool in place since 2014 for certain facilities 
requests, but this should be broadened to cover all siting reviews to 
expedite deployment decisions. The draft also clarifies that localities 
retain the right to charge for access to public property, provided that 
rates are fair and reasonable, competitively and technologically 
neutral, and based on actual costs. The impact of excessive fees is 
real: disproportionate costs to site wireless infrastructure hinder 
deployment, particularly in rural areas. These proposed reforms would 
promote broadband investment, while preserving local authority in key 
areas like zoning, safety, and aesthetics.
    When it comes to the Federal review process and siting on Federal 
lands, we applaud recent reforms. The FCC's action to streamline 
environmental and historic preservation reviews designed for large cell 
towers, consistent with your common-sense legislation, the RAPID Act 
(S. 2576) as well as the SPEED Act (S. 1988) introduced by Senators 
Wicker and Cortez Masto will accelerate 5G deployment. In addition, the 
inclusion of a shot clock on Federal agencies and other provisions to 
streamline wireless deployments on Federal lands in the Consolidated 
Appropriations Act, 2018 was important progress. Congress can further 
facilitate wireless deployments on Federal property by creating a 
deemed granted remedy for siting applications that are not addressed in 
a timely manner like that included in the Rural Broadband Deployment 
Streamlining Act (S. 1363) introduced by Senators Heller and Manchin.
    (2) We need a new schedule of spectrum auctions to support consumer 
demand and 5G. Congress has already identified a number of bands 
including low-, mid-, and high-bands for both study and auction, 
including those proposed by Senators Gardner and Hassan in the AIRWAVES 
Act (S. 1682). The FCC has recently announced at least one high-band 
auction this year, and a clear schedule of additional spectrum auctions 
would create certainty, encourage investment, and allow wireless 
providers to plan and build their 5G networks to maximize efficiency 
and robustness.

    Question 3. Are Congress, the FCC, and the Administration doing 
enough to help the U.S. win the race to 5G, or are we in serious danger 
of ceding the mantle of wireless leadership to China, Japan, and South 
Korea?
    Answer. The U.S. is in a very tight race to lead in 5G. China, 
South Korea, and other nations are threatening to overtake our wireless 
leadership by investing billions, allocating huge blocks of spectrum, 
and conducting hundreds of 5G trials.
    The good news is that America's wireless industry is already 
investing in the next generation of wireless with trials across the 
country and some initial 5G deployments planned for this year. 
According to Accenture research, the U.S. wireless industry contributes 
$475 billion annually to America's economy and supports 4.7 million 
jobs and the industry is poised to invest $275 billion of its own 
private capital to build next-generation wireless networks. This will 
create more than 3 million new jobs, and add $500 billion to our 
economy, according to Accenture.
    The wireless industry will continue to invest, deploy, and 
innovate, but our continued global leadership depends on a committed 
and comprehensive spectrum and infrastructure policy.
    If Congress follows through on these key reforms in 2018, we will 
be well positioned to be the world's leader in wireless:

  <bullet> Address wireless infrastructure needs. Federal policymakers 
        can help the U.S. win the race to 5G by updating its guidance 
        for state and local governments on wireless infrastructure 
        siting, and further build on recent reforms to streamline 
        siting on Federal lands. The U.S. will not win the global race 
        if timelines and costs are not significantly reduced across the 
        country.

  <bullet> Spectrum pipeline. We are encouraged that congressional 
        leaders and the FCC are focused on the key spectrum bands we 
        need for our future, and the challenge now is executing quickly 
        on these priorities. The U.S. has no mid-band spectrum (3-24 
        GHz) currently available for commercial use. The FCC is focused 
        on finalizing more investment-friendly rules for the 3.5 GHz 
        band, but a timetable for bringing that spectrum to market 
        remains unclear. While the FCC is exploring other mid-band 
        spectrum bands, including the 3.7-4.2 GHz band, which is a key 
        band for 5G globally, there is no clear timetable for a future 
        auction. We applaud the FCC's announcement that at least one 
        high-band auction will be held in 2018, and we encourage 
        policymakers to ready additional high-band spectrum for 5G 
        networks. Additionally, underused Federal spectrum should be 
        reallocated for commercial use where possible. We strongly 
        support Senators Gardner and Hassan's AIRWAVES Act, which 
        provides a clear plan for additional spectrum across a wide and 
        diverse range of frequencies.

    Question 4. A growing number of states have adopted legislation to 
accelerate the deployment of small cells. Are any of these new state 
laws a particularly good model for us to follow if we undertake an 
effort to create a Federal framework for the deployment of small cells?
    Answer. A new Accenture study shows the powerful impact of wireless 
investment and innovation across all 50 states. In Kansas alone, the 
wireless industry contributes $7 billion to the State's economy and 
supports 63,000 jobs. Fifteen states, including Kansas, have enacted 
legislation to modernize rules impacting the deployment of small cells, 
with other legislatures actively considering bills. The key provisions 
of the state bills that make the biggest impact is the inclusion of 
clear timetables for government action on siting requests and setting 
cost-based rates for siting. States that are the first facilitate 
wireless infrastructure deployment will likely see the greatest 
benefit.
    At the Federal level, Congress has repeatedly prioritized the rapid 
deployment of wireless infrastructure as a national priority and 
previously set nationwide guidelines for how localities should treat 
siting requests. The race to 5G necessitates updating Congress's 
guidance to localities, as the rules that applied to the infrastructure 
of the past are no longer appropriate to support next-generation 5G 
deployment. CTIA is encouraged that Chairman Thune and Sen. Schatz have 
circulated a discussion draft that seeks to provide clear direction--
and guardrails around--state and local governments, while preserving 
local authority over zoning, safety, and aesthetics.
    We support state and Federal efforts to provide reasonable access 
to rights of way, reasonable costs and fees, and streamlined processes 
for the deployment of small cells.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                              Brad Gillen
    Question 1. The next generation of technological advances--like 
self-driving vehicles--depend on increased connectivity and massive 
amounts of data. I am deeply concerned that President Trump's 
infrastructure and budget proposals do not appear to mention or 
prioritize infrastructure needs of the future, particularly around 
mobility, 5G, or connected infrastructure. What should Congress include 
in an infrastructure package to support these initiatives? What Federal 
investments are needed now to prepare for the future of mobility and 
5G?
    Answer. The key infrastructure reform for wireless is modernizing 
our siting rules and regulations. Our industry stands ready to invest 
$275 billion in private capital in tomorrow's networks according to 
Accenture.
    The good news is Congress already enacted several important reforms 
in the recently passed Appropriations Act that will assist in the 
deployment of 5G networks on Federal lands. These include shot-clocks 
for reviewing applications, the creation of contracts and applications 
that would be consistent across Federal agencies, further streamlining 
such applications, and adding information about facilities able to 
support communications facilities to the existing Federal assets 
database. There is more work to be done on Federal siting. First, the 
newly created shot-clock for the review of applications for facilities 
on Federal property should include a ``deemed granted'' remedy when the 
shot clock rules are violated. The shot clock has limited utility if 
there is no enforcement mechanism at the end. In basketball, when the 
shot clock expires, you lose the ball.
    The most significant reform Congress can take is to update the 
guardrails on state and local governments to prevent unnecessary delays 
or impediments to the development of broadband infrastructure. Congress 
should also clarify that fees charged for siting wireless facilities 
should be non-discriminatory and based on the state or local 
government's actual, direct, and reasonable costs to manage the right 
of way or issue permits. These changes will go a long way towards 
reducing the costs and speeding the deployment of 5G infrastructure.
    Additionally, Congress should reallocate spectrum, the invisible 
infrastructure that is necessary to power mobile networks, to the 
private sector. Not only is this important in that it will help bring 
broadband to more Americans, but revenue from auctioning Federal 
spectrum can help fund other congressional priorities. The AIRWAVES 
Act, sponsored by Senators Gardner and Hassan, would allocate 10 
percent of auction proceeds to fund mobile broadband in rural areas. 
These funds would go a long way to ensuring rural consumers can benefit 
from mobile broadband.

    Question 2. The omnibus spending bill provides $600 million to RUS 
for a new pilot program of grants and loans for rural broadband 
deployment. How should the RUS plan to use these additional funds?
    Answer. RUS should use technologically neutral criteria and focus 
on the best way to get rural Americans online. All technologies, both 
wireless and wired, should be viable funding options, especially next-
generation wireless networks that can meet the broadband needs of 
consumers and businesses. RUS should also work cooperatively with other 
agencies, including the FCC, to ensure funding is not duplicative and 
is focused on those Americans that do not benefit from broadband access 
today.

    Question 3. The omnibus spending bill for FY 2018 allocated $7.5 
million for NTIA to use for the National Broadband Map, and the 
Administration has requested $50 million for FY 2019. Do you think the 
FCC or NTIA should be in charge of the National Broadband Data Map? How 
should the FCC and NTIA leverage and coordinate their resources to 
provide more accurate and granular data?
    Answer. Good data is key to effective program management and 
congressional oversight and we applaud your focus on getting the right 
data for mobile wireless coverage. NTIA and the FCC should work 
together on the broadband map, incorporating data that both agencies 
have as well as data commercially available from third parties. Any new 
information collections should be carefully balanced in light of the 
significant data our industry provides the government today. We are 
hopeful that Congress gets the data needed without the need for any 
additional burdensome collection mandates.

    Question 4. As noted during the hearing, I am considering 
legislative options for modernizing the RUS Community Connect grant 
program. The program currently sets an eligibility cut off that makes 
communities ineligible if a single household has broadband service at 
or above 4/1 megabits per second. This speed threshold has not been 
updated in years, and it is substantially below the FCC's definition of 
broadband coverage at 25/3 speeds. In addition to my questions we 
discussed regarding the 4/1 speed threshold, do you have other 
recommendations for modernizing these RUS grants?
    Answer. RUS should gear the program to what consumers' and 
businesses' broadband needs are, then determine what technologies and 
services can meet those demands. Today's wireless broadband services 
should be an option for funding.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                             to Brad Gillen
    Question 1. In Nevada we have the most public lands of any state in 
the Nation. In some of these remote areas, Internet access is extremely 
slow or nonexistent. This presents a number of challenges for both the 
residents who live in these areas to the government employees who 
manage them, but there's also opportunities in these places.
    Can you give an examples of any partnerships that have been done 
with land management agencies that have increased access to high speed 
broadband for these outposts?
    Can you give examples of any of these partnerships being used to 
increase access to high speed broadband to communities in these areas?
    Answer. Last year, NTIA produced a report on the use of public-
private partnerships to expand broadband access to rural areas. It 
strongly endorsed those partnerships, and included several examples of 
successful partnerships. These partnerships can be an important tool in 
promoting broadband deployments to rural areas using all available 
technologies, including developing 5G networks, which will offer speeds 
and latency comparable to or better than wireline networks. In addition 
to partnerships with land management agencies, Internet access can be 
increased if wireless companies have better access to Federal lands. 
That will allow those companies to provide service both on and adjacent 
to Federal property. Recent changes to the process required by the 2018 
Appropriations Act will help, but more work is necessary to reduce the 
time it takes wireless companies to site facilities on Federal land.

    Question 2. 5G will rely on small cells with short signal ranges. 
This raises questions about how they will be deployed and utilized in 
remote areas like those we have in Nevada. Can you give examples of 
these cells being deployed and befitting in rural areas?
    Answer. While much of the discussion surrounding 5G networks has 
focused on high-band frequencies that will use small cells, 5G will 
operate in a variety of different bands and will also take advantage of 
the 150,000 cell towers across the country. For example, CTIA member T-
Mobile has announced that it is rolling out 5G service using the 600 
MHz band spectrum it won in the FCC's landmark Broadcast Incentive 
Auction. 5G networks using 600 MHz spectrum will not necessarily use 
small cells because that spectrum can propagate further, making it 
useful to deploy in rural areas. But there will be 5G small cell use in 
rural areas as well. Small cells will be employed to provide additional 
capacity and coverage in targeted areas like school campuses, town 
squares, and areas such as tourist destinations and other high-traffic 
outdoor recreation areas. So, in rural locations, 5G will be delivered 
using a variety of facility types.

    Question 3. Can you describe the approval process by which telecom 
carriers install components of their networks on Federal land?
    Answer. Unfortunately, there is no single approval process by which 
carriers install components of their networks on Federal land. The 
process for companies to site facilities on Federal land remains slow 
and unpredictable. Different agencies have different siting approval 
processes and even within agencies, procedures may be inconsistent 
between different organizational units. CTIA is encouraged that in the 
recently passed Appropriations bill, Congress took several important 
actions to facilitate siting on Federal lands. First, agencies are now 
required to act within a uniform 270-day period on siting applications. 
Second, GSA is required to develop common forms and applications for 
siting facilities on Federal property, which will standardize the 
process of obtaining permission to deploy these facilities. Third, GSA 
is required to update and make public the existing Federal property 
database in order to make it easier to find available sites for these 
facilities. Finally, GSA and NTIA will work with the relevant Federal 
agencies to produce recommendations on how to streamline these 
processes even further.

    Question 4. What improvements are needed to the process to ensure 
better connections for our residents and visitors to many of our 
beautiful public land destinations, like Great Basin National Park?
    Answer. CTIA is encouraged by the actions that Congress recently 
took to ensure better connections on and near public lands. However, 
more work must be done. CTIA looks forward to working with NTIA, GSA 
and others to develop the new common forms and agreements required by 
the Appropriations Act and to consider other actions, as Congress has 
directed, to streamline siting on Federal lands. For example, Congress 
could direct that relevant agencies implement new regulations to reform 
the process of considering applications for siting on lands under their 
jurisdiction. These reforms could focus on making the process more 
uniform across different parts of an agency, tracking application 
reviews, setting cost-based fees, and speeding the review of 
applications with minimal impacts on protected lands, such as when the 
facilities will be located in existing rights-of-way.
    I would also like to note that the SPEED Act, which you sponsored 
with Sen. Wicker, is the type of smart, targeted streamlining measure 
that the Federal government should continue to explore. The legislation 
wisely balances the need to expand the deployment of broadband while 
ensuring the environmental impact is minimized. This is especially 
relevant in places like the Great Basin National Park, where both 
visitors and public safety officials rely on broadband for 
communications.

    Question 5. I have heard from other people in industry that 
personnel is major challenge. They feel that there is insufficient 
personnel at state and national level agencies to review applications 
quickly. This gets at the heart of the problem which is that this 
administration wants to roll back the time it takes to do these reviews 
and permitting but has also neglected staffing many of these agencies 
responsible.
    How has, in your experience, staffing affected the speed of the 
process?
    How can we have ``shot clocks'' work if agencies are not staffed to 
meet demand?
    Answer. The wireless industry recognizes that budget constraints 
exist for all government agencies and that delays in review of 
applications may stem from lack of resources. This is why CTIA has 
supported actions that would permit government agencies to charge cost-
based fees for processing siting applications and for siting on 
government land. While fees should not be revenue-generating tools for 
governments, they can and should account for the cost of reviewing and 
processing applications to ensure that reviews are completed within any 
periods required by shot-clocks. The industry is committed to working 
with state and local governments to ensure deployment is efficient and 
timely.

    Question 6. A recent article in the Las Vegas Review Journal 
reports that large areas of Las Vegas still have spotty access to 
cellular coverage.\1\ This is not acceptable in a major metropolitan 
area.
---------------------------------------------------------------------------
    \1\ Dead spots remain for many cell customers in Las Vegas Valley. 
Las Vegas Review Journal. Available at: https://www.reviewjournal.com/
business/dead-spots-remain-for-many-cell-customers-in-las-vegas-valley/
---------------------------------------------------------------------------
    Some have accused providers of ``redlining'' certain neighborhoods, 
can you provide a comment on this, including how you ensure it doesn't 
exist?
    Can you speak to any other challenges to LTE access facing larger 
cities, particularly in low income and minority communities which are 
disproportionately affected?
    Answer. Wireless coverage gets better every year and we all work 
hard to improve that coverage. One of the amazing things about the 
wireless industry is the vast competition: competition to find new 
customers and meet their demands. As a result of these market dynamics, 
wireless providers compete every day to serve new markets and 
consumers, and according to the FCC's best available data, more than 99 
percent of Americans have access to 4G LTE networks and nearly 97 
percent having access to three or more LTE providers. Not only are 
nation-wide carriers, rural and regional providers, and resellers of 
wireless services competing to reach these consumers, but they also 
offer competitive service plans that fit within consumers', including 
low-income consumers', budgets. To further facilitate wireless 
affordability, CTIA is a strong supporter of the Lifeline Program, 
which provides support to those consumers who may not be able to afford 
voice and broadband service.
    In order to further reduce disparities in coverage and ensure that 
more consumers have access to and can afford wireless services, 
Congress should continue to support policies that lower the cost of 
deployments and support targeted funding mechanisms like the Mobility 
Fund. As FCC Commissioner Carr has said, shifting the business case can 
spur carriers to invest in areas that were previously uneconomic. Smart 
reforms such as reducing barriers to accessing public rights of way, 
establishing shot clocks and enforceable remedies for the entire 
permitting process, and promoting cost-based fee methodologies can help 
bring the benefits of these networks to more Americans, including those 
in low-income communities, whether in rural or urban areas.

    Question 7. A recent Wireless Infrastructure Association report 
notes that engineers and technicians need new training as we advance 5G 
infrastructure.
    What workforce development challenges is the industry facing?
    What is being done to ensure that women and minorities have the 
chance to fill these well-paying and technical positions?
    Answer. The wireless industry prides itself on the opportunities it 
provides to all Americans to have well-paying jobs that will continue 
to be vital for decades to come. As a recent report from Recon 
Analytics showed, America's leadership in 4G LTE connectivity brought 
$100 billion to the U.S. GDP and spurred an 84 percent increase in 
wireless-related jobs. Today, wireless underpins much of our economy, 
supporting 4.6 million core wireless-related jobs and creating 6.5 more 
jobs for each direct wireless job. And next-generation 5G is expected 
to produce three million new long-term jobs for Americans of a variety 
of skills and backgrounds.
    Further, a snapshot of publically available data shows that the 
wireless industry values diversity in its workforce. AT&T was ranked 
number 3 on Diversity Inc.'s 2017 Top 50 companies for diversity; as of 
September 2017, 62 percent of T-Mobile's workforce is comprised of 
minorities; and 6 of 12 of Verizon's board members are women and/or 
minorities.

    Question 8. In your testimony you said, ``NHPA mandates alone 
recently cost a carrier more than $170,000 to install just 23 small 
cells in a parking lot. Another provider estimates that reviews under 
NHPA and NEPA comprised, on average, 26 percent of its total small cell 
deployment costs last year. And these costs are increasing; one carrier 
reports that these costs have risen by as much as 2500 percent in some 
parts of the country since 2010.'' Can you provide more detailed 
information and background on these statements?
    Answer. These examples come from public filings made by wireless 
carriers with the FCC, summarized in a February 2018 CTIA ex parte 
presentation.\2\ The first example is from Sprint, which described the 
situation it faced in deployments leading up to the 2017 Super Bowl in 
Houston, Texas in a filing with the FCC in May, 2017. The second 
example is from Verizon Wireless, which noted this figure in an ex 
parte presentation filed with the FCC in February, 2018. The third 
example is from a submission by AT&T to the FCC in February 2018.
---------------------------------------------------------------------------
    \2\ CTIA Ex Parte Presentation to FCC, WT Docket nos. 17-79, 16-421 
(filed Feb. 26, 2018), https://ecfsapi.fcc.gov/file/10226219719241/
180226%20CTIA%20Ex%20Parte%20on%20Costs%
20Associated%20with%20NEPA%20and%20NHPA%20Reviews.pdf.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                             Michael Romano
    Question 1. The next generation of technological advances--like 
self-driving vehicles--depend on increased connectivity and massive 
amounts of data. I am deeply concerned that President Trump's 
infrastructure and budget proposals do not appear to mention or 
prioritize infrastructure needs of the future, particularly around 
mobility, 5G, or connected infrastructure. What should Congress include 
in an infrastructure package to support these initiatives? What Federal 
investments are needed now to prepare for the future of mobility and 
5G?
    Answer. Preparing for 5G infrastructure means preparing for 
broadband infrastructure generally. We will need densification of fiber 
for small cells; the data demands and throughput necessary to realize 
the promise of 5G services will require placement of small cells every 
several hundred feet, and substantial new fiber connectivity to connect 
those small cells to one another and the rest of the world. It will 
therefore take a mix of dedicated funding resources and common-sense 
permitting reforms to ensure that rural Americans share in the 
communications revolution for both mobile and fixed services, all of 
which are enabled by and dependent upon a robust underlying fixed 
network.

    Question 2. The omnibus spending bill provides $600 million to RUS 
for a new pilot program of grants and loans for rural broadband 
deployment. How should the RUS plan to use these additional funds?
    Answer. RUS should target the funding to areas where no provider is 
currently operating, or for use in areas where only one provider is 
currently providing service below speeds of 10/1. Additionally, RUS and 
the FCC should coordinate on how new pilot program funds can best work 
in concert with the Universal Service Fund (USF). It would be a waste 
of taxpayer resources if multiple government programs fund competing 
networks in high-cost rural areas that can barely sustain even a single 
network, while leaving other areas entirely unserved.

    Question 3. The omnibus spending bill for FY 2018 allocated $7.5 
million for NTIA to use for the National Broadband Map, and the 
Administration has requested $50 million for FY 2019. Do you think the 
FCC or NTIA should be in charge of the National Broadband Data Map? How 
should the FCC and NTIA leverage and coordinate their resources to 
provide more accurate and granular data?
    Answer. NTCA is agnostic to what Federal agency is charged with 
creating the map, so long as providers only must report once. We would 
also strongly encourage the mapping entity to consider geocoding new 
installs. The best way to get data that can drive informed decision-
making and funding decisions in particular is to get as granular as 
geocoding new installs. Even then, a robust challenge processes will 
also be needed thereafter to ensure self-reported data are correct and 
legitimate, so that we do not leave unserved locations behind based 
upon self-proclaimed ``false positives'' of service availability.

    Question 4. As noted during the hearing, I am considering 
legislative options for modernizing the RUS Community Connect grant 
program. The program currently sets an eligibility cut off that makes 
communities ineligible if a single household has broadband service at 
or above 4/1 megabits per second. This speed threshold has not been 
updated in years, and it is substantially below the FCC's definition of 
broadband coverage at 25/3 speeds. In addition to my questions we 
discussed regarding the 4/1 speed threshold, do you have other 
recommendations for modernizing these RUS grants?
    Answer. We urge RUS to use more granular data and robust challenge 
processes to avoid ``false positives'' that deny support/loans where 
needed despite the fact that much of a community may in fact be 
unserved. Speeds of 4/1 should be updated to 10/1, but once areas 
lacking 10/1 are identified, providers should be required to aim for 
even higher speeds, with the goal of making the new networks that are 
built leveraging this program ``future-proof''--that is, built for 
effective, scalable use by consumers over the entire life of the 
network asset. Finally, as noted in other answers, it is important 
however to coordinate RUS and FCC efforts, so that program efforts are 
working in concert rather than potentially overbuilding one another in 
the form of duplicative, competing networks operated by two different 
providers.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Michael Romano
    Question 1. All of our infrastructure pushes in the past outlined a 
bold vision, such as connecting our communities with railroads and 
highways. I believe that smart, interconnected communities should be 
that vision in the 21st century, obviously broadband is a critical 
component of that. I recently saw that NTCA announced four Smart Rural 
Community Collaboration Challenge grants as part of the annual Smart 
Rural Community initiative. What are the major issues that rural 
communities are trying to overcome with smart technology?
    Answer. Many rural areas face the same exciting opportunities and 
challenges as urban areas as the incorporation of technology into all 
facets of life expands. In rural areas, however, these advancements are 
even more critical, as broadband-enabled telehealth, tele-education, 
and Internet-enabled commerce enable rural regions to reach resources 
that would be otherwise unavailable. Small rural high schools might 
lack a critical mass of students to justify the offering of certain 
niche or advanced courses. Residents of rural areas may be so far from 
comprehensive health care facilities that they either must take a full 
day for a medical appointment or may defer care altogether. This not 
only risks losing the benefits of preventative medicine, but also 
increases the likelihood of greater expense if untreated chronic or 
acute illnesses advance.
    The goal of the Smart Rural Community initiative and, in parallel, 
our members who engage these efforts, is for rural broadband providers 
to work with other community leaders to ensure that broadband is 
leveraged to improve educational opportunities, health care, public 
services and other vital aspects of life. The innovative efforts of our 
Smart Rural Community and other NTCA members strengthen their rural 
areas and, as studies exploring the interdependencies of rural and 
urban America have demonstrated, the Nation as a whole.

    Question 2. Can you provide examples of interesting things that 
have been done with this funding?
    Answer. In Princeton, Missouri, a Smart Rural Community grant 
supports a business incubator designed to train area high school 
students in business development; the facility will be staffed by 
senior citizen volunteers.
    In Havre, Montana, a Smart Rural Community grant supports a Tribal-
owned economic development agency's establishment of a virtual 
workplace suite and training center to provide educational resources 
and training for call center and other telework industries.
    In Brandon, Minnesota, an NTCA member relied upon a Smart Rural 
Community grant when partnering with a faith-based hospice to deploy 
Mi-Wi technology that enables social and medical connectivity for 
patients.

    Question 3. What are some challenges, besides the obvious lack of 
high speed broadband, that face rural areas when implementing smart 
technology?
    Answer. According to our most recent survey, 41 percent of NTCA 
members' customers enjoy fiber to the home, and about 80 percent enjoy 
speeds 10 mbps and above (67 percent enjoy speeds of 25 mbps). More 
than 100 NTCA members have been certified as Gig capable. But, we have 
many members whose deployment plans are not yet complete; and all 
members face the on-going challenges of maintaining and upgrading 
networks. Beyond those issues, NTCA members are meeting the challenges 
of introducing their customers to new technologies and demonstrating 
how the integration of those devices and applications can help assure 
rural vitality and viability. These are critical as rural demographics 
change, and as traditional employment opportunities advance to middle-
skills jobs and other careers that require greater technical education. 
NTCA, working with its members, champions collaboration among our rural 
providers and local K-12 and secondary education providers.

    Question 4. In Nevada we have the most public lands of any state in 
the Nation. In some of these remote areas, Internet access is extremely 
slow or nonexistent. This presents a number of challenges for both the 
residents who live in these areas to the government employees who 
manage them, but there's also opportunities in these places. Can you 
give an examples of any partnerships that have been done with land 
management agencies that have increased access to high speed broadband 
for these outposts?
    Can you give examples of any of these partnerships being used to 
increase access to high speed broadband to communities in these areas?
    Answer. Navigating byzantine application and review processes 
within individual Federal land-managing and property-managing agencies 
can be burdensome for any network operator, but particularly for the 
smaller network operators that serve the most rural 35 percent of the 
U.S. landmass. The review procedures can take substantial amounts of 
time, undermining the ability to plan for and deploy broadband 
infrastructure. For ways to improve the process and promote 
partnerships, we suggest reviewing the Broadband Deployment Advisory 
Committee's Streamlining Federal Siting Working Group report for 
recommendations on improving the process of building broadband on 
Federal lands; an overview of some of those recommendations was 
included with my submitted testimony.

    Question 5. The administration's proposal includes no direct 
funding for rural broadband but $50 billion for rural infrastructure, 
80 percent of which comes in the way of formula grants to the states 
who will have the discretion to doll that money out as they see fit. 
States often do not have institutions dedicated to allocating grant 
money for rural broadband like they do for projects like water or 
highways. What has been your experience in states prioritizing 
broadband over other projects like highways or water?
    Answer. Several states, including New York, Minnesota, and 
Wisconsin, have established successful broadband programs that direct 
limited resources to areas in most need in an effective and efficient 
manner. These programs focus, however, primarily upon defraying some of 
the upfront costs of network construction, and do not specifically 
address the ongoing need for support to sustain service on networks 
once built or to ensure the affordability of services provided over 
those networks. Separately, 22 states have established state universal 
service programs to help provide additional cost recovery for 
telecommunications networks and services in high-cost areas. However, 
at the end of the day, the only program that helps enable reasonably 
affordable and comparable rural broadband services in most states--and 
provides much-needed additional support even in those states that 
themselves provide some level of funding--is the Federal Universal 
Service Fund.

    Question 6. One issue of concern in ensuring that Federal funds 
that are included in any plan are well spent and not wasted. How do we 
ensure we have the proper oversight or metrics in place to ensure that 
Federal funds are well spent and reach the intended people without 
adequate service?
    Answer. To ensure proper oversight and metrics, strong 
consideration should be given to leveraging--and supplementing--the 
FCC's existing High-Cost USF initiatives as a primary means of 
implementing broadband infrastructure initiatives. The FCC is the 
Nation's expert agency in telecom policy, and it is already tackling 
broadband challenges with respect to availability and affordability. 
Moreover, recent reforms adopted by the FCC have sought to: (1) 
reorient the USF programs toward broadband, (2) ensure funding is 
targeted to where it is needed (i.e., to places where the market does 
not enable service delivery on its own), and (3) define what the FCC 
considers an efficient level of support in each area. At the very 
least, such principles and practices should guide any program that 
distributes Federal funds, regardless of which agency administers the 
program.

    Question 7. Is increasing the amount of resources to RUS and the 
FCC sufficient to meet our Nation's needs?
    Answer. Additional resources are needed to meet our Nation's 
broadband goals. For example, broadband-promoting initiatives remain 
woefully underfunded to achieve the goals for small, rural broadband 
providers. More than $66 million per year is still needed to fund a USF 
model that the FCC created to promote broadband deployment. In 
addition, under a budget control mechanism included within 2016 reforms 
that applies only to some carriers, many small rural telecom operators 
have had their support slashed by an unpredictably escalating budget 
control that now equals 12.3 percent on average, translating into 
denied recovery of more than $180 million in actual costs per year for 
private broadband investments. Although the FCC took steps to mitigate 
this budget control for the most recent twelve months, the budget 
shortfall will begin anew as of July 1, resulting in tens of millions 
of dollars per month in denied recovery for broadband infrastructure 
investment.
    Beyond these concerns, there are many areas--especially in rural 
America--where broadband remains lacking, and there is no prospect of 
the private sector stepping in to fill that gap given the challenges of 
distance and density that make a business case for investment 
impossible to justify. Additional resources to help defray the upfront 
costs of construction and/or provide ongoing support that helps to make 
the business case for investment and operation are needed if we will 
realize the goal of universal broadband access.

                                  [all]
</pre></body></html>
